No. 20In the

Supreme Court of the United States
HERMAN MILLER, INC.,
Petitioner,
v.
BLUMENTHAL DISTRIBUTING, INC.
D/B/A OFFICE STAR,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Jean-Paul Ciardullo
Foley & Lardner LLP
555 South Flower Street,
Suite 3000
Los Angeles, California 90071
(213) 972-4500
jciardullo@foley.com

Jonathan E. Moskin
Counsel of Record
Foley & Lardner LLP
90 Park Avenue
New York, New York 10016
(212) 682-7474
jmoskin@foley.com

Counsel for Petitioner

300569

A
(800) 274-3321 • (800) 359-6859

QUESTIONS PRESENTED
Where the appellate court in this action substituted its own findings of fact in
place of a jury verdict; and where it is undisputed that the jury was properly and
precisely instructed as to the applicable law; and where the jury verdict was
sustained by the district court after post-trial motions, should this Court enter an
order granting, vacating and remanding in view of the identical or nearly identical
question raised in the case already pending in this Court in Google, LLC v. Oracle

America, Inc., No. 18-956 where the appellate court likewise displaced the jury’s
factual findings.

i

RULE 29.6 STATEMENT
Herman Miller, Inc. is a publicly held corporation, with no parent or other
corporation holding more than 10% of its issued shares.

ii

RELATED CASES

Blumenthal Distributing, Inc. v. Herman Miller, Inc., Nos. 18-56471 and 1856493 in the Ninth Circuit. Judgment entered June 25, 2020. Rehearing denied
August 4, 2020.
Blumenthal Distributing, Inc. v. Herman Miller, Inc., No. 5:14-cv-01926-JAKSP in the Central District of California. Judgment entered August 1, 2017.

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................................................................... i
RULE 29.6 STATEMENT ............................................................................................. ii
RELATED CASES ........................................................................................................ iii
TABLE OF CONTENTS ............................................................................................... iv
TABLE OF AUTHORITIES .......................................................................................... v
OPINIONS BELOW ...................................................................................................... 1
JURISDICTION............................................................................................................. 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ....................... 2
INTRODUCTION .......................................................................................................... 3
I.

STATEMENT OF THE CASE ................................................................. 6

II.

ARGUMENT........................................................................................... 11
A.
B.
C.

D.
E.

Certiorari Should Be Granted Because The Panel
Erroneously Substituted Its Own Assessment of Fact For
the Jury’s...................................................................................... 11
The Ninth Circuit Majority Created An Undefined
“Household Name” Test To Replace The Unambiguous
Statutory Language Based On .................................................... 14
Contravening The Statute And Ninth Circuit Precedent,
The Majority Has Imposed A De Facto Requirement Of
Consumer Survey Evidence For Any Trademark Not
Deemed A “Household Name” By The Presiding Judge ............ 20
The Panel Erred By Assigning No Weight To The Fact
That Trade Dress Product Designs Can Become Famous
Simply By Having Been Widely-Seen For A Long Time ............ 21
This Case Is A Proper Companion to Google v. Oracle .............. 23

CONCLUSION............................................................................................................. 24

iv

TABLE OF AUTHORITIES
Page(s)
CASES

Abbott v. U.S., 562 U.S. 8 (2010) ............................................................................26
Acad. of Motion Picture Arts & Scis. v. GoDaddy.com, Inc.,
No. CV 10-03738 –AB (CWx), 2015 U.S. Dist. LEXIS 186627 (C.D. Cal. Apr.
10, 2015) .............................................................................................................24
adidas Am., Inc. v. Skechers USA, Inc., 890 F.3d 747 (9th Cir. 2018)....................22
Barnard v. Theobald, 721 F.3d 1069 (9th Cir. 2013) ..............................................11
Bell Helicopter Textron Inc. v. Islamic Republic of Iran, 764 F. Supp. 2d 122
(D.D.C. 2011) .....................................................................................................21
Bell v. Foster, No. 1:13-CV-405-TWT,
2013 WL 6229174 (N.D. Ga. Dec. 2, 2013).......................................................21
Biotab Nutraceuticals, Inc. v. Beamonstar, LLC,
No. CV10 5335 SVW (JEMx), 2011 WL 6176219 (C.D. Cal. Dec. 9, 2011) ...21
Coach Servs., Inc. v. Triumph Learning LLC, 668 F.3d 1356 (Fed. Cir. 2012)......20
Coach, Inc. v. We Care Trading Co. Inc., 67 F. App’x 626 (2d Cir. 2002) ..... 20, 22
Cointreau Corp. v. Pura Vida Tequila Co., LLC,
Civil Action No. 3:12-CV-02257-N, 2012 U.S. Dist. LEXIS 197071 (N.D. Tex.
Oct. 2, 2012) .......................................................................................................21
Dairy Queen, Inc. v. Wood, 369 U.S. 469 (1962)................................................5, 14
Dimick v. Schiedt, 293 U.S. 474 (1935)...................................................................14
Eastman Kodak Co. v. Image Tech. Servs., Inc., 504 U.S. 451 (1992) ...................14
Exxon Mobil Corp. v. Allapattah Servs., Inc., 545 U.S. 546 (2005) .......................18
Flowers v. Mississippi, 136 S. Ct. 2157 (2016) .........................................................6
Galloway v. United States, 319 U.S. 372 (1943) .....................................................15
v

Gasperini v. Ctr. for Humanities, Inc., 518 U.S. 415 (1996) ..................................13
Google, LLC v. Oracle America, Inc., No. 18-956 .................... i, 4, 5, 13, 14, 15, 26
Harper v. City of Los Angeles, 533 F.3d 1010 (9th Cir. 2008) ...............................11
Heckler & Koch, Inc. v. German Sport Guns GmbH,
71 F. Supp. 3d 866 (S.D. Ind. 2014) ...................................................................20
Horphag Research Ltd. v. Garcia, 475 F.3d 1029 (9th Cir. 2007) .........................21
Jada Toys, Inc. v. Mattel, Inc., 518 F.3d 628 (9th Cir. 2008) .................................20
Lamie v. U.S. Trustee, 540 U.S. 526 (2004) ............................................................18
Lavender v. Kurn, 327 U.S. 645 (1946)...................................................................12
Lawrence v. Chater, 516 U.S. 163 (1996) .................................................................5
Maljack Prods. v. Goodtimes Home Video Corp., 81 F.3d 881 (9th Cir. 1996) .....25
Moseley v. V Secret Catalogue, Inc., 537 U.S. 418,
123 S.Ct. 1115, 155 L.Ed.2d 1 (2003) ................................................................17
Parsons v. Bedford, Breedlove & Robeson, 28 U.S. 433 (1830)...................... 14, 15
QS Wholesale, Inc. v. Rox Volleyball, Inc.,
No. SACV 13-0512 AG (JPRx), 2015 U.S. Dist. LEXIS 95767 (C.D. Cal. July
19, 2015) .............................................................................................................24
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133 (2000) .................. 12, 13
Robinson v. Story, 105 S. Ct. 583 (Mem) (1984) ......................................................6
Shady Grove Orthopedic Associates v. Allstate Insurance Company,
559 U.S. 393 (2010) ............................................................................................18
Slocum v. N.Y. Life Ins. Co., 228 U.S. 364 (1913) ..................................................15
Stone Brewing Co., LLC v. MillerCoors LLC, 445 F. Supp. 3d 1113 (S.D. Cal.
2020) ...................................................................................................................20
Stutson v. United States, 516 U.S. 193 (1996) ...........................................................6
Tennant v. Peoria & P. U. Ry. Co., 321 U.S. 29 (1944) .........................................12
vi

Thane Int’l v. Trek Bicycle Corp.,
305 F.3d 894 (9th Cir. 2002) ..................................................... 18, 19, 21, 22, 25
U.S. v. Eichman, 494 U.S. 1063 (1990) ...................................................................26
Visa Int’l Serv. Ass’n v. JSL Corp., 610 F.3d 1088 (9th Cir. 2010) ..........................7
Webster v. Cooper, 130 S. Ct. 456 (Mem), 456-57 (2009) .......................................6
Zadvydas v. Davis, 533 U.S. 678 (2001) .................................................................26
STATUTES

15 U.S.C. § 1052(c)(2) ...............................................................................................2
15 U.S.C. § 1125(c) ...............................................................................................3, 9
28 U.S.C. § 1254(1) ...................................................................................................1
RULES

Fed. R. Civ. P. 50(a)(1) ............................................................................................12
Fed. R. Civ. P. 50(b) ................................................................................................10
TREATISES

1 J. Thomas McCarthy, McCarthy on Trademarks and Unfair Competition, §3:12
(5th ed.) ...............................................................................................................25
The Rational Basis of Trademark Protection, 40 Harvard Law Review 813,
22 TM Bull 139 (1927) .......................................................................................17

vii

OPINIONS BELOW
The opinion of the Court of Appeals (Appendix A) is reported at Blumenthal

Distributing, Inc. v. Herman Miller, Inc., 963 F.3d 859 (9th Cir. 2020). The order of
the Court of Appeals denying Herman Miller’s motion for rehearing en banc
(Appendix E) is not reported.

The opinion of the district court denying Blumenthal

Distributing Inc.’s motion for JMOL (Appendix B) is reported at 2017 WL 3271706
(C.D.Cal. Aug. 1, 2017).

The magistrate judge’s report and recommendation

awarding attorneys’ fees (Appendix D) is not reported, nor is the district court’s
memorandum opinion confirming the magistrate judge’s recommendation awarding
attorneys’ fees. (Appendix C.)
JURISDICTION
The judgment of the Court of Appeals was entered on June 25, 2020. The
jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1). The Court of Appeals
also denied Herman Miller’s request for rehearing en banc on August 4, 2020, and
Herman Miller’s petition is therefore filed pursuant to the Court’s March 19, 2020
Order extending deadlines as a result of health concerns relating to COVID-19.

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
15 U.S.C. § 1052(c)(2) provides the following predicate definition of “fame” for
purposes of proving a “famous” trademark has been diluted:
(A) For purposes of paragraph (1), a mark is famous if it is widely
recognized by the general consuming public of the United States as a
designation of source of the goods or services of the mark’s owner. In
determining whether a mark possesses the requisite degree of
recognition, the court may consider all relevant factors, including the
following:
(i) The duration, extent, and geographic reach of advertising and
publicity of the mark, whether advertised or publicized by the owner or
third parties.
(ii) The amount, volume, and geographic extent of sales of goods
or services offered under the mark.
(iii) The extent of actual recognition of the mark.
(iv) Whether the mark was registered under the Act of March 3,
1881, or the Act of February 20, 1905, or on the principal register.

The United States Constitution, Amendment VII, provides:
In Suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a jury, shall
be otherwise re-examined in any Court of the United States, than according to the
rules of the common law.

2

INTRODUCTION
Petitioner, Herman Miller, Inc. (“Herman Miller”), seeks review of the June
25, 2020 Ninth Circuit Panel ruling in this case. In a 2-1 decision, the Panel in
relevant part reversed the District Court’s Final Judgment and underlying jury
verdict in favor of Herman Miller that the well-known Eames Aluminum Group
(“Eames”) chair design is “famous” within the meaning of the Lanham Act antidilution statute, 15 U.S.C. § 1125(c). The jury’s finding of fame had supported a
further finding that the chairs sold by Plaintiff-Appellant Blumenthal Distributing,
Inc. (d/b/a Office Star, “OSP”) not only infringed but also diluted Herman Miller’s
trade dress rights, warranting a separate award of damages in addition to the
damages for infringement. The Ninth Circuit affirmed the jury verdict of trademark
infringement, but in its 2-1 decision, which included a dissent properly setting forth
the deferential standard appropriate for jury findings of fact, the Panel overturned
the jury verdict of fame and dilution. The Ninth Circuit on August 4, 2020 denied
Herman Miller’s petition for rehearing en banc.
Despite the test for fame being specifically prescribed by the Statute, and
despite OSP having made no objection on appeal to the jury instruction that expressly
and exactly incorporated this statutory test, quoted above, the majority reversed the
jury verdict on this fact-intensive question, and further made incorrect assumptions
as to the factual record when it adopted a test for fame that a mark must be a
“household name” (emphasis added). This test is not found in the unambiguous
statutory language or the concededly correct jury instruction, and it fails to account
for the critical difference between trade names, household or otherwise, and trade
3

dress (i.e., product designs) at issue in this case. For the same reasons articulated in
the dissent, and as further set forth below, the Panel erred as a matter of law in
disregarding the jury verdict and replacing it with its own factual findings.1
In the recent case, Google, LLC v. Oracle America, Inc., No. 18-956, this Court
specifically requested briefing on the virtually identical issue present here, to assess
the implications of the Seventh Amendment, if any, on the standard of review there
applied when the Court of Appeals for the Federal Circuit in that case overturned a
jury finding of fair use under the Copyright Act of Oracle’s Java code. Precisely as in

Google, LLC (indeed to paraphrase its supplemental letter-brief), “[OSP] moved for
judgment as a matter of law (JMOL) under Federal Rule of Civil Procedure 50. The
district judge denied that motion in a detailed opinion that applied a well-settled
standard of review: It construed the evidence in support of the verdict and concluded
that a reasonable jury, after weighing all that evidence and applying the court’s
instructions, could find [fame].” (Google Letter Br. at 1.) And also as in Google, LLC,
as shown by the dissent, “[t]he [Ninth] Circuit [majority] wrongly applied a
dramatically less deferential standard of review.” (Id.) Going even further than the
appellate court in Google LLC, the Ninth Circuit also made incorrect factual
assumptions whether third parties had made use of Herman Miller’s design.

Ironically, while the Panel’s decision on other aspects of the appeal
recognized the importance of trade dress protection for iconic product designs under
the framework Congress adopted and this Court repeatedly has upheld, the majority’s
decision on fame of the Eames chair design has the likely effect of precluding
protection for many of the most celebrated American industrial designs in history
under the anti-dilution statute for the simple reason they are not “names” at all.
1

4

This Court in Google LLC deemed the issue of protecting the jury’s function
under the Seventh Amendment sufficiently important to request briefing on the
issue. This case may present an even clearer instance for protecting the jury function
because the jury was instructed to follow the precise test established by Congress,
whereas the fair use precedents in Google, LLC are less sharply defined. Moreover,
magnifying the factual error of the majority decision is that, to the extent it
recognized that there are factual differences between trademarks and trade dress,
the Panel simply speculated that consumers might not associate the shape of the
Eames design with a single source. (963 F.3d at 871, fn. 4.) In fact, OSP presented
no evidence of any third-party use of the design. Hence, the jury had no basis to make
the assumption cited in the majority decision.
It has not been in doubt for over half a century that a claim for damages under
the Lanham Act entails a right to a jury trial. Dairy Queen, Inc. v. Wood, 369 U.S.
469 (1962). Because the forthcoming decision in Google, LLC will likely be dispositive
of the question raised here, a GVR order is appropriate. The standard for a GVR is
more liberal than the Rule 10 standard for plenary review. A GVR is ordinarily
appropriate when there is “a reasonable probability that the decision below rests
upon a premise that the lower court would reject if given the opportunity for further
consideration, and where it appears that such a redetermination may determine the
ultimate outcome of the litigation.” Lawrence v. Chater, 516 U.S. 163, 167 (1996)
(per curiam); see also Flowers v. Mississippi, 136 S. Ct. 2157, 2157 (2016) (Alito, J.,
dissenting from decision to GVR) (a GVR is appropriate when the Court concludes

5

“that the lower court should give further thought to its decision in light of an opinion
of this Court that (1) came after the decision under review and (2) changed or clarified
the governing legal principles in a way that could possibly alter the decision of the
lower court”).
The “largest category of ‘GVRs’ that now exists” comprises cases “in which an
intervening event (ordinarily a post-judgment decision of this Court) has cast doubt
on the judgment rendered by a lower federal court or a state court concerning a
federal question.” Stutson v. United States, 516 U.S. 193, 180 (1996) (Scalia, J.,
dissenting) (citations omitted). In fact, the Court has “sometimes GVR’d in light of
decisions that preceded the decision vacated” by a number of months. Webster v.

Cooper, 130 S. Ct. 456 (Mem), 456-57 (2009) (Scalia, J., dissenting) (citation omitted);
Robinson v. Story, 105 S. Ct. 583 (Mem) (1984) (GVR for further consideration in light
of a decision of this Court rendered almost three months before the court of appeals
made its decision).
I.

STATEMENT OF THE CASE
Below are sample images of the Eames chairs. (9th Cir. Dkt. 25, Supplemental

Excerpts of Record [“SER”] 1530-1547.)

6

In addition to asserting claims of trade dress infringement (likelihood of
confusion) against OSP (on which Herman Miller prevailed), Herman Miller also
asserted a claim for dilution. A dilution claim provides a remedy even in the absence
of consumer confusion, such as when consumers may be aware they are buying a
knock-off, but the proliferation of the knock-offs ultimately undermines the brand.

See Visa Int’l Serv. Ass’n v. JSL Corp., 610 F.3d 1088, 1090 (9th Cir. 2010).
The unrebutted evidence at trial showed that the Eames chairs are icons of
American design.

Designed in the 1950s by the celebrated husband and wife

industrial designers Charles and Ray Eames, the Eames chairs have been sold
continuously in the United States and around the world by Herman Miller for sixtytwo years. (SER 71-78.) Contrary to the Panel’s assumption, there was absolutely
no evidence presented to the jury of third-party use that might have limited the
exclusive association of the design with Herman Miller.
The unrebutted record further showed the unusual history of these designs
that have made them icons of popular culture. Expert furniture historian, John
Berry, demonstrated without contradictory evidence that the design is unique,
historically significant, and has been inducted into numerous art museums, including
the Museum of Modern Art and the Los Angeles County Museum of Art. (SER 6880). The Eames design is also ubiquitous in movies, television shows (conspicuously
in the popular series Mad Men, viewed by millions), and publications. (SER 93, 156158, 160-166, 485-487, 1347-49; 9th Cir. Dkt. 18-1, Excerpts of Record [“ER”] 517522, 679.)
7

Although the iconic status of the designs far transcends sales numbers alone,
the source of that recognition includes Herman Miller’s sales of 340,000 units from
1991-2015, and its marketing expenditures of approximately $6.6 million from 20042015 (SER 1549-1551, 1558, 1559), with similar metrics stretching back to the 1950s.
(SER 134; 136-137.) Testimony as to marketing and public awareness was also
unrebutted (SER 140-188), as is the fact that the chairs are ubiquitous in American
conference rooms, hotels, and public spaces. (SER 146-147.)
OSP introduced no contrary evidence and, despite the Panel’s assumption, no
evidence of third-party chair designs that might diminish the exclusive association of
the Eames design with a single source. OSP’s own seating designer admitted that
Eames is famous. (SER 277-278.) One of OSP’s business partners commented that
“[r]ight now if someone is sitting in an office chair, they are either sitting in a Herman
Miller Aeron chair or an Eames chair, which is what your chairs look like” – a premise
OSP accepted. (SER 1409-1410.)
It is also undisputed that the Eames chairs have been widely seen by virtue of
having served as communal seating and been featured in popular culture for decades.
Any one chair sold by Herman Miller has been seen (or sat in) by countless thousands
of people, exponentially increasing their exposure across the entire U.S. population.

The trial evidence indeed supported the likely inference that, sixty-two years after its
introduction, virtually any American who has ever visited office buildings or watched
television or movies will in fact have seen the Eames chairs - probably many times.
At trial, Jury Instruction 30 (SER 1759) directed the Jury to assess fame by

8

applying the same test prescribed by the statute, 15 U.S.C. § 1125(c):
(A) For purposes of paragraph [15 U.S.C. § 1125(c)(1)], a mark is famous
if it is widely recognized by the general consuming public of the United
States as a designation of source of the goods or services of the mark’s
owner. In determining whether a mark possesses the requisite degree
of recognition, the court may consider all relevant factors, including the
following:
(i) The duration, extent, and geographic reach of advertising and
publicity of the mark, whether advertised or publicized by the owner or
third parties.
(ii) The amount, volume, and geographic extent of sales of goods or
services offered under the mark.
(iii) The extent of actual recognition of the mark.
(iv) Whether the mark was registered under the Act of March 3, 1881,
or the Act of February 20, 1905, or on the principal register.
Applying this statutory test, the Jury found that the Eames designs are
famous; that they had been diluted, and that Herman Miller’s damages from the
violation was $5.1 million (an amount later remitted to $3 million).
example images of OSP’s accused knock-offs. (ER 470-80.)

9

Below are

OSP moved after trial under Fed. R. Civ. P. 50(b) to set aside the dilution
verdict for insufficient evidence of fame, but the District Court denied that motion
(instead only ordering a damages remittitur to $3 million). (ER 25-74.)
On appeal, OSP did not challenge the jury instruction (see Dkt. 17), and in
arguing only insufficient evidence, did not suggest the statutory language was
ambiguous or required interpretation. Instead, OSP largely rested its argument on
the lack of a consumer survey and ignored extensive evidence of how widely seen the
Eames chairs have been for decades. (Dkt. 17 at 55-56.)
In deciding the various issues on appeal (of which dilution was only one) the
Ninth Circuit Panel upheld the Jury’s verdict that OSP had infringed (i.e., created a
likelihood of confusion with) the Eames trade dress. However, in a 2-1 vote with a 5page dissent, the Panel ruled that there was insufficient evidence of fame to support
the Jury’s verdict on dilution. For the same reasons articulated in the dissent, and
those articulated below, the Panel erred as a matter of law in disregarding the jury
verdict and replacing it with its own factual findings.

10

II.

ARGUMENT
A.

Certiorari Should Be Granted Because The Panel Erroneously
Substituted Its Own Assessment of Fact For the Jury’s

Consistent with this Court’s precedents, the Ninth Circuit dissent correctly set
forth the standard of review: A jury’s verdict must be sustained unless “the evidence,
construed in the light most favorable to the nonmoving party, permits only one
reasonable conclusion, and that conclusion is contrary to the jury’s verdict.” Harper

v. City of Los Angeles, 533 F.3d 1010, 1021 (9th Cir. 2008) (citation omitted). Only
in “rare cases” may a jury’s verdict be overturned under this deferential standard.

Barnard v. Theobald, 721 F.3d 1069, 1076 (9th Cir. 2013).
As this Court has clarified, courts reviewing general verdicts must construe all
the facts—including all inferences drawn from the evidence—in support of the
verdict. Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 150-151 (2000).
The court must then affirm if a “rational trier of fact” could have reached the jury’s
conclusion. Id. at 153. By contrast, the Panel majority substituted its own inferences,
and on the key distinction between trademarks and trade dress, improperly assumed
there was a reason for the jury to question the exclusive association of the Eames
design with a single source. 963 F.3d at 871, fn. 4. The Panel majority further
departed from this Court’s similar precedents that Rule 50 authorizes a court to
overturn a jury verdict only if “a reasonable jury would not have a legally sufficient
evidentiary basis to find for [a] party.” Fed. R. Civ. P. 50(a)(1).
As emphasized by the dissent, the Ninth Circuit departed from this settled

11

standard of review, replacing the jury’s finding under the literal language of the
statute with its own subjective view. In so-doing, the Ninth Circuit undermined the
fundamental rule that a reviewing court may not “reweigh the evidence and set aside
the jury verdict merely because the jury could have drawn different inferences or
conclusions or because [the court] fe[lt] that other results are more reasonable.”

Tennant v. Peoria & P. U. Ry. Co., 321 U.S. 29, 35 (1944); see also Lavender v. Kurn,
327 U.S. 645, 653 (1946).
This case presents an issue identical to the issue already before the Court in

Google, LLC. Indeed, as in Google, LLC, the Ninth Circuit failed to give due deference
to the trial judge, who presided over a two-week trial and was able to assess not only
the affirmative evidence presented but also the admissions of fame by OSP, the
credibility of the witnesses and the absence of contrary evidence. Based on this direct
knowledge, the trial judge denied OSP’s JMOL motion.
The Ninth Circuit also departed from this Court’s guidance that “[w]ithin the
federal system, practical reasons combine with Seventh Amendment constraints to
lodge in the district court, not the court of appeals, primary responsibility” for
determining whether an evidentiary record supports the jury’s determination.

Gasperini v. Ctr. for Humanities, Inc., 518 U.S. 415, 438 (1996) (addressing district
court’s denial of Rule 59 motion arguing that the jury’s damages award was excessive
as a matter of law). Gasperini held: “[t]rial judges have the unique opportunity to
consider the evidence in the living courtroom context, while appellate judges see only
the cold paper record.” Id. (citations and internal quotation marks omitted). Both

12

the jury’s constitutionally-prescribed role and the district judge’s familiarity with the
record thus warrant giving greater deference to the verdict on appeal. Cf. Reeves,
530 U.S. at 151-154 (reinstating jury’s verdict in similar posture).2 The verdict here
thus should be reinstated.
This Court, in Google, LLC, is already considering the extent to which the
Seventh Amendment prevents such an intrusion on the jury right as was effected by
the Ninth Circuit in this action.

As Google has there explained, the Seventh

Amendment ensures that “[i]n Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury shall be preserved, and no fact
tried by a jury, shall be otherwise re-examined in any Court of the United States,
than according to the rules of the common law.” U.S. Const. amend. VII. The phrase
“rules of the common law” refers to the “common law in respect of trial by jury as
these rules existed in 1791” in England. Dimick v. Schiedt, 293 U.S. 474, 487 (1935);

Parsons v. Bedford, Breedlove & Robeson, 28 U.S. 433, 446, 448 (1830).
This Court has already held that a claim for damages under the Lanham Act
entails a right to a jury trial. Dairy Queen, Inc. v. Wood, 369 U.S. 469 (1962). In
this case, the Ninth Circuit majority not only substituted its own assessment of
fame under the Lanham Act, but in so doing vacated the jury award of damages.
In vacating the jury verdict and the substantial award of damages, the Ninth

The district court judge also denied OSP’s motion for summary judgment on the issue of
fame on March 31, 2016 (ECF 192 at 26-27), finding disputed issues of fact, but this decision, which
would have been entitled to less deference, was not at issue before the Ninth Circuit. See Eastman
Kodak Co. v. Image Tech. Servs., Inc., 504 U.S. 451, 465 fn. 10 (1992) (district court’s grant of summary
judgment on ground that no trial is necessary is not reviewed deferentially).
2

13

Circuit majority thus acted contrary to the Seventh Amendment’s Re-examination
Clause, which safeguards the jury’s express or implied factual determinations.

Slocum v. N.Y. Life Ins. Co., 228 U.S. 364, 379-380 (1913). The Court “read[s] it as a
substantial and independent clause.” Parsons, 28 U.S. at 447 (Story, J.) Just as the
Federal Circuit improperly supplanted a jury verdict of fair use in Google, LLC, the
Ninth Circuit improperly replaced the jury’s assessment of a detailed factual record,
applying a jury instruction that precisely embodied the statutory test of fame, thus
violating the Seventh Amendment’s guarantee “that the jury be allowed to make
reasonable inferences from facts proven in evidence having a reasonable tendency to
sustain them.” Galloway v. United States, 319 U.S. 372, 396 (1943).
For its part, Oracle defended the Federal Circuit’s decision primarily on
grounds unique to the copyright fair use doctrine there at issue, including whether
there existed a jury right for the doctrine as of 1791 and whether fair use presents
mixed issues of fact and law. Here, there is no dispute that the jury’s finding of fame
and award of dilution damages was a factual determination based on an unassailably
correct jury instruction.
B.

The Ninth Circuit Majority Created An Undefined “Household Name”
Test To Replace The Unambiguous Statutory Language

Without questioning whether there are situations where a court can find as a
matter of law that a jury lacks sufficient evidence to find dilution under the statutory
test, the majority impermissibly went beyond that here to reject a jury verdict based
on an unassailably correct jury instruction and adopt a “household name” legal test

14

– an ambiguous legal test that appears nowhere in the unambiguous language of the
statute. Under the majority’s legal test, federal judges would be empowered to
substitute their own personal assessments, independent of or at odds with the jury,
as to whether a trademark or trade dress is a “household name” by applying some
undefined set of metrics.
If left to stand, the Ninth Circuit’s decision will weaken jury rights in general,
including outside of the trade dress context, by allowing appellate courts to substitute
their interpretations of the factual record for those already made by a jury. Notably,
the majority cited no case (and Herman Miller is aware of none) in which a jury
verdict of any kind was overturned where it was undisputed that the jury was
properly instructed as to the unambiguous requirements of a statute that provided
the relevant legal test.
In briefing the appeal, neither party addressed the legislative history of the
dilution statute or sought to challenge the meaning of the words Congress chose. It
therefore bears noting that the dilution theory traces to an article written 93 years
ago, Frank I. Schechter, The Rational Basis of Trademark Protection, 40 Harvard
Law Review 813, 22 TM Bull 139 (1927). Schechter advocated expanding trademark
rights at a time (long before passage of the Lanham Act) when the scope of trademark
protection was limited to goods or services having the “same descriptive qualities.”
To highlight his point, Schechter focused on the manifest unfairness that even marks
that were household names could not prevent use of those names on unrelated goods,
examples being Buick aspirin or Kodak bicycles. Congress almost enacted a dilution

15

statute in 1988, and finally did in 1995 (the Federal Trademark Dilution Act or
“FTDA”), before amending it in 2006 (the Trademark Dilution Revision Act or
“TDRA”) in the wake of the Supreme Court decision, Moseley v. V Secret Catalogue,

Inc., 537 U.S. 418 (2003), which limited the scope of the statute by requiring proof of
actual dilution (now not required under the TDRA). However, in neither version of
the statute did Congress adopt the standard that a mark must be a “household name.”
Rather, in 1995, Congress included an eight-part test, whereas in 2006 it included an
expansive four-part test.
The majority did not address the specific language of the 2006 TDRA, and did
not identify anything ambiguous in the statute warranting creation of a new
standard, but instead imported an understanding of the statute derived from the
earlier law, the 1995 FTDA statute, as that law was construed in Thane Int’l v. Trek

Bicycle Corp., 305 F.3d 894 (9th Cir. 2002). Without engaging in any systematic
statutory analysis, Thane itself appears simply to have made assumptions that the
1995 statute required reinterpretation by the courts.3
In construing a statute, courts should avoid guessing at what Congress “likely”
intended where the statute language itself is unambiguous. Shady Grove Orthopedic

Assocs., P.A. v. Allstate Ins. Co., 559 U.S. 393, 403 (2010) (“We cannot rewrite that
to reflect our perception of legislative purpose.”); Lamie v. U.S. Trustee, 540 U.S. 526,
541-42 (2004) (“[C]ompeting interpretations of the legislative history…illustrate the

Thane, 305 F.3d at 910 (“Because some limitation on what qualifies as famous is necessary
and because the statutory language provides no guidance in shaping this limitation, Congress likely
passed § 1125(c) ‘counting on courts to understand the legislature's intentions and to interpret the
word or phrase in a sensible manner to carry out those intentions.’”).
3

16

difficulty of relying on legislative history here and the advantage of our determination
to rest our holding on the statutory text.”); Exxon Mobil Corp. v. Allapattah Servs.,

Inc., 545 U.S. 546, 568 (2005) (“As we have repeatedly held, the authoritative
statement is the statutory text, not the legislative history or any other extrinsic
material.”).
The Panel majority did not find anything ambiguous in the current statute
warranting any reinterpretation, much less a reason to apply to the current statute
a specific gloss placed on the predecessor statute by Thane. It did not even consider
the issue.
The parties never briefed the question of statutory interpretation and, indeed,
in neither the district court nor on appeal did OSP ever suggest that Thane enshrined
a “household name” doctrine that surpassed in significance Congress’ actual statutory
language.
On the question of statutory construction, Thane begins by noting some basic
limits on the court’s role as well as the narrow significance of its own ruling:
We may not interpret the statute so narrowly as to compromise the
evident intent [of Congress]. We therefore agree with the Second Circuit
that, in considering this new statutory right, “courts … do better to feel
their way from case to case,” Nabisco, 191 F.3d at 227, rather than ruling
in sweeping brush strokes.
305 F.3d at 905.
Explaining its reasoning, the majority here explained simply that: “Although

Thane interpreted the FTDA of 1995, we do not interpret the TDRA of 2006 to have
lowered the standard for whether a mark ‘has achieved fame among the general
consuming public.’” 963 F.3d at 871 (quoting Thane, 305 F.3d at 911). In so doing,
17

the majority here appears to have abandoned the narrow case-by-case approach
articulated in Thane, instead setting a firm baseline set of factors not specified in the
statute and not directly relevant to the facts of this case. The majority supported this
more categorical approach by citing Coach Services, Inc. v. Triumph Learning LLC,
668 F.3d 1356, 1372–73 (Fed. Cir. 2012), which held that Congress use of the phrase
“general consuming public” as the benchmark entailed a requirement that a mark be
a “household name.” Id.
However, Congress did not adopt a one-size-fits-all set of metrics, nor did it use
the term “household name” as a benchmark: it used a four-part test that was precisely
encompassed by Jury Instruction 30. Nor have the Ninth Circuit or other courts
insisted that success in only a narrow product category precludes a finding that trade
dress has achieved the requisite fame. Jada Toys, Inc. v. Mattel, Inc., 518 F.3d 628,
635 (9th Cir. 2008) (“Hot Wheels” toy); Coach, Inc. v. We Care Trading Co. Inc., 67 F.
App’x 626, 630 (2d Cir. 2002) (Coach hang tag). And cases applying the dilution
statute, as amended, have not applied any rigid test of the level of fame. 4 Although
the majority distinguishes one of the cases cited by Herman Miller, Horphag

Stone Brewing Co., LLC v. MillerCoors LLC, 445 F. Supp. 3d 1113, 1148 (S.D. Cal. 2020)
(notwithstanding questions as to fame, triable issues of fact with respect to fame of “STONE” mark
precluded summary judgment); Heckler & Koch, Inc. v. German Sport Guns GmbH , 71 F. Supp. 3d
866, 921–24 (S.D. Ind. 2014) (Triable issue of fact with respect to fame of MP5 submachine gun trade
dress); Bell v. Foster, No. 1:13-CV-405-TWT, 2013 WL 6229174, at *6 (N.D. Ga. Dec. 2, 2013)
(unregistered “Jack the Rapper” mark held famous); Bell Helicopter Textron Inc. v. Islamic Republic
of Iran, 764 F. Supp. 2d 122, 128 (D.D.C.) (helicopter trade dress found famous, distinct, and diluted),
vacated on other grounds, 892 F.Supp.2d 219 (D.D.C. 2012); Biotab Nutraceuticals, Inc. v.
Beamonstar, LLC, No. CV10 5335 SVW (JEMx), 2011 WL 6176219, at *4-5 (C.D. Cal. Dec. 9, 2011)
(finding famous the mark “ExtenZe” for a supplement); Cointreau Corp. v. Pura Vida Tequila Co., LLC,
Civil Action No. 3:12-CV-02257-N, 2012 WL 12886422, at *10 (N.D. Tex. Oct. 2, 2012) (finding famous
the mark “Cointreau” for alcohol).
4

18

Research Ltd. v. Garcia, 475 F.3d 1029, 1038 (9th Cir. 2007), which affirmed as
famous the mark “Pycnogenol” for a supplement, on grounds that the defendant did
not challenge fame, here too OSP presented no evidence at trial challenging the fame
of the Eames design.
Stated differently, in future cases juries (or district judges, in taking the
question away from those juries) henceforth are permitted to reject what the statute
literally says and instead apply the Thane metrics of “household name” status or
other possible tests.
The “household name” test is particularly problematic for trade dress product

designs like Eames, which are not “names” at all. Iconic designs like the classic Coca
Cola bottle are every bit as deserving of protection from dilution as word marks. See,

e.g., adidas Am., Inc. v. Skechers USA, Inc., 890 F.3d 747, 754 (9th Cir. 2018) (fame
found under same evidence articulated in relation to likelihood of confusion for threestripe design used only on sneakers); Coach, Inc., 67 F. App’x at 630 (affirming jury
verdict that Coach hang-tag was famous). Yet the majority decision casts doubt on
the possibility that a design can be protected from dilution because a design (unlike
a word) cannot readily be expanded to other products. Most of the discussion in

Thane about the meaning of the 1995 statute only makes sense with respect to word
marks, in particular whether their “aura” could extend to non-competitive products
(such as Buick aspirin). By contrast, the Eames design can only be used as a chair.
Indeed, in Thane the name Trek was commonly used in the English language in
contexts completely unrelated to bicycles, whereas the singular Eames design has no

19

parallel.
The fame of the Eames chairs comes not only from the sales metrics that the
majority focused on, but rather from the simple fact – unrebutted – that these chairs
have been ubiquitously in the public eye for more than sixty years. The evidence at
trial showed that they have permeated popular culture in movies and television, have
been on long term display in our most visited and admired art museums, and been
used as communal seating in offices and public spaces for decades. Any one chair
used for communal seating may have been seen or sat in by many thousands of people,
exponentially increasing exposure to these iconic designs far beyond the number of
chairs ever sold. Likewise, the chairs’ frequent appearances in popular culture and
mass media as a status item have given them a place in the American psyche that
transcends the sales of the chairs by themselves.
C.

Contravening The Statute And Ninth Circuit Precedent, The Majority
Has Imposed A De Facto Requirement Of Consumer Survey Evidence
For Any Trademark Not Deemed A “Household Name” By The Presiding
Judge

Although the majority does not explicitly so-state, its decision creates
ambiguity whether, henceforth, proof of “household name” status sufficient even to
create even an issue of fact for a Jury, requires the trademark owner to provide a
consumer survey, even where, as here, the evidence is undisputed. A consumer
survey is the only type of evidence identified by the Panel as acceptable proof of fame
that was not presented by Herman Miller. 963 F.3d at 870-71.

20

The Panel acknowledged that the Eames chairs had been seen by a large
percentage of the population from ubiquitous use in public settings and in popular
culture, but discounted this evidence entirely by speculating (contrary to the record)
that consumers might not associate the design they saw with a single source. Id. at
871, fn. 4. This itself is error and shows how the majority intruded on the jury
function because the trial record in fact contained no evidence of any other possible
source. No such evidence was even offered in evidence by OSP. Requiring a consumer
survey to confirm identification with a single source when there was no contrary
evidence of other sources for the design demonstrates perhaps more clearly than
anything else how the Panel majority improperly rejected the jury’s reasonable
conclusion. Indeed, the anti-dilution statute nowhere requires a consumer survey to
prove fame, and Ninth Circuit law was otherwise in agreement (until now). Acad. of

Motion Picture Arts & Scis. v. GoDaddy.com, Inc., No. CV 10-03738 –AB (CWx), 2015
U.S. Dist. LEXIS 186627, at *23-24 (C.D. Cal. Apr. 10, 2015) (surveys are not required
to prove fame); QS Wholesale, Inc. v. Rox Volleyball, Inc., No. SACV 13-0512 AG
(JPRx), 2015 U.S. Dist. LEXIS 95767, at *13 (C.D. Cal. July 19, 2015) (same).
D.

The Panel Erred By Assigning No Weight To The Fact That Trade Dress
Product Designs Can Become Famous Simply By Having Been WidelySeen For A Long Time

Rather than address the facts (cited in part by the dissent) under which the
jury fairly could have concluded that the Eames design had become famous (based in
large part on having been widely seen for decades in offices, public spaces, museums,

21

movies, and television), the majority instead assigned effectively zero weight to the
evidence. 963 F.3d at 871, fn. 4.
The law does not require that consumers know the name of the source of a
product design so long as its appearance is distinctive to them: e.g., “I recognize that
chair.” See Maljack Prods., Inc. v. GoodTimes Home Video Corp., 81 F.3d 881, 887
(9th Cir. 1996); 1 J. Thomas McCarthy, McCarthy on Trademarks and Unfair

Competition, § 3:12 (5th ed.). It is unsurprising that an ordinary word in the lexicon
such as “trek” (from Thane) would not garner fame because it is inherently more
difficult for a common word to enter the public consciousness as a brand identifier
than it is for consumers to recognize and recall a distinctive visual form that they
have seen many times (even without extensive sales).

The following example

exemplifies the point:

It is unlikely that many of these sculptures were sold, and even less likely that
most people could name its source (the artist) in a survey question. Yet, designs like
this unquestionably can become famous just from having been widely seen in daily
life or in media for many decades, and are memorable precisely because of their
22

artistry. But under the majority’s decision, absent blockbuster sales metrics or
survey evidence, iconic designs like this—and like the Eames chair—could not be
deemed famous.
The majority’s decision may effectively eliminate a dilution remedy for many
of America’s most iconic product designs, and so should be revisited.
E.

This Case Is A Proper Companion to Google, LLC v. Oracle

This case in relevant part overlaps precisely with Google, LLC, in which the
Court heard oral argument on October 7, 2020. Indeed, no oral argument or further
briefing is needed for this Court to grant certiorari and resolve this case in a manner
consistent with Google, LLC under the more liberal standard for a GVR or even
consolidating them for decision under Rules of the Supreme Court 27(3). See, e.g.,

Abbott v. U.S., 562 U.S. 8, 15 (2010) (consolidating related cases for argument);
Zadvydas v. Davis, 533 U.S. 678, 687 (2001); U.S. v. Eichman, 494 U.S. 1063 (1990).

23

CONCLUSION
Herman Miller respectfully requests that the Court grant certiorari, vacate the
decision of the Ninth Circuit majority and remand to restore the jury verdict of fame
and dilution.
Dated: December 23, 2020
Respectfully submitted,
FOLEY & LARDNER LLP
By: /s/ Jonathan Moskin
Jonathan Moskin*
FOLEY & LARDNER LLP 555
90 Park Avenue
New York, NY 10016-1314
Telephone: (212) 682-7474
Fax: (212) 687-2329
jmoskin@foley.com
*Counsel of Record
and
Jean-Paul Ciardullo
FOLEY & LARDNER LLP
S. Flower Street, Suite 3300
Los Angeles, CA 90071-2411
Telephone: (213) 972-4500
Fax: (213) 486-0065
jciardullo@foley.com

24

APPENDIX A

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 1 of 28 Page ID #:14258

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BLUMENTHAL DISTRIBUTING, INC.,
DBA Office Star,
Plaintiff-Counter-DefendantAppellant/Cross-Appellee,
v.
HERMAN MILLER, INC.,
Defendant-Counter-ClaimantAppellee/Cross-Appellant.

Nos.

18-56471
18-56493

D.C. No.
5:14-cv-01926JAK-SP

OPINION

Appeal from the United States District Court
for the Central District of California
John A. Kronstadt, District Judge, Presiding
Argued and Submitted March 3, 2020
Pasadena, California
Filed June 25, 2020
Before: Andrew D. Hurwitz and Michelle T. Friedland,
Circuit Judges, and Edward R. Korman,* District Judge.
Opinion by Judge Korman;
Partial Concurrence and Partial Dissent by Judge Friedland
*

The Honorable Edward R. Korman, United States District Judge
for the Eastern District of New York, sitting by designation.

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 2 of 28 Page ID #:14259

2

BLUMENTHAL DISTRIB. V. HERMAN MILLER
SUMMARY**

Lanham Act
The panel affirmed in part and reversed in part the
district court’s judgment after a jury trial on claims of
infringement of trade dresses in Eames and Aeron chairs and
remanded for a new trial.
The jury found that Henry Miller, Inc. (“HM”)’s
registered and unregistered Eames trade dresses were
protectable, and that Blumenthal Distributing, Inc. (“OSP”)
willfully infringed and diluted them. HM was awarded
infringement and dilution damages, and OSP was enjoined
from continuing its unlawful activities. The jury found that
HM’s registered and unregistered claimed Aeron trade
dresses were unprotectable because they were “functional,”
and the district court entered judgment holding invalid HM’s
trademark registration for the Aeron chair.
In its opinion and a concurrently-filed memorandum
disposition, the panel affirmed the judgment in favor of HM
on its causes of action or the infringement of its registered
and unregistered Eames trade dresses; reversed the judgment
in favor of HM on its cause of action for dilution; and
reversed the judgment in favor of OSP regarding the Aeron
chair and remanded for a new trial.
In Part II of its opinion, addressing functionality, the
panel held that for a product’s design to be protected under
trademark law, the design must be nonfunctional. Utilitarian
**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 3 of 28 Page ID #:14260

BLUMENTHAL DISTRIB. V. HERMAN MILLER

3

functionality is based on how well the product works, and
aesthetic functionality is based on how good the product
looks. A claimed trade dress has utilitarian functionality if
it is essential to the use or purpose of a product or affects its
cost or quality. Under the Disc Golf test, the court considers:
(1) whether the design yields a utilitarian advantage,
(2) whether alternative designs are available, (3) whether
advertising touts the utilitarian advantages of the design, and
(4) whether the particular design results from a
comparatively simple or inexpensive method of
manufacture.
A claimed trade dress has aesthetic
functionality if it serves an aesthetic purpose wholly
independent of any source-identifying function, such that the
trade dress’s protection under trademark law would impose
a
significant
non-reputation-related
competitive
disadvantage on its owner’s competitors. When a claimed
dress is defined as the “overall appearance” of a product, the
tests for utilitarian and aesthetic functionality must be
applied with extra care. A product’s “overall appearance” is
functional, and thus unprotectable, where the whole product
is “nothing other than the assemblage of functional parts,”
and “even the arrangement and combination” of those parts
is designed to make the product more functional. The
standard for whether a claimed trade dress consisting of an
“overall appearance” is functional is whether protecting the
trade dress threatens to eliminate a substantial swath of
competitive alternatives in the relevant market.
As to the Eames chairs, the panel held that the utilitarian
functionality of their various features did not make their
overall appearances functional as a matter of law.
As to the Aeron chairs, the panel held that the judge erred
in instructing the jury on functionality because being part of
the actual benefit that consumers wish to purchase when they

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 4 of 28 Page ID #:14261

4

BLUMENTHAL DISTRIB. V. HERMAN MILLER

buy the product is not proof that a feature is functional.
Further, the instruction did not capture the concepts that a
feature that provides a utilitarian benefit is not functional
unless the Disc Golf factors weigh in favor of finding it so;
or that a feature that provides an aesthetic benefit is not
functional unless that benefit is wholly independent of any
source-identifying function and the feature’s protection
would put competitors at a significant non-reputation-related
disadvantage. The panel reversed and remanded for a new
trial on HM’s Aeron-related claims.
In Part III, addressing fame, the panel held that to prevail
on trade dress dilution, HM was required to prove that its
claimed trade dresses were “famous” before OSP began
selling its accused chairs. The panel held that the Trademark
Dilution Revision Act of 2006 eliminated the concept of
niche fame and defined fame as being “widely recognized
by the general consuming public of the United States as a
designation of source of the goods or services of the mark’s
owner.” Thane Int’l, Inc. v. Trek Bicycle Corp., 305 F.3d
894 (9th Cir. 2002), interpreting the Federal Trademark
Dilution Act of 1995, which preceded the TDRA of 2006,
held that fame among the general consuming public requires
“a household name.” Applying this standard, the panel held
that HM fell short of its burden to supply legally sufficient
evidence of the fame of its claimed Eames trade dresses. The
panel therefore reversed the judgment against OSP for trade
dress dilution.
Concurring in part and dissenting in part, Judge
Friedland joined most of the majority’s opinion but dissented
as to Part III because she disagreed with the conclusion that
there was insufficient evidence to sustain the jury’s verdict
in favor of HM on its claim for dilution of its Eames trade
dresses.

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 5 of 28 Page ID #:14262

BLUMENTHAL DISTRIB. V. HERMAN MILLER

5

COUNSEL
David A. Dillard (argued), Sami I. Schilly, and Michael
A. Koplow, Lewis Roca Rothgerber Christie LLP,
Glendale, California, for Plaintiff-Counter-DefendantAppellant/Cross-Appellee.
Jonathan E. Moskin (argued), Foley & Lardner LLP, New
York, New York; Jean-Paul Ciardullo (argued) and Eva K.
Freel, Foley & Lardner LLP, Los Angeles, California; for
Defendant-Counter-Claimant-Appellee/Cross-Appellant.

OPINION
KORMAN, District Judge:
Herman Miller, Inc. (“HM”) sells Eames chairs and
Aeron chairs. On December 13, 2013, HM sent a cease-anddesist letter to Blumenthal Distributing, Inc., d/b/a Office
Star Products (“OSP”), accusing OSP of selling “knockoff”
chairs that look like HM’s Eames and Aeron chairs. The
letter alleged infringement of HM’s rights in the EAMES
and AERON trade dresses under the Lanham Act. Litigation
ensued, culminating in a jury trial on HM’s claims for
infringement of its registered claimed trade dresses under
15 U.S.C. § 1114, for infringement of its unregistered
claimed trade dresses under 15 U.S.C. § 1125(a), and for
dilution of all its claimed trade dresses under 15 U.S.C.
§ 1125(c).
As to the Eames chairs, HM won: The jury found that
HM’s registered and unregistered claimed EAMES trade
dresses were protectable, and that OSP willfully infringed
and diluted them. HM was eventually awarded $3,378,966

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 6 of 28 Page ID #:14263

6

BLUMENTHAL DISTRIB. V. HERMAN MILLER

in infringement damages and $3,000,000 in dilution
damages, and OSP was enjoined from continuing its
unlawful activities. As to the Aeron chair, HM lost: The jury
found that HM’s registered and unregistered claimed
AERON trade dresses were unprotectable because they were
“functional.” OSP was thus not found liable for infringing or
diluting those claimed trade dresses, and judgment was
entered holding them unprotectable and holding invalid
HM’s trademark registration for the Aeron chair, U.S.
Trademark Registration No. 2,754,826. Both parties timely
appealed.
For the reasons below and in the memorandum
disposition concurrently filed today, we (1) affirm the
judgment in favor of HM on its causes of action for the
infringement of its registered and unregistered EAMES trade
dresses; (2) reverse the judgment in favor of HM on its cause
of action for dilution; and (3) reverse the judgment in favor
of OSP regarding the Aeron chair and remand for a new trial.
I. BACKGROUND
HM introduced the first Thin Pad Eames chair in 1958,
and has sold hundreds of thousands of them in the United
States, along with a related line of Soft Pad Eames chairs.
The Aeron chairs were introduced in 1994 and were even
more successful; by the time of trial, HM had sold
6.5 million of them in the United States. The Eames and
Aeron chairs come in a range of models, and versions of each
have been exhibited in American art museums and made
repeated appearances in American pop culture.
HM’s unregistered claimed EAMES trade dresses
consist of the overall appearances of its Thin Pad and Soft
Pad Eames chairs, excluding the chairs’ colors and all
components beneath the chairs’ seats. HM’s registered

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 7 of 28 Page ID #:14264

BLUMENTHAL DISTRIB. V. HERMAN MILLER

7

claimed EAMES trade dress is the same, except that it
excludes the chairs’ upholstery. The nuances of the claimed
trade dresses’ scopes, and the difference between the
registered and unregistered ones, are not material to the
parties’ dispute, and thus, consistent with the parties’ briefs,
we discuss all of the claimed EAMES trade dresses
collectively as the Eames chairs’ overall appearances.
Examples of the Eames chairs appear below:

HM’s unregistered claimed AERON trade dress was the
overall appearance of the Aeron chair with an oval-shaped
lumbar support, excluding the portion of the chair beneath
the seat and the chair’s color. HM’s registered claimed
AERON trade dress was the same, except that it also
included the control box under the seat. As with the Eames
chairs, the nuances of the claimed AERON trade dresses’
scopes, and the difference between the registered and
unregistered one, are not material to the parties’ dispute, so
we discuss all of the claimed AERON trade dresses

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 8 of 28 Page ID #:14265

8

BLUMENTHAL DISTRIB. V. HERMAN MILLER

collectively as the Aeron chair’s overall appearance. The
Aeron chair at issue appears below:

II. FUNCTIONALITY
A. Summary of the Law on Functionality
In addition to using distinctive names, logos, packages,
or labels to identify its products, a seller can also design the
products themselves to have distinctive, source-identifying
appearances. Such appearances can receive protection under
trademark law against infringement and dilution. See WalMart Stores, Inc. v. Samara Bros., Inc., 529 U.S. 205, 209–
10 (2000) (holding that “trade dress constitutes a ‘symbol’
or ‘device’ for purposes of the” Lanham Act’s definition of
“trademark”).
However, for a product’s design to be protected under
trademark law, the design must be nonfunctional. See Secalt
S.A. v. Wuxi Shenxi Constr. Mach. Co., 668 F.3d 677, 683
(9th Cir. 2012), abrogated on other grounds by SunEarth,

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 9 of 28 Page ID #:14266

BLUMENTHAL DISTRIB. V. HERMAN MILLER

9

Inc. v. Sun Earth Solar Power Co., 839 F.3d 1179 (9th Cir.
2016) (en banc). This requirement makes it very difficult for
sellers to use trademark rights to monopolize designs of
products. See Leatherman Tool Grp., Inc. v. Cooper Indus.,
Inc., 199 F.3d 1009, 1012–13 & n.6 (9th Cir. 1999). “It is
the province of patent law, not trademark law, to encourage
invention by granting inventors a monopoly over new
product designs or functions for a limited time . . . .”
Qualitex Co. v. Jacobson Prods. Co., 514 U.S. 159, 164
(1995) (citing 35 U.S.C. §§ 154, 173); see also 1 J. Thomas
McCarthy, McCarthy on Trademarks and Unfair
Competition § 8:5 (5th ed.) (hereinafter McCarthy).
The nonfunctionality requirement stops individual
sellers from permanently monopolizing “functional” designs
that they have not patented, or for which patents have
expired. See Qualitex, 514 U.S. at 164–65. Allowing
competitors to copy such designs has “salutary effects” for
consumers. TrafFix Devices, Inc. v. Mktg. Displays, Inc.,
532 U.S. 23, 29 (2001). A competitor who copies a product
might manufacture and distribute it more efficiently, lower
its price, and make it easier for consumers to buy. See
Millennium Labs, Inc. v. Ameritox, Ltd., 817 F.3d 1123,
1127 (9th Cir. 2016).
But what makes a claimed trade dress “functional”? In
this context, “functionality” is a legal term of art, undefined
by statute, around which a complicated legal doctrine has
developed.
1. Utilitarian and Aesthetic Functionality
In TrafFix Devices, Inc. v. Marketing Displays, Inc., the
Supreme Court split functionality into two types, each with
its own legal test. 532 U.S. 23, 32–33 (2001). The two types
are “utilitarian functionality,” which is based on how well

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 10 of 28 Page ID
#:14267

10

BLUMENTHAL DISTRIB. V. HERMAN MILLER

the product works, and “aesthetic functionality,” which is
based on how good the product looks. See Au-Tomotive
Gold, Inc. v. Volkswagen of Am., Inc., 457 F.3d 1062, 1067
(9th Cir. 2006) (‘“utilitarian’ functionality . . . relates to the
performance of the product in its intended purpose); see id.
at 1073–74 (aesthetic functionality is based on “‘intrinsic’
aesthetic appeal”). If the claimed trade dress has either type
of functionality, it is unprotectable. See id. at 1072.
A claimed trade dress has utilitarian functionality if it is
essential to the use or purpose of a product or affects its cost
or quality. See Millennium, 817 F.3d at 1127–28 (citing
Inwood Labs., Inc. v. Ives Labs., Inc., 456 U.S. 844, 850 n.10
(1982)). To determine whether this definition is satisfied, we
use the four-factor test from Disc Golf Association, Inc. v.
Champion Discs, Inc., 158 F.3d 1002 (9th Cir. 1998). See
Millennium, 817 F.3d at 1129. The Disc Golf factors are:
“(1) whether the design yields a utilitarian advantage,
(2) whether alternative designs are available, (3) whether
advertising touts the utilitarian advantages of the design, and
(4) whether the particular design results from a
comparatively simple or inexpensive method of
manufacture.” Id. at 1128 (quoting Disc Golf, 158 F.3d at
1006). “No one factor is dispositive; all should be weighed
collectively.” Id. at 1130 (quoting Disc Golf, 158 F.3d
at 1006).
A claimed trade dress has aesthetic functionality if it
serves “an aesthetic purpose wholly independent of any
source identifying function,” such that the trade dress’s
protection under trademark law “would impose a significant
non-reputation-related competitive disadvantage” on its
owner’s competitors. Id. at 1129, 1131 (quoting AuTomotive Gold, 457 F.3d at 1072, 1073). This requirement
aims to ensure that trademark law protects fair competition

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 11 of 28 Page ID
#:14268

BLUMENTHAL DISTRIB. V. HERMAN MILLER

11

between sellers, and does not sanction sellers’ poaching their
competitors’ superior reputations. See Au-Tomotive Gold,
457 F.3d at 1073–74. Thus, the inquiry is whether, if one
seller were given exclusive rights to use the claimed trade
dress, other sellers would be forced to use alternative designs
that make their products more costly to sell, or for which
consumers’ willingness to pay would be lower for reasons
having nothing to do with the reputation of any source (e.g.,
the alternative designs would not have as much intrinsic
aesthetic appeal). If such competitive disadvantages would
be significant, then this second requirement for aesthetic
functionality is satisfied.
2. Functionality of Overall Appearances
A plaintiff may define its claimed trade dress as the
“overall appearance” of its product.1 In principle, such
claimed trade dresses are subject to the tests for utilitarian
and aesthetic functionality, just like any other claimed trade
dresses. However, when the claimed trade dress is an
“overall appearance,” these tests must be applied with extra
care to prevent “semantic trickery” from obscuring the
functionality of the design the plaintiff seeks to monopolize.
See Secalt, 668 F.3d at 684 (quoting Leatherman, 199 F.3d
at 1013). For example, if a particular combination of
1

The scope of a “registered” claimed trade dress is defined by the
seller in a registration filed with the United States Patent And Trademark
Office, while the scope of an “unregistered” claimed trade dress, which
does not depend on any registration, is typically defined through
litigation. Compare Talking Rain Beverage Co. v. S. Beach Beverage
Co., 349 F.3d 601, 602–03 (9th Cir. 2003) (trademark plaintiff claiming
registered trade dress in federally registered bottle design), with Clicks
Billiards, Inc. v. Sixshooters, Inc., 251 F.3d 1252, 1256–57 (9th Cir.
2001) (trademark plaintiff claiming unregistered trade dress in a series
of individual features of its billiard halls).

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 12 of 28 Page ID
#:14269

12

BLUMENTHAL DISTRIB. V. HERMAN MILLER

functional features is itself functional, referring to that layout
of features as the “overall appearance” of a product does not
render it nonfunctional.
We have consistently held that, as a matter of law, a
product’s “overall appearance” is functional, and thus
unprotectable, where the whole product is “nothing other
than the assemblage of functional parts,” and “even the
arrangement and combination” of those parts is designed to
make the product more functional. Leatherman, 199 F.3d at
1013 (9th Cir. 1999); see also Tie Tech, Inc. v. Kinedyne
Corp., 296 F.3d 778, 786 (9th Cir. 2002); Secalt, 668 F.3d
at 687. Thus, if everything that affects a product’s
appearance is functional, then its overall appearance is also
functional. For example, in Leatherman, we held that the
overall appearance of a multi-function pocket tool was not
protectable as trade dress because there was no evidence that
anything about its appearance—either its individual parts or
their arrangement and combination—existed for any
nonfunctional purpose. 199 F.3d at 1013.
Consistent with that rule, we have also held that the
proper standard for whether a claimed trade dress consisting
of an “overall appearance” is functional is whether
“protecting the trade dress threatens to eliminate a
substantial swath of competitive alternatives in the relevant
market.” Clicks Billiards, Inc. v. Sixshooters, Inc., 251 F.3d
1252, 1261 n.5 (9th Cir. 2001) (quoting Taco Cabana Int’l,
Inc. v. Two Pesos, Inc., 932 F.2d 1113, 1119 n.6 (5th Cir.
1991)). For example, in Clicks Billiards, we held that the
plaintiff pool hall restaurant’s asserted trade dress in its total
visual appearance, “examined as a whole,” was
nonfunctional, noting that protecting that trade dress would
leave a multitude of alternatives to the pool hall industry. Id.
at 1258–62; see also, e.g., Millennium, 817 F.3d at 1130–31

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 13 of 28 Page ID
#:14270

BLUMENTHAL DISTRIB. V. HERMAN MILLER

13

(evaluating the functionality of a graphical format of
presenting data by looking to the “overall visual impression
that the combination and arrangement” of its elements
creates (quoting Clicks Billiards, 251 F.3d at 1259)).
HM argues that, because the examination must be
holistic, the functionality of individual features is irrelevant.
But that “cannot be the case.” Tie Tech, 296 F.3d at 785–86.
Examining a product “as a whole” does not require any
strained effort to look at its gestalt without seeing its
individual features. Rather, to examine a product “as a
whole” is to examine all of its features, including the ways
in which its various parts are combined or arranged, and to
recognize that nonfunctional combinations or arrangements
of functional parts can create an overall appearance that
should be deemed nonfunctional. See Leatherman, 199 F.3d
at 1011 n.3, 1013.
B. The Eames Chairs
Against this legal backdrop, we now address the specific
functionality-related issues on appeal, beginning with the
Eames chairs. OSP argues that HM’s claimed EAMES trade
dresses are functional (and thus unprotectable) as a matter of
law. We review the issue de novo, determining “whether the
evidence, construed in the light most favorable to the
nonmoving party, permits only one reasonable conclusion,
and that conclusion is contrary to that of the jury.” Estate of
Diaz v. City of Anaheim, 840 F.3d 592, 604 (9th Cir. 2016)
(citation and internal quotation marks omitted).
OSP argues that the Eames chairs’ overall appearances
should be found functional as a matter of law because: (i) the
undisputed fact that the chairs have some utilitarian
functionality proves their overall appearances functional;
and (ii) the utilitarian functionality of the chairs’ various

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 14 of 28 Page ID
#:14271

14

BLUMENTHAL DISTRIB. V. HERMAN MILLER

features proves their overall appearances functional under
the Disc Golf factors. Both arguments fail.
OSP’s first argument—that the chairs’ overall
appearances are functional “because they include, in whole
or in part, elements that are functional” (emphasis added)—
is a nonstarter. As we have long held, a product’s overall
appearance is necessarily functional if everything about it is
functional, not merely if anything about it is functional. See
Clicks Billiards, 251 F.3d at 1259; Leatherman, 199 F.3d at
1011 n.3, 1013. OSP’s proposed rule would wipe out
trademark protection for all, or at least virtually all,
consumer products’ overall appearances. For instance, every
chair’s appearance is affected by having a backrest, as
opposed to having no backrest, which serves the utilitarian
function of providing back support. But that does not mean
that every chair’s overall appearance is functional as a matter
of law.
OSP’s second argument is that the Eames chairs’ overall
appearances are functional as a matter of law because they
have utilitarian functionality under the Disc Golf factors.
Significantly, OSP argued in its opening brief that “aesthetic
functionality . . . is not an issue in this case,” and “only” the
test for utilitarian functionality “is relevant.” Thus, we limit
our analysis to the consideration of utilitarian functionality
and hold that the utilitarian functionality of the Eames
chairs’ various features does not make the chairs’ overall
appearances functional as a matter of law.
The Eames chairs are nothing like the thoroughly
utilitarian products whose overall appearances were held
functional as a matter of law in Leatherman (a pocket-knifelike tool), Tie Tech (a tool used in emergencies to quickly
cut people out of wheelchairs), and Secalt (a piece of
industrial machinery called a “traction hoist”). In each of

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 15 of 28 Page ID
#:14272

BLUMENTHAL DISTRIB. V. HERMAN MILLER

15

those cases, the product’s “form . . . follow[ed] its
[utilitarian] function[s],” Secalt, 668 F.3d at 687, and there
was no evidence of any non-utilitarian design choices. See
Leatherman, 199 F.3d at 1013; Secalt, 668 F.3d at 686; Tie
Tech, 296 F.3d at 786. In the present case, however, HM
introduced abundant evidence that the Eames chairs’ overall
appearances derive from non-utilitarian design choices.
The jury was shown images of the Eames chairs, from
which it could have reasonably inferred that the chairs were
designed largely to be distinctive and/or beautiful, even at
some expense to their “utilitarian advantage,” Disc Golf,
158 F.3d at 1006. For example, the jury could have
reasonably concluded that the metal trapezoidal design of the
Eames chairs’ armrests was motivated by design
considerations, at the expense of the comfort that a softer
surface could have provided.
HM’s expert furniture historian testified that the Eames
chairs’ designers, Charles and Ray Eames, were “always
working to find the exact right look of something” and “were
as much sculptors as they were designers.” He also testified
that the “aesthetics were one of the most important
considerations” in the Thin Pad Eames chairs’ design and
that the Soft Pad Eames chairs were “iconic pieces” whose
“visual or aesthetic impact” was “significant.” A program
manager for HM testified that he was not aware of any
utilitarian purpose for several features of the Eames chairs,
including the specific trapezoidal shape of the armrests, the
one-piece construction of the seat and the back, and the
specific horizontal stitching of the Thin Pad upholstery.
HM’s industrial design expert also testified that those three
features (among others) lacked utilitarian function and that
their purposes were aesthetic. He also testified that the

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 16 of 28 Page ID
#:14273

16

BLUMENTHAL DISTRIB. V. HERMAN MILLER

“overall design” of the Eames chairs is “distinctive and is
not functional.”
A reasonable jury could have concluded that the
remaining Disc Golf factors also showed utilitarian
functionality. HM introduced testimony suggesting that a
variety of alternative designs could have achieved the Eames
design’s functional advantages, so competitors would not be
unreasonably limited in their chair design options if the
Eames trade dress were protected. HM also introduced
advertising materials that emphasized the Eames chairs’
distinctive appearances through large, artistic photographs
and statements touting their appearances as “unmistakable,”
“bear[ing] the distinctive stamp of Charles and Ray Eames,”
and being “totally different” from other chairs. And HM
introduced some testimony suggesting that at least some of
the manufacturing techniques it employed required
specialized technical equipment.
OSP’s rebuttal to all of this evidence did not compel a
different conclusion. For example, OSP attempts to show
that the armrests’ trapezoidal shape has utilitarian
functionality because it enables the “armrests to be attached
to the [rest of the chair] at three points” rather than two
points, but cites no evidence that the extra point of
attachment has any utilitarian benefit. Similarly, OSP argues
that the armrests’ rounded corners have utilitarian
functionality because they “provide greater safety as
compared to sharp corners,” but cites no evidence that the
roundness of the corners was ever intended, advertised, or
perceived as a safety feature. Thus, we reject OSP’s
argument that the utilitarian functionality of the Eames
chairs’ component parts renders their overall appearances
functional as a matter of law.

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 17 of 28 Page ID
#:14274

BLUMENTHAL DISTRIB. V. HERMAN MILLER

17

C. The Aeron Chair
In a cross-appeal, HM challenges the judgment that its
claimed AERON trade dresses were functional and thus
unprotectable. HM argues that there must be a new trial
because Jury Instruction 25 (the “Functionality Instruction”)
used an erroneously broad definition of functionality. “We
review a district court’s formulation of civil jury instructions
for abuse of discretion, but we review de novo whether an
instruction states the law correctly.” Peralta v. Dillard,
744 F.3d 1076, 1082 (9th Cir. 2014) (en banc) (citations
omitted).
HM’s challenge focuses on the following excerpt from
the Functionality Instruction:
A product feature . . . is non-functional if its
shape or form makes no contribution to the
product’s function or operation. If the feature
is part of the actual benefit that consumers
wish to purchase when they buy the product,
the feature is functional. However, if the
feature serves no purpose other than as an
assurance that a particular entity made,
sponsored or endorsed the product, it is nonfunctional.
We agree with HM that this excerpt misstates the law. It is
not true that being “part of the actual benefit that consumers
wish to purchase when they buy the product” is proof that a
feature is functional. Indeed, we have stated that “the mere
fact that [a] mark is the ‘benefit that the consumer wishes to
purchase’ will not” suffice to establish its functionality. AuTomotive Gold, 457 F.3d at 1069 (emphasis added) (citation
omitted); see also id. at 1073 ((rejecting suggestion that
trademarks are functional when “the trademarks

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 18 of 28 Page ID
#:14275

18

BLUMENTHAL DISTRIB. V. HERMAN MILLER

‘constitute[ ] the actual benefit the consumer wishes to
purchase’” because it “flies in the face of existing caselaw”
(alteration in original)). And the instruction does not capture
the concepts, explained above, that a feature that provides a
utilitarian benefit is not functional unless the Disc Golf
factors weigh in favor of finding it so; or that a feature that
provides an aesthetic benefit is not functional unless that
benefit is wholly independent of any source-identifying
function and the feature’s protection would put competitors
at a significant non-reputation-related disadvantage. See
Millennium, 817 F.3d at 1128–29. Due to this inaccuracy,
the instructions, viewed as a whole, do not “fairly and
correctly cover[]” the law of functionality. See Frost v.
BNSF Ry. Co., 914 F.3d 1189, 1194 (9th Cir. 2019) (quoting
Miller v. Republic Nat’l Life Ins. Co., 789 F.2d 1336, 1339
(9th Cir. 1986)).
“An error in instructing the jury in a civil case requires
reversal unless the error is more probably than not
harmless.” Clem v. Lomeli, 566 F.3d 1177, 1182 (9th Cir.
2009) (citation omitted). Because such errors are presumed
harmful, the “burden shifts to the [prevailing party] to
demonstrate that it is more probable than not that the jury
would have reached the same verdict had it been properly
instructed.” Id. (citation omitted). OSP did not address the
issue of harmfulness in its answering brief, and thus did not
overcome the presumption of harmfulness. See id.
Consequently, the error in the Functionality Instruction
requires reversal and remand for a new trial on HM’s Aeronrelated claims.2

2

Without commenting on the merits of the issue, we vacate the
district court’s ruling that the unregistered claimed AERON trade dress
possesses secondary meaning as a matter of law, so that all of the issues

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 19 of 28 Page ID
#:14276

BLUMENTHAL DISTRIB. V. HERMAN MILLER

19

We recognize that the district court appears to have
derived the Functionality Instruction from Ninth Circuit
Model Civil Jury Instruction 15.12. But because that
instruction does not accurately track our functionality
caselaw, see Millennium, 817 F.3d at 1128–29; Au-Tomotive
Gold, 457 F.3d at 1072 & n.8, its use was error and we must
reverse. See United States v. Warren, 984 F.2d 325, 327 n.3
(9th Cir. 1993) (“Use of a model jury instruction does not
preclude a finding of error.”).
III.

Fame

We now turn our focus to HM’s cause of action for
dilution of its claimed EAMES trade dresses. To prevail on
dilution, HM was required to prove that those claimed trade
dresses were “famous” before OSP began selling its accused
chairs. See 15 U.S.C. § 1125(c)(1). OSP challenges the
district court’s denial of its Rule 50(b) motion, in which OSP
argued that the evidence of the claimed EAMES trade
dresses’ fame was legally insufficient.
From 1996 to 2006, the standard for determining fame
was based on the Federal Trademark Dilution Act of 1995
(“FTDA of 1995”), an amendment to the Lanham Act that
set out a non-exhaustive list of eight factors that courts “may
consider.” See Pub. L. No. 104-98, § 3(a), 109 Stat. 985
(1996). We interpreted that statute to recognize two kinds of
fame: fame within “only a limited geographic area or a
specialized market segment” (or “niche fame”) and “fame
among the general consuming public.” Thane Int’l, Inc. v.
Trek Bicycle Corp., 305 F.3d 894, 908, 911 (9th Cir. 2002).
related to HM’s Aeron-related claims can be decided in the new trial. See
Pumphrey v. K.W. Thompson Tool Co., 62 F.3d 1128, 1133–34 (9th Cir.
1995).

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 20 of 28 Page ID
#:14277

20

BLUMENTHAL DISTRIB. V. HERMAN MILLER

The FTDA of 1995 was replaced by the Trademark Dilution
Revision Act of 2006 (“TDRA of 2006”), which eliminated
the concept of niche fame, defining fame as being “widely
recognized by the general consuming public of the United
States as a designation of source of the goods or services of
the mark’s owner,” 15 U.S.C. § 1125(c)(2)(A) (emphasis
added), and omitting from its list of suggested factors the
two from the FTDA of 1995 that related to niche markets.3
Thus, niche fame can no longer make a trademark eligible
for protection against dilution; instead, the trademark must
be “widely recognized by the general consuming public of
the United States.” Id.
While the FTDA of 1995 was still in effect, we decided
Thane, in which we applied a very high standard for
establishing fame among the general consuming public. The
issue in that case was whether a stationary exercise machine
producer’s “OrbiTrek” mark infringed the Trek Bicycle
Corporation’s “TREK” mark. We held that the requisite
level of fame was that of “a household name.” Thane,
305 F.3d at 911. The mark must be in a “select class” of
those that are “truly prominent and renowned” and “part of
the collective national consciousness.” Id. at 911–12 (first
and second quoting Avery Dennison Corp. v. Sumpton,
189 F.3d 868, 875 (9th Cir. 1999)). We held that Trek had
failed as a matter of law to establish “household name” fame
of its TREK mark, even though the mark was registered; the
company spent “between $3 million and $5 million per year”
3
The two omitted niche-related factors were “the channels of trade
for the goods or services with which the mark is used” and “the degree
of recognition of the mark in the trading areas and channels of trade used
by the mark’s owner and the person against whom the injunction is
sought.” See Avery Dennison Corp. v. Sumpton, 189 F.3d 868, 875–78
(9th Cir. 1999).

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 21 of 28 Page ID
#:14278

BLUMENTHAL DISTRIB. V. HERMAN MILLER

21

on advertising, including in mainstream publications such as
Rolling Stone Magazine, Playboy, and Men’s Journal; had
around 4.5 million visitors to its website per year; made over
1,000 different products with the TREK mark that were sold
by over 1,600 independent dealers in 2,000 locations across
the nation; and sponsored superstar Lance Armstrong, who
used TREK bicycles to win multiple Tour de France races,
and appeared with a TREK bicycle on the front page of large
circulation newspapers, at a press event with a sitting
President, and even on a Wheaties box. Id. at 899, 912.
In holding that Trek Bicycle Corporation failed to make
the necessary “showing of the requisite level of fame” for its
mark, id. at 911, we reasoned that “incidental media
coverage,” such as that connected to Lance Armstrong, did
not “by itself constitute evidence” that the mark was famous,
because “[m]any products receive broad incidental media
coverage.” Id. at 912. We also reasoned that “[a]dvertising
to a mass audience is not the same as achieving fame with a
mass audience and, by themselves, such advertisements
prove only that Trek desires widespread fame, not that it has
achieved it.” Id. at 912 n.13. “On the other hand,” we
explained, “surveys showing that a large percentage of the
general public recognizes the brand, press accounts about the
popularity of the brand, or pop-culture references involving
the brand would provide evidence of fame.” Id. at 912.
Although Thane interpreted the FTDA of 1995, we do
not interpret the TDRA of 2006 to have lowered the standard
for whether a mark “has achieved fame among the general
consuming public.” Id. at 911; see Coach Servs., Inc. v.
Triumph Learning LLC, 668 F.3d 1356, 1372–73 (Fed. Cir.
2012) (“By using the ‘general consuming public’ as the
benchmark, the [TDRA of 2006] eliminated the possibility
of ‘niche fame’ . . . . In other words, a famous mark is one

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 22 of 28 Page ID
#:14279

22

BLUMENTHAL DISTRIB. V. HERMAN MILLER

that has become a ‘household name.’”); see also McCarthy
§ 24:104. Applying Thane’s standard, we conclude that HM
fell short of its burden to supply legally sufficient evidence
of the fame of the claimed EAMES trade dresses.
Taken in the light most favorable to HM, the evidence
establishes only that: HM spent, on average, $550,000 per
year on advertising the Eames chairs from 2004 through
2015 (and under $400,000 per year from 2004 through
2009); the Eames chairs appeared in obscure publications
such as Contract, Metropolis, and an “industry publication”
called Monday Morning Quarterback; at the time of trial in
2016, HM had, at the very most, around 875,000 unique
followers on Facebook, Twitter, and Instagram combined;
most of the Eames chairs are sold through a distribution
channel consisting of only around 45 independently owned
dealers with 130 locations across the country; and the Eames
chairs were “very heavily” featured in the TV show Mad
Men, have appeared in other TV shows and movies, and have
been exhibited at several American museums, including the
Museum of Modern Art and the Henry Ford Museum.
Because the evidence of the claimed EAMES trade dresses’
fame is plainly weaker than the evidence that Thane held
legally insufficient, we must hold that, as a matter of law,
those trade dresses were not famous.
HM’s efforts to avoid Thane’s demanding standard fail.
In Horphag Research Ltd. v. Garcia, a case on which HM
relies to suggest a more modest standard, the appellant did
not raise the issue of whether any mark was sufficiently
famous, so we neither considered nor decided that issue. See
475 F.3d 1029, 1036, 1038 (9th Cir. 2007). HM also argues
that we should not disturb the jury’s finding that the claimed
EAMES trade dresses were famous because OSP did not
object to the relevant jury instruction. But, even if the

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 23 of 28 Page ID
#:14280

BLUMENTHAL DISTRIB. V. HERMAN MILLER

23

instructions accurately stated the law, the legal question
before us is whether HM offered evidence sufficient to allow
a reasonable jury to conclude that the EAMES trade dress
met the definition of fame. That legal definition, which we
explicated in Thane, is fatal to HM’s dilution claims.4
Because there was legally insufficient evidence to find
that the claimed EAMES trade dresses were famous under
15 U.S.C. § 1125(c)(2)(A), the judgment against OSP for
their dilution must be reversed.
IV.

CONCLUSION

Based on this opinion and the simultaneously filed
memorandum disposition, we affirm the judgment in favor
of HM on its causes of action for the infringement of its
registered and unregistered claimed EAMES trade dresses.
We reverse the judgment in favor of HM on its cause of
action for dilution.
We reverse the portion of the judgment regarding the
Aeron chair in its entirety, and remand for a new trial.
AFFIRMED in part, REVERSED in part and
REMANDED.

4

Although focusing on some practical differences between trade
names and trade dresses, the dissent correctly recognizes that a dilution
claim requires that the general consuming public recognize either type
of mark “as a designation of source of the goods or services of the mark’s
owner.” 15 U.S.C. § 1125(c)(2)(A). Even assuming that the shape of the
Eames chair is more recognizable than the name “Trek,” there
nonetheless was no basis from which the jury could reasonably infer that
the general consuming public would link all Eames-shaped chairs to a
single source of goods.

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 24 of 28 Page ID
#:14281

24

BLUMENTHAL DISTRIB. V. HERMAN MILLER

FRIEDLAND, Circuit Judge, concurring in part and
dissenting in part:
Although I join most of the majority’s opinion, I disagree
with the conclusion that there was insufficient evidence to
sustain the jury’s verdict in favor of Herman Miller (“HM”)
on its claim for dilution of its EAMES trade dresses. I
therefore dissent as to Part III.
A jury’s verdict must be sustained on a renewed motion
for judgment as a matter of law unless “the evidence,
construed in the light most favorable to the nonmoving party,
permits only one reasonable conclusion, and that conclusion
is contrary to the jury’s verdict.” Harper v. City of Los
Angeles, 533 F.3d 1010, 1021 (9th Cir. 2008) (quoting
Pavao v. Pagay, 307 F.3d 915, 918 (9th Cir. 2002)). Only
in “rare cases” should we overturn a jury’s verdict under this
deferential standard. Barnard v. Theobald, 721 F.3d 1069,
1076 (9th Cir. 2013). This is not such a case.
For HM to prevail on its dilution claim, the jury was
required to find that the EAMES trade dresses were
sufficiently “famous”—that is, that they were “widely
recognized by the general consuming public of the United
States as a designation of source of the goods or services” of
the trade dress owner. 15 U.S.C. § 1125(c)(2)(A). A trade
dress is famous when the general consuming public
recognizes the trade dress as associated with a singular
owner; as is true throughout trademark law, whether the
general consuming public could name that owner is
irrelevant. See Maljack Prods., Inc. v. GoodTimes Home
Video Corp., 81 F.3d 881, 887 (9th Cir. 1996) (explaining
that the secondary meaning of a mark is established through
proof that the public associates the mark “with a single
source, even if that source is anonymous”); 1 J. Thomas
McCarthy, McCarthy on Trademarks and Unfair

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 25 of 28 Page ID
#:14282

BLUMENTHAL DISTRIB. V. HERMAN MILLER

25

Competition § 3:12 (5th ed.) (explaining that “[a] trademark
can identify a single, albeit anonymous source,” such that a
buyer need not know “the corporate name of the producer or
seller” (emphasis added)).
At trial, the jury heard expert testimony that Eames Thin
Pad and Soft Pad chairs were “iconic” pieces that “had
significant impact on the design world.” HM experts opined
that the Eames chairs were “ubiquitous” in conference rooms
and were often used as seating in lobbies or in other public
spaces within office environments. Expert testimony further
established that Eames chairs were depicted in “countless
TV shows,” including the long-running series “Mad Men,”
and in blockbuster movies. And the chairs were featured in
“any museum in the United States” with “a collection of
design.”
Construed in the light most favorable to HM, this
evidence was sufficient to support the jury’s verdict. The
jury was entitled to deem HM’s experts credible and to infer
from their testimony that the general consuming public had
become familiar with the Eames chairs through encounters
in business environments, pop culture, and museums. And
because HM presented evidence that the Eames chairs had a
distinctive design, the jury was entitled to find that the
consuming public recognized trade dresses central to that
design as a signature of chairs made by a leading furniture
manufacturer, even if they could not specifically name HM
as that manufacturer. Although this was not the only finding
the jury could have made based on the evidence, it was a
reasonable one.
The majority’s contrary conclusion stems largely from a
side-by-side comparison with the facts of Thane
International, Inc. v. Trek Bicycle Corp., 305 F.3d 894
(9th Cir. 2002), in which we held that the evidence at

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 26 of 28 Page ID
#:14283

26

BLUMENTHAL DISTRIB. V. HERMAN MILLER

summary judgment was insufficient to establish that the Trek
Bicycle Corporation’s “TREK” mark was famous enough to
support a claim for dilution. Id. at 910–12. We noted that
the “closest” Trek came to demonstrating recognition by “a
large portion of the general consuming public” was to
produce evidence depicting Lance Armstrong with a Trek
bicycle on newspaper front pages and Wheaties boxes. Id.
at 912. In so observing, we relatedly indicated that the other
evidence in the record—such as the company’s $3 to
$5 million in advertising expenditures, 4.5 million website
visitors, and robust commercial sales—was insufficient to
support a finding of fame. See id. at 899, 912.
There is stronger evidence here than there was in Thane
of actual consumer recognition: the Eames chairs were
“ubiquitous” in office environments and depicted in
“countless” TV shows and movies. And the Eames chairs
had an “iconic,” visually striking design deemed worthy of
museum displays, whereas in Thane “TREK” was a nondistinctive four-letter term with multiple meanings. See id.
at 912 n.14 (explaining that “trek” is a “common English
language word” used to refer to concepts and products other
than Trek bicycles). Yet the majority nonetheless seems to
require HM and its Eames chairs to have greater advertising
expenditures, a more significant web presence, or a higher
volume of commercial sales than Trek bicycles for there to
be sufficient evidence supporting the EAMES trade dresses’
fame. See Maj. Op. at 22.
In my view, the majority’s analysis is misguided. It is
not surprising that we concluded in Thane that Trek’s
evidence was insufficient to prove the fame of the “TREK”
mark. Given that the “TREK” mark was a non-distinctive
word that received only some “incidental media coverage,”
Thane reasonably suggested that consumers would not have

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 27 of 28 Page ID
#:14284

BLUMENTHAL DISTRIB. V. HERMAN MILLER

27

recognized the mark absent more sales, more advertising, or
more Internet engagement that familiarized the general
public with the mark. See Thane, 305 F.3d at 912. But that
conclusion has little bearing on what was required to cause
the general public to recognize the trade dresses at issue
here. Unlike the nondescript word “TREK,” the EAMES
trade dresses consisted of a distinctive product design that
the jury could have inferred was memorable to many
consumers who saw the chairs. While members of the public
can consume products or encounter advertisements for
products without focusing on the marks they feature, it
would be difficult for consumers to interact with a product
without forming an impression of its overall appearance (its
dress)—particularly when that appearance is distinctive.
Moreover, while the media portrayals of “TREK” did
little to raise the mark’s profile, HM presented evidence that
the general consuming public became familiar with the
EAMES trade dresses through the chairs’ being widely
depicted in pop culture, displayed in museums, and featured
in business environments. And HM’s evidence suggested
that, far from being “incidental,” see id., the design aspects
of the Eames chairs—including their trade dresses—were
the very reason the chairs were popular in business
environments and displayed in museums. From this
evidence, the jury could have concluded that many
consumers who saw the chairs featured in such settings took
note of them and their distinctive designs. By contrast, in
Thane, the central focus of the Wheaties boxes and the
newspaper stories was Lance Armstrong—not the mark on
his bike, which consumers could easily have overlooked.
Accordingly, the jury could have inferred that a higher
level of advertising or sales exposure was not required to
render the Eames chairs’ design widely recognizable. Even

Case 5:14-cv-01926-JAK-SP Document 432 Filed 06/25/20 Page 28 of 28 Page ID
#:14285

28

BLUMENTHAL DISTRIB. V. HERMAN MILLER

if too few Eames chairs were sold for them to be present in
most households or offices, and even if there was too little
advertising for it to reach the average consumer, HM’s
evidence nevertheless allowed the jury to conclude that
many individual chairs reached a wide audience and were
recognized on account of their distinctive design.1
In sum, HM’s failure to satisfy the metrics the majority
identifies did not preclude the jury from finding that its trade
dresses were famous. To the contrary, as Thane itself
recognized, evidence of a trade dress’s cultural significance
may provide evidence of fame. Id. at 912. In my view, HM
introduced sufficient evidence of such significance to render
the question of fame one for the jury. This is not one of the
“rare cases” in which we should disturb the jury’s
conclusion. See Barnard, 721 F.3d at 1076.

1

In overturning the jury’s fame finding, the majority also appears to
rely on the fact that the number of people who follow HM on social
media is lower than the number of people who visited Trek Bicycle’s
website. See Maj. Op. at 21, 22–23. But there was no need for HM to
present evidence of a high level of social media engagement with HM
itself, given that the question whether the EAMES trade dresses were
widely recognized as a “designation of source,” see 15 U.S.C.
§ 1125(c)(2)(A), does not depend on consumers’ actually being able to
name HM as the source of those trade dresses, see Maljack Prods.,
81 F.3d at 887.

APPENDIX B

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 1 of 50 Page ID #:13846
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

Present: The Honorable

Date

August 1, 2017

JOHN A. KRONSTADT, UNITED STATES DISTRICT JUDGE

Andrea Keifer

Not Reported

Deputy Clerk

Court Reporter / Recorder

Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

Not Present

Not Present

Proceedings:

(IN CHAMBERS) ORDER RE PLAINTIFF’S RENEWED MOTION FOR
JUDGMENT AS A MATTER OF LAW ON THE BASIS OF NOTICE OF
REGISTRATION (Dkt. 353)
PLAINTIFF’S RENEWED MOTION FOR JUDGMENT AS A MATTER OF
LAW ON THE BASIS OF NO. 1 INVALIDITY OF ASSERTED EAMES
TRADE DRESSES (Dkt. 374)
PLAINTIFF’S RENEWED MOTION FOR JUDGMENT AS A MATTER OF
LAW ON THE BASIS OF NO. 2 INFRINGEMENT, DILUTION AND
WILLFULNESS (Dkt. 375)
PLAINTIFF’S RENEWED MOTION FOR JUDGMENT AS A MATTER OF
LAW ON THE BASIS OF NO. 3 DAMAGES (Dkt. 376)
DEFENDANT’S MOTION FOR JUDGMENT AS A MATTER OF LAW ON
THE BASIS OF FED.R.CIV.P. 50(a) (Dkt. 332)
DEFENDANT’S MOTION FOR PERMANENT INJUNCTION WITH RESPECT
TO THE EAMES TRADE DRESS (Dkt. 379)
DEFENDANT’S MOTION FOR JUDGMENT AS A MATTER OF LAW ON
THE BASIS OF TRADE DRESS VALIDITY, AND A NEW TRIAL ON
INFRINGEMENT (Dkt. 380)

I.

Introduction

Blumenthal Distributing, Inc., d/b/a/ Office Star (“Office Star”), and Herman Miller, Inc. (“Herman Miller”),
design and distribute furniture. Dkt. 13 ¶¶ 5-6; Dkt. 40 ¶ 13. In this matter, Herman Miller claimed that
certain Office Star chairs (“Accused Chairs” or “Hospitality Chairs”) infringed its registered and
unregistered trade dress rights to two of its office chair designs -- EAMES and AERON.
On October 6, 2014, Office Star filed the First Amended Complaint (“FAC”), in which it advanced a claim
Page 1 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 2 of 50 Page ID #:13847
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

under the Declaratory Judgment Act, 28 U.S.C. §§ 2201 et seq. Dkt. 13. It sought a declaration that its
“importation, advertising, depiction, offering for sale, and/or selling of any of the Accused Chairs does not
infringe Herman Miller’s trade dress rights.” Id. ¶ 16. On April 24, 2015, Herman Miller filed Counterclaims
against Office Star, as well as Fris Office Outfitters, Inc. (“Fris”), iFURN.com, Inc. d/b/a
Officestar-Furniture-Direct.com (“iFurn”) and Gamesis, Inc. d/b/a OfficeStarStore.com and d/b/a
TSCShops.com (“Gamesis”) (collectively, “Counterclaim Defendants”). Dkt. 40. iFurn, Fris, and Gamesis
were subsequently dismissed. See Dkt. 228 (iFurn); Dkt. 328 (Fris, Gamesis). Herman Miller advanced
the aforementioned infringement claims.
On September 22, 2016, a jury trial with respect to the counterclaims commenced. The trial proceeded
for seven days. Dkts. 312, 320, 322, 325, 336, 331, 334. On October 6, 2016, the jury returned a verdict.
Dkt. 344. It found that Herman Miller’s trade dress to the AERON was invalid. Id. at 2. Therefore, no
determination was made as to the alleged infringement by Office Star. Id. It also found Office Star willfully
infringed Herman Miller’s registered and unregistered trade dress rights in the EAMES chair in both its
Thin Pad and Soft Pad models. Id. at 15-17. The jury awarded damages to Herman Miller. The award was
for $3.3 million for infringement and $5.1 million for dilution of the value of the trade dress. Id. at 14, .18.
On November 4, 2016, Office Star renewed its earlier motion for a judgment as a matter of law1 on the
basis of lack of notice of one of the trademark registrations. Dkt. 353. On February 27, 2017, Office Star
filed three other motions for judgment as a matter of law, on the following grounds: (i) invalidity of
asserted EAMES trade dresses (Dkt. 374); (ii) failure to show infringement, dilution, and willfulness (Dkt.
375); and (iii) failure to prove damages. Dkt. 376. Herman Miller filed a consolidated opposition to these
motions on March 13, 2017. Dkt. 384. Office Star replied on March 27, 2017. Dkt. 386.
On February 27, 2017, Herman Miller moved for judgment as a matter of law on the basis of failure to
show invalidity of its trade dress. Dkt. 380. Herman Miller also filed a motion for a judgment and a
permanent injunction with respect to infringement on the EAMES trade dress. Dkt. 379. Office Star filed a
consolidated opposition on March 13, 2017. Dkt. 383. Herman Miller replied on March 27, 2017. Dkt. 387.
A hearing on the Motions was held on May 1, 2017, and they were taken under submission. For the
reasons stated in this Order, Office Star’s Motions for Judgment as a Matter of Law are DENIED. Herman
Miller’s Motion for Judgment as a Matter of Law is GRANTED IN PART. Herman Miller’s Motion for
Permanent Injunction is GRANTED IN PART.
II.

Standard of Review
A.

Judgment as a Matter of Law

Judgment as a matter of law is warranted where “a party has been fully heard on an issue during a jury
trial and the court finds that a reasonable jury would not have a legally sufficient evidentiary basis to find
for the party on that issue.” Fed. R. Civ. P. 50(a)(1). A motion for judgment as a matter of law under Rule
50(a) must be brought before the matter is submitted to the jury. Fed. R. Civ. P. 50(a)(2). If it is denied, it
may be renewed, and “may include an alternative or joint request for a new trial under Rule 59.” Fed. R.
1

Such a motion is often abbreviated as “JMOL,” a term that is used in this Order.
Page 2 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 3 of 50 Page ID #:13848
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

Civ. P. 50(b). “A renewed motion for judgment as a matter of law is properly granted ‘if the evidence,
construed in the light most favorable to the nonmoving party, permits only one reasonable conclusion,
and that conclusion is contrary to the jury's verdict.’” Harper v. City of Los Angeles, 533 F.3d 1010, 1021
(9th Cir. 2008) (quoting Pavao v. Pagay, 307 F.3d 915, 918 (9th Cir. 2002)).
The following standards apply to a renewed motion brought pursuant to Rule 50:
“A jury's verdict must be upheld if it is supported by substantial evidence, which is
evidence adequate to support the jury's conclusion, even if it is also possible to draw a
contrary conclusion.” In making this determination, the court must not weigh the evidence,
but should simply ask whether the plaintiff has presented sufficient evidence to support
the jury's conclusion. While the court must review the entire evidentiary record, it must
view all evidence in the light most favorable to the nonmoving party, draw all reasonable
inferences in the favor of the non-mover, and disregard all evidence favorable to the
moving party that the jury is not required to believe. If sufficient evidence is presented to a
jury on a particular issue and if the jury instructions on the issue stated the law correctly,
the court must sustain the jury's verdict.
Id. (citations omitted) (quoting Johnson v. Paradise Valley Unified Sch. Dist., 251 F.3d 1222, 1227-28).
B.

Request for a New Trial Pursuant to Fed. R. Civ. P. 59

Following a jury trial, a court may grant a motion for a new trial “for any reason for which a new trial has
heretofore been granted in an action at law in federal court.” Fed. R. Civ. P. 59(a)(1). Such a motion may
be granted “if the verdict is contrary to the clear weight of the evidence, or is based upon evidence which
is false, or to prevent, in the sound discretion of the trial court, a miscarriage of justice.” Silver Sage
Partners, Ltd. v. City of Desert Hot Springs, 251 F.3d 814, 819 (9th Cir. 2001) (quoting United States v.
4.0 Acres of Land, 175 F.3d 1133,1139 (9th Cir. 1999)). However, “a district court may not grant a new
trial simply because it would have arrived at a different verdict.” Id. In assessing the clear weight of the
evidence, “the judge can weigh the evidence and assess the credibility of witnesses, and need not view
the evidence from the perspective most favorable to the prevailing party.” Landes Const. Co. v. Royal
Bank of Canada, 833 F.2d 1365, 1371 (9th Cir. 1987). Even if substantial evidence precludes the entry of
judgment as a matter of law, a court may grant a motion for a new trial. Id. “[E]rroneous jury instructions,
as well as the failure to give adequate instructions, are also bases for a new trial.” Murphy v. City of Long
Beach, 914 F.2d 183, 187 (9th Cir. 1990).
Fed. R. Civ. P. 61 also applies to the present motions. It provides:
Unless justice requires otherwise, no error in admitting or excluding evidence -- or any
other error by the court or a party -- is ground for granting a new trial, [or] for setting aside
a verdict . . . . At every stage of the proceeding, the court must disregard all errors and
defects that do not affect any party's substantial rights.
Under these standards, in considering a motion for new trial, the first step is to determine whether an
error occurred. If it is determined that there was an error, the second step is to decide whether the error
caused prejudice to the party seeking a new trial.
Page 3 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 4 of 50 Page ID #:13849
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

III.

Date

August 1, 2017

Office Star’s Motions for Judgment as a Matter of Law
A.

Introduction

Herman Miller claims both registered and unregistered trade dress rights in the EAMES chair. Herman
Miller is the owner of United States Trademark Registration No. 3,105,591 (the “’591 Registration”). Ex.
1307, Dkt. 377-15.2 It refers to the configuration of the frame of the EAMES chair. It states: “The mark
consists of the overall shape and appearance of the upper portion of a chair frame, including the
armrests. The chair frame is made of polished aluminum and polished aluminum is claimed as part of the
mark.” Id. Herman Miller also asserted unregistered trade dress rights in the appearance of its Thin Pad
and Soft Pad EAMES Chairs. Illustrations of the asserted registered and unregistered trade dresses are
as follows:

See Jury Instructions, Dkt. 338 at 24 (JI 23); Ex. 1314, Dkt. 377-16. In the diagram of the registration,
which appears at the far left of the images that are above, the portions of the frame that appear in solid
lines are parts of the registration of the trademark, while the portions that appear in broken or dotted lines
are not. See Dkt. 377-15. The unregistered trade dress rights encompass the overall appearance of the
chairs, including the underlying frame and the upholstery. Ex. 1307, Dkt. 377-15. As shown in the
illustration, there are two versions of the EAMES Chair. One has a thin pad in its upholstery, which is so
labelled above; the other has a thick one, which is labelled above as a “SOFT PAD.” The base of the
chairs is not included in the registered or unregistered trade dress.
Office Star arranges for the manufacture and distribution of certain chairs, that are the subject of the
infringement claims. Images of the Office Star chairs at issue are compiled in Exhibit 686 (pages 20-30),
which was provided to the jury. The Jury was also shown representative physical examples of the
2

Trial Exhibits identified in Office Star’s motions for JMOL are attached to the Declaration of David A. Dillard, who is
counsel for Office Star. Dkt. 377
Page 4 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 5 of 50 Page ID #:13850
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

accused chairs in open court during the trial. 9/29 AM Tr., Dkt. 365 at 10-12. Images of the Accused
Chairs of Office Star include the following:

Page 5 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 6 of 50 Page ID #:13851
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

Excerpted from Ex. 686, Dkt. 384-20.
The jury found that Office Star willfully infringed Herman Miller’s registered and unregistered trade dress
rights in the EAMES chair through the Accused Chairs. As reflected in the answers to the questions on
the verdict form, the jury determined that each of the EAMES trade dresses was distinctive and famous,
that Office Star’s Accused Chairs diluted the corresponding EAMES trade dresses, and that Office Star
acted willfully in the conduct that caused the dilution. See Verdict, Dkt. 344 at 10-17.
Office Star advances four bases to support its motions for judgment as a matter of law. First, there was
insufficient evidence at trial from which a reasonable jury could conclude that the EAMES trade dresses
were valid. Dkt. 374. Second, there was insufficient evidence to support a finding that Office Star
infringed on those trade dresses. Dkt. 375. Third, the only evidence supporting the amount of damages
was speculative. Dkt. 376. Fourth, any award of damages must be limited to damage caused after
December 13, 2013, when Office Star was first on notice of the registered trade dress. Dkt. 353.
For the reasons stated below, the Motions are DENIED.
B.

Whether Office Star Waived the Right to Move for Judgment as a Matter of Law
1.

Legal Standards

The court in Nitco Holding Corp. v. Boujikian stated that
[i]n order to preserve a challenge to the sufficiency of the evidence to support the verdict in a civil
case, a party must make two motions. First, a party must file a pre-verdict motion pursuant to Fed.
R. Civ. P. 50(a). Second, a party must file a post-verdict motion for judgment as a matter of law or,
alternatively, a motion for a new trial, under Rule 50(b).
491 F.3d 1086, 1089 (9th Cir. 2007) (citations omitted). The “procedural requirement of filing a Rule 50(a)
motion before filing a Rule 50(b) motion” is construed “strictly,” and the “failure to file a Rule 50(a) motion
precludes consideration of a Rule 50(b) motion for judgment as a matter of law.” Tortu v. Las Vegas
Metro. Police Dep't, 556 F.3d 1075, 1083 (9th Cir. 2009). However, “Rule 50(b) ‘may be satisfied by an
Page 6 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 7 of 50 Page ID #:13852
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

ambiguous or inartfully made motion’ under Rule 50(a).” E.E.O.C. v. Go Daddy Software, Inc., 581 F.3d
951, 961 (9th Cir. 2009) (quoting Reeves v. Teuscher, 881 F.2d 1495, 1498 (9th Cir. 1989)). Where a
Rule 50(b) motion is brought on grounds not previously raised in a Rule 50(a) motion, the jury’s verdict is
reviewed for “plain error,” and is reversible only “if such plain error would result in a manifest miscarriage
of justice.” Id. (quoting Yeti by Molly, Ltd. v. Deckers Outdoor Corp., 259 F.3d 1101, 1109 (9th Cir. 2001).
2.

Application

At trial Herman Miller filed a brief in support of its Rule 50(a) motion. Dkt. 332. This motion was argued
before on October 4, 2016. At that hearing, Office Star made its Rule 50 motions orally. See Dkt. 359 at
68-80. The Court requested a brief discussion of those motions. Office star then identified several issues
as to which would seek relief under Rule 50. They included: (i) there was no infringement of the registered
trade dress; (ii) the unregistered trade dress was invalid; (iii) Office Star did not have sufficient notice of
the registered trade dress rights; and (iv) inadequate evidence as to damages. Id. at 79-80. After hearing
this presentation, the Court deferred a ruling on the Rule 50 issues, and stated that no further briefing was
needed at that time. Id. at 84.3
In its oral Rule 50(a) motion, Office Star did not specifically mention any issues as to the validity of the
registered trade dress or infringement of the unregistered trade dress. Nor did it present any challenge to
dilution damages. Herman Miller argues that Office Star’s “failure to file a Rule 50(a) motion [as to these
issues] precludes consideration of a Rule 50(b) motion for judgment as a matter of law.” Tortu, 556 F.3d
at 1083. However, Office Star’s oral motion under Rule 50(a) stated or implied that the majority of the
findings of the trial were being challenged in Office Star’s pending motions for judgment as a matter of
law. The Court did not require briefing of the motions having heard the oral presentation.
In light of this record, Office Star did not waive its right to seek relief under Rule 50 pursuant to the present
motions.4

3

The Court stated:
I am going to defer the Rule 50 motions until after the jury has deliberated. So in terms of further
briefing, I think it would make -- well, I think it would make more sense to wait and see what the -and await the jury's determination and then see what -- which motions, if any, remain to be
determined, and then I can set a briefing schedule.
Or -- we'll follow Rule 50. Let's just put it that way. I think that's the easier way to handle this. But on
a practical level, I don't think I need more briefing right now because I will defer.

Dkt. 359 at 84.
4
Alternatively, Office Star proposes that its motions addressed here may be considered deferred motions for
judgment as a matter of law under Rule 50(a) rather than renewed ones under Rule 50(b). Dkt 386 at 8. This could
be an independent basis for their consideration in light of the ruling that the Rule 50 motions were deferred pending
jury deliberations. However, it is not necessary to reach this issue in light of the determination stated above.
Page 7 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 8 of 50 Page ID #:13853
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.
C.

Date

August 1, 2017

Evidence Presented Regarding EAMES Chair
1.

Testimony Regarding Herman Miller Practices and Products

Christopher Bingham (“Bingham”), the Director of Sales for Herman Miller, testified about the sales and
marketing of the EAMES chair. 9/27 AM Tr., Dkt. 355 at 33-45. Bingham presented charts and data
showing that almost 340,000 EAMES chairs were sold from 1991 to 2015. Ex. 1341, Dkt. 384-48.
Bingham testified that he had investigated historic sales and marketing information, and that these
figures were “consistent in prior years as far back as we could see.” 355 at 40. Bingham testified that $6.6
Million is a reasonable estimate of the amount spent on the marketing of the EAMES chairs from
2004-2015. Id. at 42.
John Berry (“Berry”), an expert on the history of furniture, testified about the significance of the EAMES
chair over time. 9/22 PM Tr., Dkt. 354 at 53-65. Berry testified that designers Charles and Ray Eames
experimented with varying iterations of the chair before adopting the final design, which was distinctive
and unique. Id. at 57, 59. Berry testified that based on the novel appearance of the EAMES chair and its
significance within the design history of furniture, it has been included in the collections of many art
museums, where it has been displayed. Id. at 62-63. Berry also testified that the EAMES chair has
appeared in numerous motion pictures, television shows, and publications. 9/27 AM Tr., Dkt. 363 at 26.
Based on these observations, Berry opined that the chair is famous. Id. On cross-examination, Office
Star asked Berry whether he had performed any surveys to confirm the fame of the EAMES chair. Id. at
27. He testified that he had not. Id.
Robert Hieftje (“Hieftje”), a Senior Program Director at Herman Miller, testified that he had worked with
Herman Miller for 39 years, and was involved in the marketing of the EAMES chair. Id. at 40-42. Hieftje
testified that the EAMES chairs are very well known, and “are the icons for the definition of midcentury
modern.” Id. at 49. Hieftje also testified that certain features of the EAMES chair were particularly
significant, unique to its design and a basis to distinguish it within the market. These features included:
the curved side rails; the flowing trapezoidal arms; the flared spanner on the back; the scroll-like fabric at
the front of the seat and the top; the one-piece web from the seat through the back with its horizontal
stitching; and the narrow profile of the seat. Id. at 50-51. He testified that there are no utilitarian reasons
for any of these elements or features to have their respective shapes or styles. Therefore, there is no
utilitarian reason for the unique, overall appearance of the chair. Id. at 52-53.
On cross examination, Office Star asked Hieftje about the functional use of certain individual components
of the EAMES chair, including the side rails, spreader bar and armrests. 9/27 AM Tr., Dkt. 355 at 10 (side
rails), 11 (spreader bar), 17 (side rails), 21 (armrests). Hieftje acknowledged that each of these features
has a function, but also explained that their designs contribute to “the overall look and aesthetic” of the
EAMES chair. See, e.g., id. at 17-18.
Casey Bond (“Bond”), Herman Miller’s Portfolio Lead, testified that the EAMES chair is marketed to every
demographic group. Id. at 46-94. She testified that the majority of sales of the EAMES chair are to
dealers, who primarily sell to large corporate, government and hospitality (e.g., hotels) customers. Id. at
48-53, 97. She also testified that the EAMES chair is very popular. Id. at 61-77. Furthermore, she testified
that typical orders of EAMES chairs are large, with the chairs used to provide seating in conference
rooms and public spaces. at 52-53. She testified that the average order is for approximately 50 chairs. Id.
Page 8 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 9 of 50 Page ID #:13854
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

She also testified that EAMES chairs are more expensive than the competing and allegedly infringing
Office Star chairs. She testified that the EAMES chairs are priced between $600-$1500 wholesale, and
sell at an average retail price of $1200. Id. at 50.
Bond reviewed Herman Miller’s marketing practices. She testified that Herman Miller advertises through
publications, trade shows and social media. Id. at 62-64. She also testified that Herman Miller’s
advertisements focus on the aesthetic appearance and design of the EAMES chair. Id. at 65-68.
Examples of such advertisements were admitted as exhibits and published to the jury during the trial. See
Ex. 990, Dkt. 384-28; Ex. 679, Dkt. 384-19. Bond also presented exhibits in which media sources noted
the appearance of the EAMES chair. Dkt. 355 at 68-70, 74-77; See also, e.g., Ex. 650-47, Dkt. 384-14 at
48; Ex. 650-49, Dkt. 384-14 at 50; Ex. 650-171, Dkt. 384-15 at 41; Ex. 919, Dkt. 384-27; Ex. 991, Dkt.
384-29. Bond next testified that an increase in enthusiasm for mid-century modern design in recent years
has led to an increase in sales of the EAMES chair. Dkt. 355 at 61-62; Ex. 1340, Dkt. 384-47 (showing
spike in sales). Bond also testified that all EAMES chairs are sold with a sewn-in label on the underside of
the chair, and a hangtag that features the ® symbol. Dkt. 355 at 58-59.
Bond testified that there was a reasonable possibility that consumers would be confused as to whether a
given chair was a Herman Miller EAMES or an Office Star product. She testified that these types of chairs
are typically purchased in significant quantities by businesses that “are buying for conference rooms or
board rooms,” as well as government agencies and entities, and assembled by contractors. Id. at 48.
However, the EAMES chairs are assembled when sold. Id. at 57. As a result, consumers who purchase
them will not see the labelled packaging in which they are delivered, but only the assembled chairs. Id. at
80-81.
Additionally, Bond testified that many retailers sell low-cost versions of their products under the name of a
sub-brand or affiliate. Therefore, she testified that consumers could conclude that products called “Office
Star” are affiliated with Herman Miller. Id. at 85. Bond testified that if such confusion occurred, it is unlikely
that Herman Miller would be made aware of it by the Office Star customers. They would have no reason
to do so. Id. Bond also identified one example of such confusion. A person made a comment on Office
Star’s Facebook page, stating “that’s a nice Eames chair,” in a post next to a photograph of an Office Star
chair. Id.; see also Ex. 1349, Dkt. 384-50 (image of social media post). Bond testified that the likelihood of
confusion was increased because Herman Miller and Office Star have an overlapping customer bases,
attend the same trade shows, and advertise in some of the same industry publications. Dkt. 355 at 84-85;
88-89. Bond also testified that Office Star used certain dealers also used by Herman Miller. Id. at 91.
Herman Miller notes that as licensed dealers, these dealers have a right to place the Herman Miller name
on their doors, which could lead to additional confusion if a consumer visiting the store saw an Office Star
product. Dkt. 384 at 25.
On cross examination, Office Star asked Bond whether Herman Miller had lost any competitive bids to
Office Star. Dkt 355 at 99-100. Bond stated that such bidding competitions had taken place, but because
they were confidential she was not aware of their outcomes. Id.
Robert Anders (“Anders”) testified for Herman Miller as an “industrial design expert.” 9/30 AM Tr., Dkt.
366 at 25-26. He testified that certain characteristics of the EAMES chair were of primary importance
from a design perspective. These included its “continuous seat back and web, which has a certain kind of
shape and silhouette.” Id. at 36. Anders also testified that these key distinguishing attributes were
Page 9 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 10 of 50 Page ID
#:13855
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

consistent across various iterations of the chair. Therefore, they all were recognizable as EAMES chairs
due to these similarities. Id. at 46-47. Anders also testified that there are many chair designs that provide
the same utility as the EAMES chair, but that their features have shapes that are different from the
EAMES chair, thereby presenting different aesthetic appearances. See Dkt. 366 at 40-41 (“Here, you see
other chairs. And the shapes are all totally different, completely different. So the shape is not dependent
upon any functional utility”). Anders testified that there is no utilitarian reason for the primary features of
the EAMES chair, including their shapes, armrests, upholstery patterns, and the design of the rails that
hold the chair together. Id. at 42-47.
Anders also testified as to two utility patents, which are owned by Herman Miller, and relate to the
EAMES Chair. Ex. 504, Dkt. 384-12; Ex. 505, Dkt. 384-13. One relates to a technique for mounting a web
made of fabric between two rails separated by a spreader bar. Dkt. 384-12. The other relates to a method
for “heat sealing” upper and lower surfaces of upholstery. Dkt. 384-13. Anders testified that this technique
allowed for a wide variety of appearances in upholstery, and that the same look could be attained even
without using the heat sealing technique. Dkt. 366 at 43. Anders testified that neither patent related to the
overall appearance of the EAMES chair. Dkt. 366 at 39 (“Neither one of [the patents] claimed the
appearances.”).
Dr. Basil Englis, a survey expert, testified regarding a survey among those who were prospective
purchasers of chairs. 9/30 PM Tr., Dkt. 358 at 42-44. The purpose of the survey was to measure the
likelihood of confusion among such persons between an EAMES chair and the Accused Chairs. at 20-21.
Survey participants were shown images of the EAMES chair and Accused Chairs, and were asked
whether they believed those chairs were produced by the same or affiliated companies, and were invited
to provide the basis for their views. Id. at 38-42. He testified that four out of five people surveyed stated
that they were confused, i.e., the rate of “net confusion” was 80.1%. Id. at 42.
2.

Testimony Regarding Office Star Practices and Products

Herman Miller called Richard Allen Blumenthal (“Blumenthal”), the founder and president of Office Star,
as an adverse witness. 9/28 AM Tr., Dkt. 356 at 7. He testified that he was aware of the EAMES chairs at
the time that he selected the design of the Accused Chairs. Id. at 13. Blumenthal acknowledged that the
accused chairs had been referred to internally as “knock offs” of Herman Miller. Id. at 34. Other internal
emails also provided evidence to support a finding that Blumenthal was aware of the similarity among the
Accused Chairs and the EAMES chair at the times the Accused Chairs were being developed. Id. at
35-37; Ex. 775, Dkt. 384-23; Ex. 773-1, Dkt. 384-22.
Blumenthal also testified that he is aware that Office Star and Herman Miller compete directly each year
as to at least five to ten bids to prospective, commercial purchasers. Dkt. 356 at 44. Other emails were
also referenced whose language supported the view that Office Star was apprised of the similarity in the
appearance of the Accused Chairs and the EAMES chair. Id. at 42-43; Ex. 1210, 380-39.
Office Star Executive Vice President Fred Rueda (“Rueda”) testified that he was aware of the EAMES
chair in the 1990s, prior to the introduction of the Accused Chairs. 9/29 PM Tr., Dkt. 365 at 23. A
December 2010 email from an Office Star sales manager to a customer, which was also sent to Rueda,
stated that the Office Star chair did not infringe on Herman Miller products. Ex. 1207, Dkt. 384. Rueda
testified that this representation was not based on the opinion of legal counsel. Dkt. 365 at 35-36. Rueda
Page 10 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 11 of 50 Page ID
#:13856
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

also testified that the accused chairs had generated large sales volumes at a very rapid and unusual
pace. Id. 37-40. He testified that they were sold to all demographics, including sales through distributors
who sell to corporate, government and retail clients. Id. at 13-16. This testimony was consistent with a
February 2011 email, on which Rueda was copied, which advertised Office Star chairs as lower cost
alternatives to the EAMES chair. Id. at 26-27; Ex. 775, Dkt. 384-23. Rueda testified that he was aware of
five to ten instances each year in which Office Star and Herman Miller were competing through bids to the
same prospective purchasers. He also testified that there may have been other similar instances of this
about which he was not aware. Id. 45-46.
Julian Egger (“Egger”), seating designer for Office Star, testified that he was aware from his experience
that the EAMES Aluminum Group chairs are famous. 9/30/16 AM Tr., Dkt. 366 at 22-23. On cross
examination by Office Star, Egger clarified that he meant that it was famous to “people who like design”
such as architects or others with a background in design. Id. at 24.
Larry Schrock (“Schrock”), Sales Manager for Office Star, testified that the Accused Chairs were intended
for use in commercial offices as well as other locations. In an email, he wrote that “these chairs are 100%
built for commercial offices as well. This design is excellent for corporate board rooms. This design is also
popular for home offices.” 9/30 PM Tr., Dkt. 358 at 76-78; Ex. 1225, Dkt. 384-33. Schrock testified that the
appeal of the chairs came from their “modern classic” style. Dkt. 358 at 78-79. Certain emails from
Schrock were admitted in which Schrock compared the Accused Chairs and the EAMES chair and
referred to the Accused Chairs as “direct knockoffs of Herman Miller . . . chairs.” See id. at 81-83; Ex.
1240, Dkt. 384-35.
3.

Adverse Inference Instruction

Prior to trial, the Court adopted a Report and Recommendation of Magistrate Judge Pym, which found
that Office Star had engaged in spoliation of evidence during the discovery process. Dkt. 216. As a result,
the following jury instruction was read to the jury:
In the course of the litigation of this case, Office Star failed to preserve certain electronic
records from prior to 2011, including emails with its customers and others. The loss of
these records may have been due to Office Star’s failure to search electronic records
when it had been ordered to do so, and due to its substantial carelessness. Through this
conduct, Office Star acted in a manner that reflected a disregard of its obligations and
responsibilities in this case. As a result, these records were not available for inspection by
Herman Miller, as is required under the governing rules in litigation. In light of this conduct
by Office Star, you may presume that some of the materials that were not preserved
included information that was adverse to Office Star with respect to the issues that have
been presented at trial. For example, you may presume that some of them had content
similar to the post-2011 communications between Office Star and third parties that
mention Herman Miller or its chairs, and draw comparisons between its chairs and the
Office Star chairs that are at issue in this case.
Dkt. 338 at 43 (JI 36).

Page 11 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 12 of 50 Page ID
#:13857
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.
D.

Date

August 1, 2017

Validity of EAMES Trade Dresses

The jury was instructed that for a trade dress to be valid and protectable, it must be both non-functional,
and have acquired distinctiveness through secondary meaning. Dkt. 338 at 25 (JI 24). The jury was also
instructed that, as to a registered trade dress, there is a presumption that both of these requirements
have been satisfied. Id. At trial, Office Star was limited to presenting evidence intended to rebut the
presumption that the registered trade dress was not functional. The secondary meaning of the registered
trade dress was not subject to challenge pursuant to 15 U.S.C. §1115(b). Office Star had the burden to
prove non-functionality of the registered trade dress by the preponderance of the evidence. Id. As to the
unregistered trade dress, Herman Miller had a burden to prove by a preponderance of the evidence that
the trade dress was non-functional and had acquired secondary meaning. Id.
As noted, the jury found that Herman Miller had protectable trade dress rights in both its registered
EAMES trade dress and its unregistered trade dress rights in the EAMES Thin Pad and Soft Pad chairs.
Office Star argues that insufficient evidence was introduced at trial for a reasonable jury to reach these
conclusions.
1.

Whether the Registered and Unregistered Trade Dresses Were Functional
a)

Legal Standards

In the Order denying Office Star’s Motion for Summary Judgment, the standard for determining
functionality was addressed:
Functionality is a question of fact. Secalt S.A. v. Wuxi Shenxi Const. Mach. Co., 668 F.3d
677, 683 (9th Cir. 2012). There are two types of functionality. “[D]e facto functional means
that the design of a product has a function, i.e., a bottle of any design holds fluid. De jure
functionality, on the other hand, means that the product is in its particular shape because it
works better in this shape . . . . [B]efore an overall product configuration can be recognized
as a trademark, the entire design must be arbitrary or non de jure functional.” Leatherman
Tool Grp., Inc. v. Cooper Indus., Inc., 199 F.3d 1009, 1012 (9th Cir. 1999) (emphasis,
ellipses and alteration in original) (quoting Textron, Inc. v. U.S. Int'l Trade Comm'n, 753
F.2d 1019, 1025 (Fed. Cir. 1985)).
“[T]rade dress protection may not be claimed for product features that are functional.”
TrafFix, 532 U.S. at 29. “[l]n general terms, a product feature is functional . . . if it is
essential to the use or purpose of the article or if it affects the cost or quality of the article.”
Id. at 32 (internal quotation marks omitted). Four factors are significant in assessing
functionality: “(1) whether the design yields a utilitarian advantage, (2) whether alternative
designs are available, (3) whether advertising touts the utilitarian advantages of the
design, and (4) whether the particular design results from a comparatively simple or
inexpensive method of manufacture.” Disc Golf Ass'n, Inc. v. Champion Discs, Inc., 158
F.3d 1002, 1006 (9th Cir. 1998); see also Au-Tomotive Gold, Inc. v. Volkswagen of Am.,
Inc., 457 F.3d 1062, 1072 n.8 (9th Cir. 2006) (four factors in Disc Golf still legitimate
considerations following TrafFix). Each factor should be weighed collectively, and no
single factor is dispositive. Disc Golf, 158 F.3d at 1006.
Page 12 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 13 of 50 Page ID
#:13858
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

The fact that individual elements of the trade dress may be functional does not necessarily
mean that the trade dress as a whole is functional; rather, functional elements that are
separately unprotectable can be protected together as part of a trade dress.” [Clicks
Billiards, Inc. v. Sixshooters, Inc., 251 F.3d 1252, 1259 (9th Cir. 2001)] (emphasis and
internal quotation marks omitted). “[T]he proper inquiry is not whether individual features
of a product are functional or nondistinctive but whether the whole collection of features
taken together are functional or nondistinctive.” Kendall-Jackson Winery, Ltd. v. E. & J.
Gallo Winery, 150 F.3d 1042, 1050 (9th Cir. 1998). However, functionality may be found
where “the whole is nothing other than the assemblage of functional parts” and “there is no
evidence that anything about the appearance exists for any nonfunctional purpose.”
Secalt, 668 F.3d at 684.
Dkt. 192 at 17.
b)

Application

As noted, Office Star argues that Herman Miller did not present sufficient evidence to meet its burden of
showing non-functionality as to its unregistered trade dress. Thus, it contends that there was not a
sufficient evidentiary basis for the conclusion reached by the jury. Office Star also argues that it met its
burden to rebut the presumption of non-functionality as to the registered EAMES trade dress, and that
Herman Miller did present sufficient evidence in response to justify the finding by the jury. These
arguments are summarized in connection with the application of the four Disk Golf factors.
(1)

Utilitarian Advantage

Office Star argues the overall purpose of the EAMES chairs is to provide a utilitarian advantage. Office
Star refers to a utility patent owned by Herman Miller, (the “’109 patent” (Ex. 504, Dkt. 384-12)). A limited
amount of evidence was presented as to the ’109 Patent. The ’109 patent describes the purpose of the
EAMES chair in the following passage:
This invention is particularly designed to provide furniture of dual purpose, that is, for use
both indoors and outdoors. . . . For the purpose of exterior use, this furniture is specifically
designed to utilize materials having maximum durability under exterior weather conditions.
These conditions include the extremes of heat and dryness and cold and moisture. For the
purpose of further adapting this furniture to its dual purpose, it is designed to be readily
portable. It incorporates a structure of minimum weight consistent with the requirements of
strength and durability imposed upon furniture particularly that designed for exterior use.
Dkt. 384-12 at 5.
Office Star also cites another patent held by Herman Miller (the “’068 patent” (Ex. 505, Dkt. 384-13)). Id.
At trial, Hieftje viewed these patents, and testified that each appeared to describe certain utilitarian

Page 13 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 14 of 50 Page ID
#:13859
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

advantages of the registered and unregistered trade dress.5 “[T]he existence of an expired utility patent is
weighty evidence of functionality, although that fact alone is not dispositive.” Disc Golf, 158 F.3d at 1006.
Office Star also makes extensive arguments as to the functional elements of the EAMES chair. These
were addressed at trial through the testimony of Hieftje and Berry. See Dkt. 363 at 28 (Berry); Dkt. 355 at
11 (Hieftje); Ex. 503, Dkt. 377-4 at 5. Specifically, Office Star presents its position as to the various
functional attributes of the side rails, upper spreader, corner screws, armrests and web. These functional
characteristics are related to the structural integrity, ease of assembly, safety, comfort and durability of
the EAMES chair.
Other trial evidence supported the contrary position advanced by Herman Miller. It supported the position
that when viewed as a whole, and on a component-by-component basis, the trade dress of the EAMES
chair is not functional. This evidence included the testimony of Berry and Hieftje. As noted, each testified
that the appearance of the EAMES is unique, and that this appearance was not dictated by its
functionality. Anders also testified on this issue. He stated that the functions identified in the utility patents
were not relevant to the overall appearance of the EAMES chair. Herman Miller also presented images of
the chair, and provided testimony as to the artistic purposes that inspired its design.
Herman Miller adds that the decision of the Trademark Office to grant registration over its registered trade
dress adds support for the position that the trade dress did not serve a utilitarian purpose.
Given the similarities between the registered and unregistered trade dress, and based on the evidence
described in this Order, the jury could reasonably have found that the overall appearance of the EAMES
chair was not functional.
(2)

Advertising

Office Star claims that Herman Miller advertising addresses the utilitarian advantages of the EAMES
chair. A Herman Miller brochure about the EAMES chair includes the following statement:
Eames Aluminum Group represents a major technical achievement by Charles and Ray
Eames. They departed from the concept of chair as a solid shell and stretched a
continuous piece of upholstery tautly between two aluminum side ribs. The resulting
seat-back suspension provides a firm, flexible “sitting pocket” that conforms subtly to the
body’s shape. The one-piece curved aluminum side ribs and die-cast aluminum base
make for a strong yet lightweight chair.
EAMES Brochure, Ex. 503 at 5, Dkt. 377-4.
Heiftje agreed that in referring to the technical superiority of the EAMES chair, this text was accurate “for
a chair designed in 1958.” Dkt. 355 at 9. This brochure supports the position that when designed, there
5

Office Star states that this patent was addressed at trial by Hieftje. However, his testimony was quite limited.
When presented with Ex. 504, Hieftje stated “I’m not a patent attorney, but it looks like it is a patent based on what
I am reading here.” Dkt. 355 at 12.
Page 14 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 15 of 50 Page ID
#:13860
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

was some consideration of functional purposes. However, Herman Miller’s witnesses testified about
other Herman Miller advertising. Its focus is on the aesthetic appearance of the EAMES chair. The jury
was also provided with many examples of advertising for the EAMES chair that highlighted such qualities.
Based on the evidence discussed in this Order and presented at trial, there was a sufficient basis to
support the finding of the jury. That there was some evidence of advertising that mentioned functionality
does not change this conclusion.
(3)

Availability of Alternative Designs

As to the availability of alternative non-infringing designs, the jury was instructed as follows:
In considering this factor, you may examine whether an alternate design could have been
used, so that competition in the market for that type of product would not be hindered by
allowing only one person to exclusively use the particular design or configuration. For this
to be answered in the affirmative, the alternatives must be more than merely theoretical or
speculative.
Dkt. 338 at 27 (JI 25).6
At trial, Herman Miller argued that non-infringing, alternative designs are available that retain the same
functional characteristics of the EAMES chairs. Office Star argues that Herman Miller did not present any
non-speculative evidence on this issue. Instead, it contends that the witnesses presented by Herman
Miller only testified that such a non-infringing design was possible. The competing evidence presented by
Herman Miller included the testimony of Anders. He testified that alternative designs were available for
use. He also presented a table showing the variety of alternative chair designs with the EAMES identified
base design, i.e. “a frame and upholstery with a single, slender, rectangular flexible web of roughly
uniform width and thickness that has been curved into a rounded L-shape.” See Dkt. 366 at 40-41.
A consideration of the trial evidence shows that it was sufficient to provide a basis for a reasonable jury to
determine that alternative designs were available.
(4)
Whether Design Results from Comparatively Simple or Inexpensive
Method of Manufacture
The focus of this factor is whether the design of the asserted trade dress “results from a relatively simple
or inexpensive method of manufacture.” Dkt. 338 at 27 (JI 25); see also Disc Golf, 158 F.3d at 1006.
Limited trial evidence was presented as to this factor. Office Star notes that the ’109 patent was
presented to the jury, and that it shows that the EAMES trade dress facilitates shipping and assembly of
the chairs. Dkt. 384-12. That patent also notes that the chair allows for easier replacement of certain
6

Office Star objected to this instruction as an incorrect statement of law. It contends that the ability to compete is
related only to “aesthetic functionality,” not “utilitarian functionality,” which is at issue in this case. Office Star argues
that with respect to utilitarian functionality, an alternative design is one that has the same functionality but a
non-infringing appearance. See Dkt. 330 (Office Star Objections to Trade Dress Jury Instructions). These objections
were considered and rejected at the trial.
Page 15 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 16 of 50 Page ID
#:13861
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

parts. Id. This evidence supports the position of Office Star. However, it is not sufficient to change the
result when considered in the context of all of the evidence presented on the relevant factors
*
*
*
For the foregoing reasons, there was sufficient trial evidence such that a reasonable jury could find that
both the registered and unregistered EAMES trade dresses were non-functional.
2.

Whether the Unregistered Trade Dress Had Secondary Meaning
a)

Legal Standard

As stated in the Summary Judgment Order,
Secondary meaning is “a term of art for identification of source.” Clicks Billiards, 251 F.3d
at 1262. “The trade dress of a product or service attains secondary meaning when the
purchasing public associates the dress with a particular source.” Id. (quoting Fuddruckers,
Inc. v Doc’s B.R. Others, Inc., 826 F.2d 837, 843 (9th Cir. 1987)). Whether an asserted
trade dress has acquired secondary meaning is a question of fact. First Brands Corp. v.
Fred Meyer, Inc., 809 F.2d 1378, 1383 (9th Cir. 1987). Where there is evidence of
“deliberate copying [that] may suffice to support an inference of secondary meaning.”
Fuddruckers, 826 F.2d at 844. Other factors relevant to a finding of secondary meaning
include: “(1) whether actual purchases of the product bearing the claimed trade [dress]
associate the trade [dress] with the producer, (2) the degree and manner of advertising
under the claimed trade [dress], (3) the length and manner of use of the claimed trade
[dress] and, (4) whether use of the claimed trade [dress] has been exclusive.” Transgo,
Inc. v. Ajac Transmission Parts Corp., 768 F.2d 1001, 1015 (9th Cir. 1985); see also
Clamp Mfg. Co. v. Enco Mfg. Co., 870 F.2d 512, 517 (9th Cir. 1989).
Dkt. 192 at 23-24.
Jury instruction 26, which addressed secondary meaning, states that the jury could consider
seven factors (the “Sleekcraft factors”7): (i) consumer perception; (ii) advertising; (iii)
demonstrated sale success; (iv) extent of use; (v) exclusivity; (vi) copying and (vii) actual
confusion. Dkt. 338 at 28-29 (JI 26).
b)

Application

Herman Miller presented evidence relevant to each of the factors involved in the determination of
secondary meaning. This included testimony and documentary evidence as to its sales and marketing of
the EAMES chair. Herman Miller also presented evidence about the EAMES chair appearing in the
media, as well as its display in museums. Herman Miller also presented survey evidence that supported
its position that there is a high likelihood of confusion among consumers when viewing the parties’
competing products. There was also evidence that the EAMES chair is famous. Office Star’s seating
7

AMF Inc. v. Sleekcraft Boats, 599 F.2d 341 (9th Cir. 1979).
Page 16 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 17 of 50 Page ID
#:13862
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

designer, Egger, conceded this point during his cross examination.
Herman Miller also contends that whether the registered EAMES trade dress had developed secondary
meaning was not challenged by Office Star. Because the unregistered trade dress largely parallels the
registered trade dress with the addition of specific upholstery, there was sufficient evidence from which
the jury could reasonably have concluded that the unregistered trade dress had secondary meaning.
In light of the foregoing, Office Star has not shown a sufficient basis to challenge and vacate the jury’s
verdict that the unregistered EAMES trade dress had secondary meaning.
3.

Conclusion

For the foregoing reasons, the Office Star’s Motion for judgment as a matter of law as to the validity of the
EAMES trade dress is DENIED.
E.

Infringement, Dilution and Willfulness

Office Star argues that Herman Miller did not present sufficient evidence to support a finding of
infringement. Office Star also argues that Herman Miller did not present any evidence as to the fame of
these trade dresses, which is a necessary element of a claim of dilution. Office Star makes a similar
argument as to the finding of willfulness. For these reasons, Office Star contends that no reasonable jury
could have concluded that the Accused Chairs infringed the registered or unregistered EAMES trade
dress. These issues are addressed in this sequence.
1.

Infringement
a)

Legal Standard for Infringement

The jury was instructed on the bases for determining whether there was infringement. The instruction on
this issue was derived from Ninth Circuit Model Instruction 15.18. It set forth the Sleekcraft factors, which
were discussed above. They are: (i) the strength of the trade dress; (ii) the similarity of the trade dresses
used by the adverse parties; (iii) evidence of actual confusion; (iv) intent of the party who allegedly
infringed; (v) whether the products make use of the same marketing/advertising channels; and (vi) the
sophistication of and care exercised by those who purchase or select the products for use. Dkt. 338 at
31-32 (JI 28).
b)

Application
(1)

Strength of the Trade Dress

Office Star argues that “there was no evidence that the consuming public recognize[d] any protectable
Eames trade dress as an indication of the origin of the Eames chairs.” Dkt. 375-1 at 6. Office Star also
contends that the EAMES trade dress includes only the frame of the chair, and no evidence was
presented that it is recognized as a basis for determining the origin of the products given the absence of
upholstery. It adds that no evidence was presented that the frame was ever sold or displayed in by itself.
Page 17 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 18 of 50 Page ID
#:13863
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

However, the evidence addressed above in relation to the existence of secondary meaning is also
relevant here. As noted, evidence was presented on the basis of which the jury could reasonably find that
secondary meaning existed as to each of the asserted EAMES trade dresses. This evidence also
supports a finding that the trade dresses were distinct, and recognizable by the public as pertaining to
Herman Miller.
(2)
Similarity Among Trade Dresses
As noted, trade dress protection extends only to non-functional items, which have acquired secondary
meaning. Office Star argues that similarities in functional attributes of its chairs and the EAMES chair are
irrelevant to a determination of infringement. Office Star then argues that “the ornamental aspects of the
asserted Eames trade dresses and the accused Hospitality chairs are different.” Dkt. 375-1 at 7.
Specifically, it notes that the armrests of the EAMES chairs have shapes different from those of the
Accused Chairs and that only the EAMES chairs have back spreaders with a smooth curved shape and
less visible connection points.
Office Star also identifies certain dissimilarities among the specific chairs as to which infringement was
found. These include that some of the Accused Chairs do not have armrests, but all of the EAMES chairs
do, and some of the components of the frames of the Accused Chairs have shapes that vary from those
of the registered EAMES frame. Dkt. 375-1 at 7. Based on this evidence, Office Star argues that there
was no evidence of similarity between the EAMES trade dresses and those of the Accused Chairs.
The trial evidence included photographs of all of the chairs at issue. Therefore, the jury was able to
compare these images, just as they had been compared during the presentation of evidence at the trial.
Although there are some variations among the components of the chairs, when they are compared in a
comprehensive manner that considers their entire appearances, a reasonable jury could find that the
Herman Miller’s registered and unregistered trade dress in the EAMES design is quite similar to the
Accused Chairs.
(3)

Actual Confusion

The only evidence of actual confusion was a Facebook post on the Office Star website. As noted, the
person who made the post stated, “this EAMES chair is nice.” This statement was made about a
photograph of one of the Accused Chairs. However, testimony was also presented as to why Herman
Miller was not always aware of incidents of actual confusion. For example, Bond testified that the
individuals who were most likely to be confused were Office Star customers who mistakenly believed that
they were purchasing or using lower-cost products produced by Herman Miller.
Survey evidence was also presented by Englis as to the potential for actual confusion. Office Star argues
that the testimony by Englis with respect to surveys did not support a finding of actual confusion. It
contends that the results are unreliable due to the manner in which the control chairs were selected.
Englis acknowledged that selection is a relevant issue. See Dkt. 358 at 63 (agreeing with the premise that
“the greater the differences between the control chairs and the [Eames chair,] the greater the net
confusion is going to be”). Office Star also contends that Englis only tested a small portion of the relevant
consumer market, and that the survey was only designed to test participants “in the buying mood”, rather
than those who might be confused after sales were completed. See id. at 65. In response, Herman Miller
argues that, even if the results of the survey were somewhat altered due to the choice of control group,
Page 18 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 19 of 50 Page ID
#:13864
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

the extremely high net confusion value, which was as much as 80%, shows that the survey nonetheless
established confusion.
Finally, Office Star argues that the survey conducted by Englis was flawed because it failed to distinguish
between functional and non-functional features of the individual chairs. However, as noted earlier, the
appropriate inquiry is whether there was infringement on the trade dress. That is an issue that requires an
assessment of the overall appearance of the chairs at issue. The survey provided consumers with
images of those chairs.
For the foregoing reasons, the jury could reasonably have found that there was some actual confusion.
(4)

Evidence of Intent

Office Star concedes that it was aware of the EAMES chair. However, it contends that the evidence did
not support a finding that it was aware of the registration of the trade dress for the EAMES chair frame at
the time the accused chairs were introduced into the market. Blumenthal testified that it received word
from its manufacturer, King Hong, that the chairs were being created in a way to avoid the infringement of
any patents or other intellectual property rights. See Dkt. 356 at 53-54. Blumenthal also testified that once
Herman Miller notified Office Star of claimed infringement, he relied on the advice of its attorney, Edward
Schwartz (“Schwartz”) to avoid any infringement. Id. at 82-88. Office Star argues that its decision to
engage counsel and follow its advice shows that it did not intend to infringe the EAMES trade dress.
Other evidence provides a sufficient basis for the jury to have reasonably found intent. Thus, following the
introduction of the accused chairs, a retailer, OfficeMax, refused to carry the Office Star chairs due to
concerns about infringement of Herman Miller’s rights. Office Star responded by noting that its contract
required it to indemnify OfficeMax for any liability arising from such infringement. Ex. 1207, Dkt. 384-31.
Costco, also refused to sell the chairs due to concerns as to infringement of Herman Miller’s rights. Ex.
1260, Dkt. 384-36. Office Star referred to the chairs internally as “knockoffs.” For that reason, Office Star
employees advised against featuring them on the cover of an industry publication. Ex. 1240, Dkt. 384-35.
Viewed collectively, the trial evidence provided a sufficient basis for a jury reasonably to find that the
infringement was knowing and intentional.
(5)

Marketing/Advertising Channels

The jury was instructed that “[i]f Herman Miller’s and Office Star’s products are likely to be sold in the
same or similar stores or outlets, or advertised in similar media, this may increase the likelihood of
confusion.” Dkt. 338 at 31 (JI 28). Bond testified that Herman Miller primarily sells its products through
independent dealers. They, in turn, resell the products to institutional buyers including companies,
government contractors and other and business owners. See Dkt. 355 at 49. It also sells through certain
retailers, including its “Design Within Reach” stores. Id. Bond also testified that Herman Miller’s
customers are often individual consumers. Id.
In contrast, Office Star Vice President Josh Blumenthal (“J. Blumenthal”) testified that Office Star does
not sell or market directly to consumers or large corporations. Dkt. 365 at 88. Instead, he testified that
Office Star sells only through third party resellers, and primarily targets mid-market commercial office and
Page 19 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 20 of 50 Page ID
#:13865
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

residential furniture vendors. Id. J. Blumenthal also testified that Office Star sells its chairs to larger
retailers and online. Id. at 77-78. Office Star argues that its marketing channels are distinct from those
used by Herman Miller, and do not support a finding of likelihood of confusion.
The differences in marketing channels identified by Office Star concern the use of intermediaries. The
jury was instructed that “[t]he relevant consumers you should consider are all potential purchasers of
office chairs in the United States.” Dkt. 338 at 30 (JI 27). The trial evidence showed that both Office Star
and Herman Miller sell to institutional and individual buyers in a range of settings. It also showed that the
two have competed through bids to the same potential buyers.
Based on the foregoing, the trial evidence was sufficient to support a finding that the parties operated in
overlapping marketing channels.
(6)

Degree of Care

The jury was instructed that “[t]he more sophisticated the potential buyers of the goods or the more costly
the goods, the more careful and discriminating the reasonably prudent purchaser exercising ordinary
caution may be.” (Dkt. 338, JI 28) The EAMES chairs sell in the range of $1,200 to $2,500. (Dkt. 355 at
101:16-22 (Bond)). Other evidence showed that many customers who purchase EAMES chairs are quire
careful about their purchases, and are unlikely to be misled. Bond testified that Herman Miller has
“customers even on our online store saying, ‘I have wanted one of these chairs for years. I have saved up
for it.’” (Dkt. 355 at 76:15-21 (Bond)). On this basis, Office Star argues that customers who purchase one
of its chairs are unlikely to have been confused or misled.
Herman Miller cites trial evidence that supports the notion that an individual who has not previously
purchased an EAMES chair might not know their usual cost. According to Bond, such a consumer could
conclude erroneously that Office Star is a low cost brand affiliated with Herman Miller. Herman Miller
adds that the end users of its chairs are often not the individuals who made the purchasing decisions.
The trial evidence is sufficient to support the conclusion that a jury could reasonably have found that a
significant number of consumers would be misled as to the source of the chairs they purchased.
*
*
*
For the foregoing reasons, a reasonable jury could have found that there was infringement of Herman
Miller’s trade dresses.
2.

Dilution
a)

Legal Standard for Dilution

[T]o prevail on a dilution claim . . . a plaintiff must show that: (1) it owns a famous mark that
is distinctive; (2) the defendant is using a mark in commerce that allegedly dilutes the
plaintiff's famous mark; (3) the defendant's use of its mark began after the plaintiff's mark
became famous; and (4) the defendant's use of its mark is likely to cause dilution by
blurring or by tarnishment.
Page 20 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 21 of 50 Page ID
#:13866
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

Coach Servs., Inc. v. Triumph Learning LLC, 668 F.3d 1356, 1372 (Fed. Cir. 2012).
In a dilution claim, a “threshold question” is whether the trade dress in question is in fact famous. See id.
15 U.S.C. § 1125(c) states:
a mark is famous if it is widely recognized by the general consuming public of the United
States as a designation of source of the goods or services of the mark's owner. In
determining whether a mark possesses the requisite degree of recognition, the court may
consider all relevant factors, including the following:
(i) The duration, extent, and geographic reach of advertising and publicity of the
mark, whether advertised or publicized by the owner or third parties.
(ii) The amount, volume, and geographic extent of sales of goods or services
offered under the mark.
(iii) The extent of actual recognition of the mark.
(iv) Whether the mark was registered under the Act of March 3, 1881, or the Act of
February 20, 1905, or on the principal register.
15 U.S.C. § 1125(c)(2)(A). Whether a mark is “famous” is a question of fact. See Jada Toys, Inc. v.
Mattel, Inc., 518 F.3d 628, 635 (9th Cir. 2007).
In determining fame, the jury was instructed to consider all relevant evidence in light of the four statutory
factors stated above. Dkt. 338 at 34 (JI 30).
b)

Application

Office Star argues that Herman Miller did not adequately establish that the EAMES trade dresses were
famous at the time the accused chairs were introduced into the market. It contends that no evidence was
presented that the EAMES trade dresses were widely recognized by the general consuming public . . . as
a designation of source for the goods or services provided by Herman Miller. Instead, Office Star argues
that Herman Miller showed only that the EAMES chair was famous within a particular niche. However, to
be famous under 15 U.S.C. § 1125(c), its fame must go beyond a niche group and be recognized by the
relevant portion of the general public. See Coach Servs., 668 F. 3d at 1372 (“By using the ‘general
consuming public’ as the benchmark, the [Trademark Dilution Revision Act of 2006, 15 U.S.C. § 1125(c)]
eliminated the possibility of ‘niche fame.’”).
As noted above, substantial evidence was presented as to the fame of the EAMES chair. Thus, Berry
testified that the he believed that the EAMES was the basis for “what is known as ‘mid-century modern.”
Dkt. 354 at 53. Bond testified that the EAMES chair was featured on certain television programs, and has
many advocates and devotees on social media. Dkt. 355 at 61-63. Bond also testified that Herman Miller
has been present at trade shows, some of which attract approximately 50,000 attendees. Id. at 62. Egger,
who is Office Star’s seating designer, also testified that the EAMES chair is famous among people who
are interested in design. Exhibits were introduced about the use of the EAMES chair on popular television
Page 21 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 22 of 50 Page ID
#:13867
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

programs and in films. Dkt. 354 at 62. There was also evidence about its display at several museums. Id.
at 6.
Office Star argues that none of this evidence is persuasive. It objects that there was no evidence
presented that the relevant portion of the general consuming public associates the EAMES trade dress
with Herman Miller. Berry testified that he was not aware of any studies showing the demographics of
EAMES customers (Dkt. 363 at 31), and that he had not done any research into the level of public
recognition of the EAMES chair. Id. at 26. Office Star also argues that participation in trade shows, and
recognition by industry personnel, is evidence about niche groups. Dkt. 364 at 17.
Office Star also contends that no evidence was presented that the Soft Pad trade dress is famous among
the general consuming public. As to the registered trade dress, Office star argues that no evidence was
prevented as to its fame. The fact that certain of the EAMES trade dresses were unregistered also
weighs against a finding of dilution as to those trade dresses. See Avery Dennison Corp. v. Sumpton, 189
F.3d 868, 875 (9th Cir. 1999) (noting “the narrow reach of a dilution cause of action,” and stating
preference for “a limited category of trademarks, those which are truly famous and registered”).
Office Star next argues that the total amount of sales of EAMES chairs does not show their fame. 337,583
units of the EAMES Aluminum Group were sold from 1991 through 2015. See Ex. 1330-3, Dkt. 384-45.
During this same period, the sales of EAMES Soft Pad chairs totaled 70,581 and of EAMES Thin pad
chairs totaled 267,002. Id. Office Star argues that these figures do not demonstrate fame among the
consuming public. Dkt. 375-1 at 18-19 (citing Arcsoft, Inc. v. Cyberlink Corp., 153 F. Supp. 3d 1057, 1066
(N.D. Cal. 2015) (dismissing trademark dilution claim as “not sufficient to show that the Perfect365 Mark
is famous within the meaning of 15 U.S.C. § 1125(c)(2)” despite an allegation that the product had been
downloaded by over 60 million consumers globally, and over 20 million nationally)).
Office Star has presented arguments that bear on the weight of the evidence. However, they do not
clearly establish that the EAMES chair was not famous, or that a reasonable jury would not reach that
conclusion. As noted earlier, sufficient trial evidence was presented to support such a finding. It was not
limited to sales numbers, but included information about publicity, status in popular culture, and
widespread use.
Under these circumstances, it has not been shown that there was error as to this issue.
3.

Willfulness

As noted, Office Star argues that there is no evidence that it knew of the protectable EAMES trade
dresses prior to the introduction of the Accused Chairs. It also contends that there was no evidence that
Office Star made use of the names “EAMES” or “Herman Miller” in association with the sale or marketing
of its chairs. Office Star also repeats the argument that the only elements that the jury could plausibly
have found to have been copied were functional elements, and not protectable parts of the trade dress.
Office Star also reargues that it reasonably relied on the legal advice of Schwartz. Other evidence was
presented on which the jury could reasonably have found willfulness. This included the evidence
discussed above as to intentional infringement by Office Star.
*

*

*
Page 22 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 23 of 50 Page ID
#:13868
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

For the foregoing reasons, Office Star’s motion for judgment as a matter of law on the existence of
infringement, dilution and willfulness is DENIED.
F.

Damages

The jury awarded $3.3 million in compensatory damages on the claim of infringement of the EAMES
trade dress. This is the amount of profits realized by Office Star from its sale of the Accused Chairs from
the time they were introduced in 2010. The jury also awarded $5.1 million to Herman Miller in
compensatory damages on its claim of dilution of the EAMES trade dress. It found that both infringement
and dilution were the result of intentional conduct by Office Star. See Verdict, Dkt. 344 at 14, 17 (checking
boxes stating that infringement and dilution were willful).
Office Star argues that the damages awards should be set aside because the EAMES trade dress was
not protectable. That argument was addressed and rejected above. Office Star also argues that the
evidence presented in support of the amount of damages was insufficient and to support the awards.
1.

Legal Standards for Altering or Amending Damages Award Pursuant to Fed. R.
Civ. P. 59(e)

“Since specific grounds for a motion to amend or alter [an award of damages] are not listed in [Rule 59
(e)], the district court enjoys considerable discretion in granting or denying the motion.” McDowell v.
Calderon, 197 F.3d 1253, 1255 n.1 (9th Cir. 1999) (citation omitted). Amending a judgment is “an
extraordinary remedy which should be used sparingly.” Allstate Ins. Co. v. Herron, 634 F.3d 1101, 1111
(9th Cir. 2011). Allstate provided the guidance with respect to the consideration of such a motion
In general, there are four basic grounds upon which a Rule 59(e) motion may be granted:
(1) if such motion is necessary to correct manifest errors of law or fact upon which the
judgment rests; (2) if such motion is necessary to present newly discovered or previously
unavailable evidence; (3) if such motion is necessary to prevent manifest injustice; or (4) if
the amendment is justified by an intervening change in controlling law.
Id.
A damages award by a jury may be set aside or altered if it is “grossly excessive or monstrous,
clearly not supported by the evidence, or based only on speculation or guesswork.” DSU Med.
Corp. v. JMS Co., 471 F.3d 1293, 1309 (Fed. Cir. 2006). Where the court determines that a
damage award is excessive, it may either grant the motion for a new trial or a request for
remittitur. If the latter relief is granted, the party to which damages were awarded then has the
choice of either accepting the reduced amount, or rejecting it and proceeding with a new trial as to
damages. Funai Elec. Co. v. Daewoo Elecs. Corp., 593 F. Supp. 2d 1088, 1093 (N.D. Cal. 2009),
aff'd, 616 F.3d 1357 (Fed. Cir. 2010) (citing Fenner v. Dependable Trucking, Co., Inc., 716 F.2d
598, 603 (9th Cir.1983)). As the commentary to Rule 59 explains:
In effect, a court offering a remittitur gives the plaintiff the choice of accepting the lower
amount or facing a new trial. The court cannot order a remittitur unilaterally—it must
present the options and let the plaintiff choose. A court can reduce the damages award
Page 23 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 24 of 50 Page ID
#:13869
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.
offer only to the highest amount the jury reasonably could have awarded based on the
evidence presented. A party who agrees to a remittitur cannot challenge it on appeal.

Commentary to Fed. R. Civ. P. 59.
Remittitur may be granted under Fed. R. Civ. P. 59, to “the maximum amount sustainable by the
evidence.” Funai, 593 F. Supp. 2d at 1093; see also D&S Red-Mix v. Sierra Redi-Mix & Contracting Co.,
692 F.2d 1245, 1249 (9th Cir. 1982) (courts “consistently approve remitting the judgment to the maximum
amount sustainable by the proof”). In determining the maximum amount that may reasonably be
sustained, courts focus on the evidence presented, and in some circumstances may consider damage
awards in similar cases. See Trainor v. HEI Hosp., LLC, 699 F.3d 19, 33 (1st Cir. 2012).
2.

Application
a)

Whether Office Star Had Notice of Herman Miller’s Trademark

As noted, Herman Miller is the owner of the ’591 Registration, which refers to the frame of the EAMES
chair. The Lanham Act provides:
[A] registrant of a mark registered in the Patent and Trademark Office, may give notice
that his mark is registered by displaying with the mark the words “Registered in U.S.
Patent and Trademark Office” or “Reg. U.S. Pat. & Tm. Off.” or the letter R enclosed within
a circle, thus ®; and in any suit for infringement under this chapter by such a registrant
failing to give such notice of registration, no profits and no damages shall be recovered
under the provisions of this chapter unless the defendant had actual notice of the
registration.
15 U.S.C. § 1111.
Office Star argues that there is insufficient evidence as a matter of law to establish that it had actual or
constructive notice of the ’591 Registration prior to December 13, 2013. On this basis it argues that
Herman Miller cannot recover damages for any alleged infringement on the registered trade dress that
occurred prior to that time. The verdict form did not include specific findings on whether, and if so when,
Office Star had notice of the ’591 Registration. See Dkt. 344.
Herman Miller argues that there was statutory notice to Office Star because a hangtag on the EAMES
chairs included the ® symbol as a superscript after the mark EAMES, i.e., “EAMES®.” See Ex. 764, Dkt.
377-10 at 2 (copy of tag). The hangtag includes a notice of copyright registration, and states in small text
that “Herman Miller and EAMES are among the registered trademarks of Herman Miller, Inc.” Id. at 5.
Herman Miller argues that this provided notice of the registered trademark to the frame of the EAMES
chair.
Office Star responds that the hangtag does not mention the ’591 Registration, or the configuration of the
chair or frame. Therefore, Office Star argues that it does not provide statutory notice of that
Registration. Instead, Office Star argues that this hangtag would reasonably have been understood to
state that the word “EAMES,” not the trade dress, was registered. Office Star does not provide any
Page 24 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 25 of 50 Page ID
#:13870
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

citations to legal authority in support of its argument that the registration or its contents must be identified
on the labeling to provide notice.
Herman Miller’s hangtag was consistent with the notice requirements of the Lanham Act. Further, as
discussed above, evidence was presented at trial that could support the finding that Office Star had
notice of the trademark. This included internal emails in which Office Star officials expressed concerns
about potential infringement of Herman Miller’s rights, and communications from Office Star customers
who declined to purchase and resell the Accused Chairs due to their concerns of infringement of Herman
Miller’s rights. The finding that Office Star was willful in its infringement of the registered trade dress also
supports the conclusion that Office Star was aware of the ’591 Registration. Finally, notice could have
been inferred, in part, due to the adverse inference instruction.
For the foregoing reasons, the absence of notice argument is not a basis to reduce or set aside the
awards of damages.
b)

Whether the Amount of Compensatory Damages Was Supported by
Sufficient Evidence

The jury was instructed that “[d]amages are the amount of money that will reasonably and fairly
compensate Herman Miller for any injury that you find was caused by a defendant’s alleged infringement
of Herman Miller’s trade dress” and that “the burden is on Herman Miller to show any damages to a
reasonable certainty, and awarded damages may not be speculative.” Dkt. 338 at 37 (JI 33).
Herman Miller’s request for damages was based on a claim of lost sales. Therefore, it sought to recover
the amount of Office Star’s profits from sale of the Accused Chairs. With respect to this issue, the jury was
instructed as follows:
Herman Miller seeks this recovery on the basis that Office Star’s profits may serve as an
approximate measure of the sales Herman Miller would have made of its own chairs, but
for the actions of Office Star. In evaluating whether or not you should conclude that
Defendants’ profits may be used as an approximation of Herman Miller’s losses, you
should consider such factors as whether Herman Miller has proven that there is actual
confusion in the marketplace, whether Defendants sold their products in the same
channels as Herman Miller or to the same customers, differences in the products, whether
Defendants competed for sales with Herman Miller and whether the parties advertised
their products to the same target customers. If you determine that Herman Miller is entitled
to an award of Defendants’ profits, you should determine how much of Office Star’s profits
you believe should be fairly allocated to Herman Miller as an approximation of Herman
Miller’s lost sales.
Dkt. 338 at 38 (JI 33A).
Office Star refers to Bond’s testimony about lost sales. It included her statement that she was unaware of
any specific instances in which Herman Miller lost a sale of an EAMES chair due to the conduct of Office
Star. Dkt. 355 at 100. Office Star also repeats its argument, which was addressed and rejected above,
that no evidence was presented by Herman Miller that showed confusion by buyers for large institutions,
Page 25 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 26 of 50 Page ID
#:13871
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

including government entities and large businesses. However, even assuming that there is force to this
position, substantial evidence was provided by which the jury could reasonably have found that
consumers were confused by Office Star’s infringing products, and that this caused a loss of sales by
Herman Miller.
In light of this evidence, Office Star has not shown that it was unreasonable for the jury to find that Office
Star’s profits were an appropriate proxy for the amount of lost sales. See, e.g., Spin Master, Ltd. v.
Zobmondo Entm't, LLC, 944 F. Supp. 2d 830, 838 (C.D. Cal. 2012) (“Plaintiffs do not need to prove a
precise unit-for-unit comparison of sales because the proxy measure is only a ‘rough’ estimate of
damages.”).
c)

Whether there was Sufficient Evidence to Support the Award of Dilution
Damages

Office Star argues that the award of damages for dilution is unsupported by sufficient evidence, and
requests that this award be vacated, or remitted. Dkt. 376-1 at 15. With respect to dilution, the jury was
instructed that “[d]amages means the amount of money that will reasonably and fairly compensate
Herman Miller for any dilution of its trade dress(es) that was caused by Office Star’s willful conduct.” Dkt.
338 at 40 (JI 33B). The jury was then instructed that, in evaluating this issue, it could to consider
1. The injury to Herman Miller’s reputation.
2. The injury to Herman Miller’s good will including its general business reputation.
3. The consequences of such injuries to Herman Miller’s sales. You may not, however,
include in any award of damages for dilution, any amount of damages that you already
awarded as damages for trade dress infringement.
Id.
Office Star argues that the jury award of $5.1 million for dilution damages, which exceeded the amount of
Office Star’s profits from the sale of the accused chairs, was not supported by the evidence. Testimony
was presented about Herman Miller’s annual expenditures for marketing the EAMES chair. These are
summarized in Ex. 1331 (Dkt. 384-46).8 Herman Miller suggests that the jury could have calculated the
$5.1 million award by totaling the marketing expenses for the years of infringement, and then adding an
estimate of such spending for the first nine months of 2016, to correspond to October 6, 2016, when the
verdict was reached. Office Star replies that there was no showing that any or all of these expenses were
incurred as part of an effort to address customer confusion or reputational harm caused by Office Star.
Herman Miller did not present direct evidence as to injury to its reputation or goodwill. There was no
evidence about the need to incur the costs of either corrective advertising or other steps to address
confusion among those who were active in the market for the EAMES chairs. Dkt. 376-1 at 14-15. Office
8

Herman Miller’s Opposition includes an excerpt of Ex. 1331, which also adds a proposed estimate of marketing
expenses in 2016 that were not in the trial exhibit. Dkt. 384 at 50. Therefore, this new information is not considered
in connection with the review of Exhibit 1331.
Page 26 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 27 of 50 Page ID
#:13872
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

Star adds that Herman Miller’s records showed a growth in sales of the EAMES chair after the
introduction of the Accused Chairs. See Ex. 1340, Dkt. 384-47 (chart of annual sales). Office Star also
argues that the amount of the award reflects that the jury improperly sought to punish Office Star, rather
than compensate Herman Miller.
Herman Miller argues that the award was within the reasonable range of what a jury could find as
damages. In support of this position, it cites Skydive Arizona, Inc. v. Quattrocchi, 673 F.3d 1105 (9th Cir.
2012). Skydive Arizona adopted a standard that allowed wide latitude to a jury in determining the amount
of damages caused by dilution.
Skydive Arizona involved a skydive center that brought claims of trademark infringement and false
designation of origin against an entity called “SKYRIDE,” which was an “advertising and booking service
for skydiving centers.” Id. at 1109. SKYRIDE did not own skydiving facilities in Arizona, but instead sold
certificates on its website and by phone and correspondence that could be redeemed at such facilities. Id.
Upon the redemption of one of these certificates, SKYRIDE promised to make payment to the skydiving
facility that had been selected by the person who had purchased the certificate from SKYRIDE. Id.
SKYRIDE had several websites that referred to skydiving in Arizona. Id. They included,
“arizonaskydive.com” and “skydivingarizona.com.” Id. The plaintiff did not advertise on any SKYRIDE
website, and did not agree to accept certificates issued by SKYRIDE. Id. As a result, when consumers
who had purchased a certificate from SKYRIDE presented it as the form of payment for Skydive Arizona,
it was not accepted. Id. This caused consumer dissatisfaction with Skydive Arizona. Based on these
facts, Skydive Arizona argued that SKYRIDE’s advertising had misled customers into believing that it
owned skydiving facilities, and had “sold skydiving certificates by trading upon Skydive Arizona's goodwill
and misleading customers into believing that Skydive Arizona would accept SKYRIDE certificates.” Id.
Skydive Arizona also presented evidence establishing that it had a very positive and strong reputation
among those in Arizona who participated in its market. Id. at 1112. On the basis of this evidence,
SKYRIDE was found to have infringed the Skydive Arizona trademark and engaged in false advertising.
At trial, damages were awarded, including for harm to the goodwill of Skydive Arizona.
On appeal, SKYRIDE challenged the award of damages for harm to goodwill because Skydive Arizona
“did not provide a specific mathematical formula for the jury to use in calculating actual harm to . . .
goodwill.” Id. Absent such a formula, it argued that actual damages could not be measured. Id. The Ninth
Circuit disagreed. It held that “[u]pon proving causation, the plaintiff's evidentiary burden relaxes
considerably. To support a jury’s actual damages award, there need only be substantial evidence to
permit the jury to draw reasonable inferences and make a fair and reasonable assessment.” Id. It also
concluded that “section 1117 confers a wide scope of discretion upon the district judge in fashioning a
remedy. Section 1117 demands neither empirical quantification nor expert testimony to support a
monetary award of actual damages; many sources can provide the requisite information upon which a
reasonable jury may calculate damages.” Id. (internal citations and quotation marks omitted). Finally, the
opinion noted that the amount of damages was not untethered from the evidence because plaintiff had
provided “its advertising expenditures for a period of ten years (from 1997 to 2007), expenditures it made
to build up the goodwill and reputation of its mark over a significant period of time.” Id.
Skydive Arizona does not stand for the proposition that any jury award of damages as to dilution of a
trademark or trade dress must be accepted if it is based on associated marketing costs. Moreover, the
evidence presented in Skydive Arizona was more substantial than what was presented here. There, the
Page 27 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 28 of 50 Page ID
#:13873
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

evidence included “multiple declarations and witness testimony proving that customers were very angry
with, and blamed Skydive Arizona for, problems caused by SKYRIDE. This testimony came from a
variety of witnesses located as far away as North Dakota, thereby demonstrating the geographic reach of
the harm caused by SKYRIDE.” Id. at 1112-13. Herman Miller did not introduce any similar evidence.
There was little direct evidence about the harm caused by the dilution of its trade dresses, or damage to
its reputation. For example, there was no expert testimony as to the effect of Office Star’s infringement on
the value of the protected trade dresses, or testimony or other evidence showing the diminution of their
fame or any associated good will. Nor was evidence presented about consumers who were dissatisfied
with Office Star products that they had thought were associated with Herman Miller. Nor was there survey
or testimonial evidence that they faulted Herman Miller for any such deficiencies. In short, the parallels
with Skydive Arizona are limited.
Although marketing costs are properly considered in assessing the value of a trade dress, they are
neither a per se measure of dilution caused by infringement nor a proxy for that amount. In this regard, it
is significant that the amount awarded by the jury in dilution damages was the same as the amount that
Herman Miller claimed to have spent on marketing the chairs at issue over the period of the infringement.
Although the evidence presented by Herman Miller as to its claim for dilution damages supports a
financial remedy, it was not sufficient to justify the $5.1 million award. It is substantially greater than the
amount of Herman Miller’s lost sales revenues that were found to have resulted from Office Star’s
infringement. Having carefully considered the totality of the evidence presented at trial, including
consumer confusion, marketing costs, the fame of the EAMES chair trade dress, an appropriate award of
dilution damages is $3 million. Therefore, the present award of $5.1 million is remitted by $2.1 million.
Herman Miller may elect to accept this amount, or seek a new trial as to damages.
*

*

*

For the foregoing reasons, Office Star’s Motion for Judgment as a Matter of Law on the Basis of Damages
is GRANTED IN PART, i.e., as to the amount of dilution damages.
IV.

Herman Miller’s Motion for JMOL on Validity and for New Trial on Infringement (Dkt. 380)
A.

Introduction

Herman Miller claims both registered and unregistered trade dress rights in the AERON chair. As to
registered trade dress, Herman Miller holds United States Trademark Registration No. 2,754,826. Ex.
1306, Dkt. 380-42 (AERON Registration). Herman Miller also asserts unregistered trade dress rights in
the overall appearance of the AERON chair. There are two versions, which vary in the form of their
lumbar support. Images of versions of the AERON chair, which Herman Miller asserted reflected the
unregistered trade dress rights, were provided to the jury. See Ex. 1314, Dkt. 380-43. Examples of the
asserted registered and unregistered trade dresses are as follows:

Page 28 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 29 of 50 Page ID
#:13874
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

Dkt. 380 at 9.
The jury found that the AERON registered and unregistered trade dresses were as to functional features,
and lacked secondary meaning. See Dkt. 344. On these bases, the jury found that the trade dress for the
AERON chairs was invalid, and that it was unnecessary to determine whether any infringement had
occurred.
Herman Miller has filed a motion seeking judgment as a matter of law on the basis of trade dress validity,
and a new trial on infringement. Dkt. 380. Herman Miller argues that, in light of the evidence presented a
trial, a reasonable jury could not have found the absence of secondary meaning. As to functionality,
Herman Miller contends that the jury instruction on this issue was in error because it set an incorrect
standard for determining functionality. Herman Miller also argues that, in light of the evidence presented a
trial, a reasonable jury could not have found that the AERON trade dress was invalid. Herman Miller
argues that the evidence presented by Office Star concerned only the functionality of the component
parts of the AERON. The correct standard for this issue required that the AERON be viewed as a whole.
In contrast, Herman Miller argues that it presented substantial evidence showing that the overall
appearance of the AERON was non-functional.
B.

Evidence Presented Regarding AERON Chair
1.

Testimony Regarding Herman Miller Practices and Products

The jury was presented with the AERON trade dress registration from the U.S. Trademark Office (Ex.
1306, Dkt. 380-42) and the file history for Herman Miller’s application to the Trademark Office. Ex. 652,
Dkt. 380-18, 380-19, 380-20. The file history shows that the Trademark Office initially found the AERON
application deficient due to a lack of showing of secondary meaning and functionality. See Ex 652 at
8-30. In response to this position, Herman Miller submitted evidence to the Trademark Office, including
Page 29 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 30 of 50 Page ID
#:13875
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

hundreds of affidavits from those working within the furniture industry (Ex. 652 at 291-558), sales and
marketing statistics (id. at 11-21) and advertising and awards (id. at 31-40 and referenced exhibits). On
the basis of these supplemental materials, the Trademark Office granted the registration. The jury was
informed that the grant of registration from the Trademark Office meant that the Registered Trade Dress
was immune from attack as to lack of secondary meaning, and that Office Star had the burden to prove
that the AERON design was functional.
Patrick Hogan (“Hogan”) who is Herman Miller’s Director of Global Finance, testified as to the
expenditure of funds on the sales and marketing of the AERON chair. 9/28 AM Tr., Dkt. 364 at 11-20.
Charts were also presented in support of this testimony. See Ex. 1330, Dkt. 380-44; Ex. 1331, Dkt.
380-45; Ex. 1338, Dkt. 380-48; Ex. 1339, Dkt. 380-49. This evidence showed that 6.5 million units of the
AERON chair were sold in the United States from 1994-2015. Of those units, 4.4 million used the design
shown in the trademark Registration, and another 1 million used that design, but with a differently-shaped
“Posture Fit” lumbar support. Another 1.14 million were the same design as the Registration, but without
any lumbar support. Herman Miller’s estimated that from 2004-2015, it expended $55 million on the
marketing of the AERON Chair.
Berry, the furniture historian who was identified above, testified about the significance of the AERON
chair. 9/22 PM Tr., Dkt. 354 at 38-48. This testimony was based on Berry’s knowledge of the industry,
and his personal familiarity with the chair and its designers. Berry testified that they set out to design a
chair with a unique appearance, and that their work involved a lengthy design process. He also opined
that the AERON chair “is one of the best selling, and . . . most recognizable pieces of furniture today.” Id.
at 71. Berry also testified about his role in the process through which the Metropolitan Museum of Art
selected the AERON chair to be included in its permanent collection. Id. 69-70.
Hieftje, Herman Miller’s designer and Senior Program Director, testified that he had been employed there
for 39 years, and was involved in the development and launch of the AERON chair. 9/27 AM Tr., Dkt. 363
at 37-38, 57-59. He explained that the overall shape of the chair was not based solely on functional
considerations. Id. at 19. Thus, there were many ways to design a chair with the same functional
attributes, but with different shapes. Id. at 64-70. He also explained that the design of the shaped
backrest was not driven by any functional criteria. Id. at 64-65. He also testified that the AERON is “one of
the top selling chairs ever.” Id. at 66.
During cross-examination, Office Star asked Hieftje about the functional purposes of the isolated
components of the AERON. Hieftje stated that other designs could provide the same functionality, and
that the overall combination of those design elements served a purely aesthetic purpose. See. id. at 69
(“It doesn’t have to look like this to perform the function you referenced.”). Heiftje generally testified that
“[a]ll of those elements coming together are what make the look of the AERON chair an AERON chair.”
Id. at 75-76.
Kimberly Shaw (“Shaw”), Herman Miller’s Marketing Lead, testified as to marketing and public awareness
of the AERON. 9/28 AM Tr., Dkt. 364 at 21. Based on her experience while working for Herman Miller and
other furniture companies, she stated that “there is no other chair in the market that has come close
globally” to selling as many units as the AERON chair. Id. at 33. She explained that the AERON chair is
sold to end users in every demographic, and is well known. Id. She also testified that marketing materials
for the AERON emphasize its aesthetic qualities, as well as the consistency of the appearance of various
Page 30 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 31 of 50 Page ID
#:13876
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

models of the AERON. Id. at 38-45; see also Ex. 679-2, Dkt. 380-21 at 3 (advertising material quoting the
designer of the AERON “[i]t was a matter of deliberate design to create a ‘new signature shape.’ . . . We
designed the chair to be above all, biomorphic, . . . as a metaphor of human form”). Shaw also testified
that the AERON chair has won many awards and has been placed into the permanent collections of 11
national art museums. Dkt. 364 at 46; see also, e.g., Ex. 956, Dkt. 380-30 (article profiling AERON chair
as an example of design); Ex. 974, Dkt. 380-31 (award to AERON designers for “Design of the
Decade”). She also testified that the AERON chair has been featured in many television programs, films
and other media. Dkt. 364 at 53-57. In one instance, the AERON chair received an iconic status when
during an episode of “The Simpsons” God was seated on an AERON chair. Ex. 1002, Dkt. 380-35. The
AERON chair was also prominent in other examples presented to the jury. See Ex. 983, Dkt. 380-32; Ex.
1001, Dkt. 380-34; Ex. 1336, Dkt. 380-47. The AERON chair has many followers on social media. Dkt.
364 at 57-59.
On cross-examination, Shaw was asked whether she had conducted any study or survey to confirm the
popularity of the AERON chair among the general public. Id. at 85-87. Shaw stated that she had not, and
that such a survey was unnecessary given the chair’s public visibility and status. Id. Shaw also testified
that there were many other designs for an office chair that might have the same functions as the AERON
chair. Id. at 97-98.
Anders, an industrial design expert, testified about certain utility patents that had been obtained as to
certain features of the AERON. These included the tilting mechanism and lumbar support. 9/30 AM Tr.,
Dkt. 366 at 26-30. Anders testified that these individual functional elements were unrelated to the overall
appearance of the chair. Id. at 51. Anders also testified regarding Ex. 1266.2, an excerpt from his expert
report that featured an assortment of office chairs with the same or similar functional characteristics of the
AERON, but with different aesthetic shapes. Id. at 53-54. Anders identified four prominent features that
are integral to the appearance of the AERON: (i) the large “bulbous” shape of the back; (ii) the overall
saddle shape of the seat pan; (iii) the floating armrests; and (iv) the particular shapes of the lumbar
supports. Id. at 48-49. He testified that there was no functional reason for any of these shapes. Id. at
54-58. He provided similar testimony as to the overall appearance of the AERON chair. Id. at 57.
On cross-examination, Anders was asked whether various components of the AERON had functional
purposes. Id. at 64-66, 70-81. Office Star also asked whether each of the chairs in Exhibit 1266.2 had all
of the same functional attributes as the AERON. Anders responded that any of the identified chairs could
be engineered to have all of those functional capabilities without changing their individual appearances.
Id. at 68.
2.

Testimony Regarding Office Star Practices and Products

Blumenthal testified about the AERON chair, stating that “[w]e recognize that it’s been a very successful
chair. . . . It’s very possible that it could be the most identifiable product -- chair in the market.” 9/28 PM
Tr., Dkt. 356 at 16-17. Rueda stated that “[y]es, [AERON] is a popular chair.” 9/29 AM Tr., Dkt. 365 at 23.
Office Star’s seating designer, Egger, testified that AERON is “very popular,” and stated that he had
personally owned one for ten years. Dkt. 366 at 23.
Office Star’s internal memoranda described the AERON as “[i]conic design, most identifiable chair in the
market.” Ex. 1343, Dkt. 380-50 at 5. Other Officer Star documents stated that its customers were
Page 31 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 32 of 50 Page ID
#:13877
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

demanding “Aeron style” chairs. Ex. 1173, Dkt. 380-37 at 3. Office Star employees referred to proposed
chair design as an “Aeron knock off.” Ex. 29, Dkt. 380-13 at 2. An email from a distributor to Office Star
stated that “[r]ight now if someone is sitting in an office chair, they are either sitting in a Herman Miller
Aeron chair or an Eames Chair . . . .” Ex. 1210, Dkt. 380-39 at 3. In another document, which was deemed
an internal business strategy “manifesto,” Office Star’s President of Sales, Josh Blumenthal, wrote that
“[p]eople know Herman Miller, the AERON Chair . . . etc., because it’s a multi-billion-dollar company that
spends thousand[s] on marketing. Every prime time television show showcases their most well-known
product . . . .” 9/29/16 AM Tr., Dkt. 365 at 63.
3.

Adverse Inference Instruction

As stated above, an adverse inference instruction was read to the jury. It also applied to the issues
presented for deliberations as to the AERON chair.
C.

Analysis
1.

Whether the Unregistered Trade Dress Had Secondary Meaning

The standard for determining whether a trade dress has secondary meaning is stated above. In sum, to
show secondary meaning as to the AERON chair, it was not necessary to find that the general public
associated it with Herman Miller, but that prospective consumers would recognize the AERON chair as
associated with a single source. Once again, the jury was instructed to consider the Sleekcraft factors: (i)
consumer perception; (ii) advertisement; (iii) demonstrated sale success; (iv) extent of use; (v)
exclusivity; (vi) copying and (vii) actual confusion. Dkt. 338 at 28 (JI 26). Secondary meaning was only
contested as to Herman Miller’s unregistered trade dress. On this issue, Herman Miller had the burden of
proof.
Herman Miller argues that whether there is secondary meaning as to the unregistered trade dress is easy
to resolve, because “the unregistered trade dress looks just like the incontestable Registered Trade
Dress.” Dkt. 380 at 19. Herman Miller explains that three versions of AERON were sold:
1. Task chair with Adjustable Lumbar (football-shaped) – 4 .4 Million units
2. Task chair with PostureFit Lumbar (Y-shaped) – 1 Million units
3. Task chair with no lumbar – 1.1 Million units.
See Ex. 1314, Dkt. 380-43 (showing variations of design); Ex. 1330, Dkt. 380-44 (showing sales figures);
Ex. 1339, Dkt. 380-49 (showing sales figures according to type of lumbar support).
Photographs show that the unregistered trade dress is very similar to the Registered Trade Dress, with
different forms of lumbar support. Ex. 1314, excerpted above. Given these substantial similarities,
Herman Miller argues that no reasonable jury could have concluded that the unregistered trade dress
lacked secondary meaning.
Herman Miller also argues that it presented overwhelming and uncontested evidence of secondary
meaning. This evidence, which is described above, includes undisputed testimony concerning the
magnitude of sales, the fame of the AERON chair, marketing expenditures and awards and other
Page 32 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 33 of 50 Page ID
#:13878
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

recognition that was received. Herman Miller also presented unrebutted evidence that Office Star
intentionally copied the AERON chair. This evidence is relevant to the existence of secondary meaning.
See Fuddruckers, 826 F.2d at 844 (“Our cases recognize that evidence of deliberate copying is relevant
to a determination of secondary meaning.”).
Office Star did not supply affirmative evidence responding to that presented by Herman Miller. Nor did
Office Star present any expert witnesses. On this basis, Herman Miller filed a motion in limine to exclude
any proffered evidence of other chairs in the market with appearances similar to the AERON to challenge
its distinctiveness. The motion was granted. See Dkt. 273 at 2 (ruling on Herman Miller’s Motions in
Limine).
Herman Miller argues that “[w]here a litigant presents an overwhelming quantity of evidence, and its
opponent effectively concedes the point with no contrary evidence – and indeed testifies in favor of the
litigant’s premise – a jury cannot have any reasonable basis to return a verdict against the litigant on that
issue, especially where the burden of proof is simply a preponderance of the evidence. Dkt. 380 at 21-22.
Office Star responds that the first hurtle that Herman Miller must clear concerns whether the jury correctly
found that the unregistered trade dress was nonfunctional. Office Star argues that “[Herman Miller’s]
burden was to show secondary meaning in a protectable, i.e., non-functional trade dress.” Dkt. 383 at 10.
Office Star argues that unless such a determination is made, the scope of the trade dress will be
undefined. Herman Miller argues that even if its motion is denied as to functionality or infringement,
addressing the question of secondary meaning will narrow the scope of any possible appeal.
Office Star has not cited any case that supports the view that functionality must be decided prior to
secondary meaning. The cases cited by Office Star hold that the validity of a given trade dress must be
determined prior to an inquiry into infringement. See Apple Inc. v. Samsung Elecs. Co., 786 F.3d 983,
991 (Fed. Cir. 2015), rev'd on other grounds, 137 S. Ct. 429 (2016) (“it is necessary for us to determine
first whether Apple’s asserted trade dresses, claiming elements from its iPhone product, are
nonfunctional and therefore protectable”); Indonesian Imps., Inc. v. Old Navy, Inc., 1999 WL 179680, at
*3 (N.D. Cal. Mar. 30, 1999) (“Without a clear statement of the claimed trade dress, the Court can neither
determine whether the claimed dress is valid nor appropriately tailor any necessary injunctive relief.”).
Because no compelling basis has been presented to mandate the consideration of functionality prior to
secondary meaning, the latter is addressed.
Office Star also argues that Herman Miller failed to present substantial evidence supporting a finding of
secondary meaning, and thereby did not meet its burden of proof. Dkt. 383 at 23. Office Star argues that
Herman Miller did not present “actual direct evidence showing that the public primarily signifies a
protectable Aeron trade dress as source identifying.” Id. Thus, Herman Miller did not conduct any surveys
or present any testimony showing that individual members of the public recognize the AERON as linked
to Herman Miller. Office Star’s argument is unpersuasive. Herman Miller submitted substantial and
unrebutted evidence establishing the widespread recognition and fame of the AERON chair. This
evidence is summarized above. Additional survey evidence was not required to support a finding of
secondary meaning.
In light of the overwhelming evidence presented supporting the presence of secondary meaning in the
AERON trade dress, and the absence of any contrary evidence, the jury could not reasonably have found
Page 33 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 34 of 50 Page ID
#:13879
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

that there was no secondary meaning as to the unregistered trade dress of the AERON chair. Therefore,
Herman Miller’s Motion for Judgment as a Matter of Law is GRANTED on this issue.

2.

Whether the Registered and Unregistered Trade Dresses Were Functional
a)

Burden of Proof for Functionality

The legal standard functionality is stated above. Because Herman Miller held a Trademark Registration in
the AERON chair design, Office Star had the burden to overcome a presumption of non-functionality. Dkt.
338 at 25 (JI 24). The jury was also instructed that Herman Miller had the burden to prove by a
preponderance of evidence that its unregistered trade dress was non-functional. Id. The jury found that
both the registered and unregistered AERON trade dresses were functional. Therefore, it concluded that
neither was protectable.
b)

Whether Jury Instruction 25 Was in Error

Jury Instruction 25 included the following paragraph:
A product feature is functional if it is essential to the product’s use or purpose, or if it affects
the product’s cost or quality. It is non-functional if its shape or form makes no contribution
to the product’s function or operation. If the feature is part of the actual benefit that
consumers wish to purchase when they buy the product, the feature is functional.
However, if the feature serves no purpose other than as an assurance that a particular
entity made, sponsored or endorsed the product, it is non-functional.
Dkt. 338 at 26.
The language to which Herman Miller objects is based on Model Ninth Circuit Jury Instruction 15.12.
Herman Miller argues that this instruction is unsupported by law, and conveys the erroneous concept that
if there is any functional aspect to a product, it is functional. Thus, it contends that such a construction
would mean that only something that is “essentially purely sculptural” can merit trade dress protection.
Dkt. 380 at 24. As stated in the prior Order on the Motion for Summary Judgment, “[t]he fact that
individual elements of the trade dress may be functional does not necessarily mean that the trade dress
as a whole is functional; rather, functional elements that are separately unprotectable can be protected
together as part of a trade dress.” Clicks Billiards, 251 F.3d at 1259 (emphasis and internal quotation
marks omitted).
Herman Miller also argues that the jury instruction erred by failing to distinguish sufficiently the difference
between de facto and de jure functionality. As stated in the Summary Judgment Order:
“[D]e facto functional means that the design of a product has a function, i.e., a bottle of any
design holds fluid. De jure functionality, on the other hand, means that the product is in its
particular shape because it works better in this shape . . . . [B]efore an overall product
configuration can be recognized as a trademark, the entire design must be arbitrary or non
de jure functional.” Leatherman Tool Grp., Inc. v. Cooper Indus., Inc., 199 F.3d 1009, 1012
Page 34 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 35 of 50 Page ID
#:13880
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.
(9th Cir. 1999) (emphasis, ellipses and alteration in original).

Dkt. 192 at 16-17.
Under this analysis, finding that each component of the AERON chair is “functional” would not be
sufficient to show that the AERON chair as a whole was functional. Similarly if there were a variety of
possible variations of the overall shape of the AERON chair that might have had the same functionality,
this would be strong evidence that the shape was not functional.
The law governing functionality, which is stated in Clicks Billiards, does not conflict with the language of
Jury Instruction 25. Furthermore, the instruction as a whole clarified this precise issue. Thus, the
paragraph quoted above was followed by a statement advising that “[t]o determine whether a product’s
particular shape or form is functional, you should consider whether the design as a whole is functional,
that is whether the whole collection of elements making up the design or form are essential to the
product’s use or purpose.” Dkt. 338 at 26. Jury Instruction 25 also identified factors to be considered, and
consistently referred to “the Design,” rather than its component parts. Jury Instruction 25 also stated and
explained the Disc Golf factors. This provided further clarification as to the appropriate factors that are
relevant in determining de jure functionality.
Herman Miller also objects to the second sentence of Instruction 25, i.e., “shape or form makes no
contribution to the product’s function or operation.” It argues that this language is unsupported by case
law. It further objects to the following two sentences as relating to “older, inapplicable, and largely
discredited line of cases concerning the doctrine of aesthetic functionality.” Dkt. 380 at 26. These cases
involve arguments in which the aesthetic look of an object performs a function. For example, pills that
have a certain color in order to distinguish them from other pills. See Au-Tomotive Gold, Inc. v.
Volkswagen of Am., Inc., 457 F.3d 1062, 1068, 1070 n.6 (9th Cir. 2006) (explaining standard and citing
examples). Herman Miller contends that cases concerning aesthetic functionality do not apply here, as
Office Star did not attempt to demonstrate aesthetic functionality.
A review of the portions of Jury Instruction 25 that are at issue, confirms that they are consistent with
Ninth Circuit authority. See, e.g., Disc Golf, 158 F.3d at 1007 (“A product feature need only have some
utilitarian advantage to be considered functional”). The language in Instruction 25 appropriately defined
“functionality.” It was not necessary that further language be included to provide a distinction aesthetic
and utilitarian functionality. Indeed, to have done so could well have led to confusion, without any
meaningful offsetting benefit. This is confirmed by the language in Instruction 25 that identified the
utilitarian factors relevant to a finding of functionality.
For these reasons, the objections to Jury Instruction 25 do not provide a basis for the requested relief.
c)

Whether the Finding of Functionality Had Adequate Support
(1)

Background

Herman Miller next argues that the jury lacked a reasonable basis for its finding that the AERON trade
dress was functional. Herman Miller argues that the totality of the evidence presented by Office Star
concerning functionality was irrelevant to the governing legal standards. Thus, this evidence did not
Page 35 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 36 of 50 Page ID
#:13881
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

address the overall shape of the AERON, or whether that shape unfairly monopolized a set of functional
advantages.
As noted above, substantial evidence was presented by Herman Miller concerning the aesthetic,
non-functional purpose of the AERON chair. Herman Miller reiterates that the unregistered trade dress
overlaps in appearance with the registered trade dress, and in some instances the two are nearly
identical. Herman Miller argues that the presumption of non-functionality that applied to the registered
trade dress gives significant weight to the argument that the unregistered trade dress is likewise
non-functional. Office Star argues that relevant evidence was presented as to each of the four Disc Golf
factors.
(2)
Utilitarian Advantage
Office Star presented evidence that witnesses for Herman Miller made statements that the combination
of elements that made up the AERON chair were relevant to its unique functional appeal. Hieftje testified
regarding the “ergonomic chair research” that went in to making the AERON chair comfortable. Dkt. 363
at 76. Similarly, Berry testified that it is “the totality of the design” that makes the AERON chair very
comfortable, rather than any individual element. Id. at 16 (referencing “many elements” that make up the
design and contribute to comfort).
Other testimony supported the finding that various elements important to the visual appearance of the
AERON chair were adopted for structural reasons. Thus, Hieftje testified that the up-turned edges of the
seat are used to connect it to a bracket that is attached to the tilt mechanism. Id. at 68. Other testimony
addressed how the frame of the seat supports the mesh. Id. Hieftje testified that “[t]here are elements of
the back rest that are providing support, which does drive its shape.” Id. at 79. Other evidence supported
a finding that the backrest was designed to provide support for a wide range of body types of those using
the chair, and to allow a “wide distribution of pressure.” See Ex. 509, Dkt. 383-3 (utility patent for AERON
chair tilt control mechanism, identifying functional purposes for numerous aspects of chair); Ex. 552, Dkt.
383-7 at 6-13 (AERON Essentials” brochure, explaining features and benefits of the AERON, as well as
“unique aesthetics”); Ex. 652, Dkt. 383-10 at 7 (advertising pressure distribution of the AERON, and
featuring diagram of seat, back, and armrests); Id. at 4 (explaining the importance of designing a backrest
that allows a wide distribution of pressure).
Advertising by Herman Miller also emphasized the comfort and ergonomic advantages offered by the
AERON chair. For example, a brochure entitled “The Essentials: Aeron Chair,” states that “[t]he Aeron
chair was designed to provide a higher degree of initial and long term comfort.” Ex. 552, Dkt. 380-17 at 2.
It also states that “[s]mooth visual flow and curvature of the frame reflect natural, synchronized
movements that intuitively conform to user movements.” Id. at 4. See also Ex. 620, Dkt. 383-8 (stating
that pivot mechanism in chair improves its comfort).
Office Star also introduced a series of utility patents relating to various discrete components of the
AERON chair, including the tilting mechanism. Herman Miller contends that these utility patents are
irrelevant to functionality, because the patents did not claim any particular overall aesthetic shape.
Rather, they claim mechanical concepts for isolated elements. Functionality concerns only the overall
visual appearance of an object, not its elements viewed individually.
Herman Miller contends, once again, that the evidence presented by Office Star was an attempt to
Page 36 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 37 of 50 Page ID
#:13882
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

dissect the trade dress into isolated components, rather than address the overall appearance of the
AERON chair. As Office Star’s counsel stated: “So we have to actually -- we do have to dissect this chair.
I mean, this chair is all about functionality.” 9/22 PM Tr., Dkt. 354 at 24. Many of the individual functional
elements of the AERON chair addressed by Office Star were not claimed by Herman Miller as important
or identifying features of the overall trade dress. See 9/27 AM Tr., Dkt. 363 at 63, (identifying dominant
aspects of the trade dress). These allegedly unimportant aspects of the trade dress include the mesh
upholstery, which Herman Miller argued was unimportant to the aesthetic appearance of the chair, and
the mechanical tilting mechanism. Id. at 74; see also 9/30 PM Tr., Dkt. 358 at 7-8 (stating mesh was not
distinctive); 9/30 AM Tr., Dkt. 366 at 76 (tilting mechanism not distinctive). Herman Miller contends that
this evidence concerning individual components of the AERON chair in isolation was irrelevant, and could
not reasonably have formed a basis for the Jury’s verdict that the design of the chair as a whole was
functional.
Notwithstanding the position advanced by Herman Miller, the attributes of the components are relevant to
assessing the functionality of the AERON design as a whole. Office Star presented evidence pertaining to
virtually every element of the AERON trade dress. The jury could reasonably have relied on this evidence
in determining that the combination of these elements served a unique functional purpose, which could
not otherwise be provided. See Tie Tech, Inc. v. Kinedyne Corp., 296 F.3d 778, 786 (9th Cir. 2002)
(“[w]here the plaintiff only offers evidence that the whole is nothing other than the assemblage of
functional parts . . . it is semantic trickery to say that there is still some sort of separate overall appearance
which is non-functional” (internal quotation marks omitted)).
(3)

Advertising

Herman Miller presented substantial evidence of advertisements highlighting the aesthetic qualities of the
AERON. It is discussed above. However, Office Star presented advertisements and brochures that
addressed the comfort and ergonomic benefits of the AERON chair. They included some that discussed
the AERON chair as a whole. See, e.g., Exs. 521, 524, 525, 552, 620, 629, 652 at 70-92, 682, 683. This
evidence supports the jury’s finding that the design of the chair was functional. See Apple, 786 F.3d at
993 (“If a seller advertises the utilitarian advantages of a particular feature, this constitutes strong
evidence of functionality.”).
(4)

Availability of Alternative Designs

The purpose of this analysis is to ensure that one entity is not given the exclusive right to a design when
“free competition would be unduly hindered by according the design trademark protection.” Two Pesos,
Inc. v. Taco Cabana, Inc., 505 U.S. 763, 775 (1992). Thus, Apple found that a design for a smartphone
device -- a rectangular display screen with rounded corners -- was functional. 786 F.3d at 993. The
Federal Circuit explained that “[a] manufacturer does not have rights under trade dress law to compel its
competitors to resort to alternative designs which have a different set of advantages and disadvantages.”
Id. (internal quotation marks omitted). It also stated that the failure of the plaintiff to present actual
samples of alternative designs with the same functional features weighed heavily in favor of a finding that
the design was functional. Similarly, in Leatherman, 199 F.3d 1009, the Ninth Circuit found that the
design of a pocket tool was not protectable, because there are only a limited number of ways that the
component tools could be assembled into a unit.
Page 37 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 38 of 50 Page ID
#:13883
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

Herman Miller presented witnesses, including Anders, who testified that alternative designs were
possible. Evidence that alternative designs of similar utility were available also included that the
designers of the AERON chair created numerous prototypes in the course of its design, many of which
had similar functionality. See Ex. 652, Dkt. 380-18 at 35-39 (affidavits of AERON chair designers).
Anders presented images of other task chairs that do not resemble the AERON chair. Furthermore,
Herman Miller argues that Apple and Leatherman do not apply, because unlike the products at issue in
those cases, the AERON chair constitutes a complex assembly of functional components that could be
presented in many variations.
A review of the relevant evidence shows that a jury could reasonably have found that the proposed
alternative designs did not offer the same utilitarian benefits that are provided by the AERON chair.
Specifically, many of the proposed designs did not feature mesh seating and backing, which contribute to
both the appearance and functionality of the AERON chair. Dkt. 383 at 21. Office Star argues that none of
the chairs presented had exactly the same functional features as the AERON, and that no alternative
chair was possible that did not closely follow its distinctive appearance. Testimony developed through the
cross-examination of Herman Miller witnesses also showed the functional attributes of the individual
components of the AERON, and the functional importance of their assembly as a completed product. The
existence of ERON prototypes does not change this analysis. See Apple, 786 F.3d at 992 (the plaintiff
“catalog[ed] the mere existence of other design possibilities embodied in rejected iPhone prototypes and
other manufacturers' smartphones” rather than identifying actual distinct products on the market).
For these reasons, the jury could reasonably have concluded that the availability of alternative designs
weighs in favor of a finding of functionality.
(5)
Whether Design Results from Comparatively Simple or Inexpensive
Method of Manufacture
Neither Office Star nor Herman Miller presented substantial evidence as to this factor. Therefore, it is not
considered in the analysis.
*

*

*

In light of the foregoing, sufficient evidence was presented at trial for the jury reasonably to conclude that
the registered and unregistered AERON trade dresses were functional, and therefore not subject to
protection. Therefore, Herman Miller’s Motion for Judgment as a Matter of Law is DENIED as to
functionality.
3.
Whether Office Star Improperly Relied on Documents and Testimony Not In
Evidence During Closing
Herman Miller argues that in closing argument Office Star’s counsel referred to two exhibits for which
there was insufficient support. On this basis, Herman Miller argues that that a new trial or judgment as a
matter of law should be granted.
Office Star’s closing argument included a reference to the testimony of Josh Blumenthal. 10/5 PM Tr.,
Dkt. 360 at 11-12. Counsel for Office Star stated: “Josh Blumenthal testified that, as a backrest of Office
Page 38 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 39 of 50 Page ID
#:13884
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

Star's chairs gets wider, the flex increases -- that would certainly apply to the Aeron chair -- and increased
flexion improves comfort.” Id. at 11. The argument also included a reference to Ex. 552 (Dkt. 383-7), a
Herman Miller brochure. Counsel for Office Star read from that brochure, which stated, inter alia, that “[a]ll
backrests on Aeron chairs are generously sized to accommodate a wide range of shoulder widths and to
help transfer weight from the seat to the back.” Dkt. 360 at 12. Upon reading this passage, counsel for
Office Star stated: “So the fact that the backrest is designed to accommodate multiple size people with
wider back and less wide backs, demonstrates that the wider top region of the Aeron chair is functional.”
Id.
Herman Miller notes that the testimony of Josh Blumenthal about the shape and flexibility of the back was
not admitted into evidence. He lacked expert knowledge regarding the design of the AERON chair. See
9/29 PM Tr., Dkt. 357 at 8-12. There was no supporting testimony at trial as to Ex. 552, although it was
admitted.
In closing argument Office Star’s counsel also referred to Ex. 507 (Dkt. 380-14, 380-15), a “product
specifications manual” related to the “Echo” chair – an earlier iteration of the AERON. This exhibit was not
admitted into evidence. Nonetheless, Office Star’s counsel stated, while reading from the exhibit:
“The arms for optimum adjustment and positioning throughout the tilt cycle in the same
trajectory of the backrest are cantilevered acutely from the chair frame. It is to be expected
that, while they must be stable whilst keyboarding, they can bend slightly under greater
pressure and need not be as rigid as those on [other chairs].”
...
“Echo's arms are unconventional and designed to support the arms while working on
keyboards. In this mode, the armrest must provide stable, wobble-free support. In
addition, the generous size of the armrests presupposes they will be used heavily to
support upper body weight.”
Dkt. 360 at 14-15. He then stated:
These are all functions of the armrest, pretty self-evident, but this is what Herman Miller's
own documents talk about. And it's a definition of functionality or non-functionality that
carries through to almost every issue that you are going to have to decide.
Id. at 15.
Herman Miller argues that these statements were unsupported, and were highly prejudicial and
misleading. In particular, it objects to the conclusion that the backrest had a functional purpose. Herman
Miller notes that Ex. 507, which was quoted, was excluded. It also argues that Ex. 552, which was quoted
in the closing argument, did not support the conclusion that the overall shape of the back rest was
functional, as it only states that the AERON backrests were “generously proportioned,” but did not further
state that these proportions were functional. Therefore, Herman Miller argues that this conclusion must
have been based on the excluded testimony of Josh Blumenthal, and the excluded Ex. 507. Furthermore,
Herman Miller notes that the final decision about admissibility of exhibits was made shortly before closing
Page 39 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 40 of 50 Page ID
#:13885
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

arguments. See 10/5 AM Transcript, Dkt 368. Therefore, it argues that it was unable to confirm
contemporaneously that Exhibit 507 was not in evidence, and could not raise an objection to its use.
Office Star argues that Herman Miller has not shown that plain error took place in allowing the challenged
statements. Office Star argues that there was substantial evidence at trial that supported the jury’s finding
of functionality. The Ninth Circuit has “held that where ‘offending remarks occurred principally during
opening statement and closing argument, rather than throughout the course of the trial,’ [it is] less inclined
to find the statements pervaded the trial and thus prejudiced the jury.” Settlegoode v. Portland Pub. Sch.,
371 F.3d 503, 518 (9th Cir. 2004) (quoting Kehr v. Smith Barney, Harris Upham & Co., 736 F.2d 1283,
1286 (9th Cir. 1984)).
Furthermore, Office Star argues that the statements cited were unlikely to prejudice the jury, because
they were substantially similar evidence that was admitted. Office Star notes that some testimony by Josh
Blumenthal regarding the features of the backrest was admitted at trial, on the basis of his knowledge of
the features of the Herman Miller and Office Star chairs. See Dkt. 357 at 13 (“[Y]ou apply pressure to the
lower lumbar region where it's narrower and you get one amount of resistance. You apply the same
amount of pressure to the upper portion and you get a different amount of resistance.”). Although there
was no testimony relating to Ex. 552, Office Star notes that the document was admitted into evidence,
and could properly been considered by the jury. Finally, with regard to Ex. 507, Office Star argues that the
contents of the document that counsel relied upon were in accord with statements admitted into
evidence, including the functional attributes of the backrest identified in Ex. 552.
An assessment of the foregoing, the failure of Herman Miller to make a timely objection as to to certain
matters, and substantial evidence supporting a finding of functionality, demonstrates that Herman Miller
has not shown that the closing argument of counsel for Office Star was sufficiently prejudicial or
misleading to warrant a new trial. Therefore, the request by Herman Miller for a new trial on this ground is
DENIED.

Page 40 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 41 of 50 Page ID
#:13886
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.
4.
Whether the Court has Subject Matter Jurisdiction to Invalidate the PostureFit
Version of the Trade Dress

There were two versions of the AERON Trade Dress at issue in this case: the Adjustable Lumbar version
(with oval-shaped lumbar) and the PostureFit version (with Y-shaped lumbar). See Ex.1314, Dkt. 384-43.
The PostureFit version is as follows:

Dkt. 380 at 35.
Herman Miller’s counsel, Jean-Paul Ciardullo (“Ciardullo”), declares that prior to trial, on September 18,
2016, Herman Miller withdrew all claims of infringement as to a series of previously-accused Office Star
chairs. They had Y-shaped lumbar supports, which bore a resemblance to the PostureFit version of the
AERON chair. Ciardullo Decl., Dkt. 380-1 ¶ 2. Furthermore, Herman Miller made clear that the PostureFit
was no longer in controversy. See 9/27 AM Tr., Dkt. 363 at 83 (Hieftje testifying that it is his
understanding that the PostureFit version is “no longer part of the case”); see also 9/28 AM Tr., Dkt. 364
at 87-88 (discussing withdrawal of infringement claims as to certain chairs).
Herman Miller argues that the only version of the AERON trade dress asserted at trial was the Adjustable
Lumbar version. Herman Miller argues that the PostureFit version of the AERON chair is not subject to
invalidation, as there is no subject matter jurisdiction to enter judgment on a matter not in controversy.
See Alcon Research Ltd. v. Barr Labs. Inc., 745 F.3d 1180, 1193 (Fed. Cir. 2014) (“[A] patentee's
announcement that it was no longer pursuing particular claims, coupled with its ceasing to litigate them
was sufficient to remove those claims from the case.”).
Office Star argues that judgment is appropriate as to both the Adjustable Lumbar and PostureFit versions
of the AERON chair. Office Star notes that Herman Miller’s trial evidence included evidence related to the
PostureFit model. Some of this evidence is cited by Herman Miller in support of its claim that the AERON
chair has secondary meaning. See, e.g., Ex. 1002, Dkt. 380-35 (depicting scenes of a television show
with PostureFit version of Aeron chair). At trial, Herman Miller also relied on sales and marketing figures
for the PostureFit version in order to establish the fame and recognition of the Aeron chair.
Page 41 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 42 of 50 Page ID
#:13887
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

Herman Miller’s partial reliance on evidence related to the PostureFit version during the trial did not leave
its trade dress in controversy once the claim was withdrawn. Therefore, Herman Miller’s Motion for
Judgment as a Matter of Law regarding the validity of the PostureFit version of the AERON trade dress is
GRANTED.
D.

Conclusion

For the foregoing reasons, Herman Miller’s Motion for Judgment as a Matter of Law is GRANTED IN
PART as to the existence of secondary meaning in the AERON chair and the question of jurisdiction over
the PostureFit version, and DENIED IN PART as to all other relief sought.
V.
Herman Miller’s Motion for Entry of Final Judgment and Permanent Injunction With
Respect to the EAMES Trade Dress (Dkt. 379)
A.

Introduction

Following trial, the jury returned a verdict (Dkt. 344) that both Herman Miller’s registered and unregistered
EAMES trade dress had been willfully infringed, and that Herman Miller suffered $3.3 million in
infringement damages. This amount of damages was based on the amount of Office Star’s profits from
sale of the infringing chairs, which were entered as a proxy for Herman Miller’s injury. See Dkt. 338 at 38
(JI 33A). This use of profits as a proxy for injury was testified to by Herman Miller’s damages expert
Suzanne Heinemann (“Heinemann”). 10/4 AM Tr., Dkt. 364 at 15; See also Ex. 1342, Dkt. 384-49
(showing Office Star’s net profits and sales). The jury further awarded Herman Miller dilution damages of
$5.1 million. See Dkt. 344.
In accordance with the verdict, Herman Miller seeks entry of Final Judgment and a Permanent Injunction
on the following terms:
1.
2.
3.
4.
5.
6.

$8.4 million in damages;
An accounting for any infringing sales not included in the verdict;
Prejudgment interest of $332,411;
Post-judgment interest according to 28 U.S.C. § 1961;
An injunction against further infringement in the United States; and
An injunction against further sales activities in foreign countries that cause injury to Herman Miller
in the United States.

Dkt. 379 at 6.
Herman Miller requests prejudgment interest calculated by using the monthly sales revenues of the
Accused Chairs based on the amount awarded by the jury, and spread over the time that the infringing
chairs were first sold in January 2011 until the trial in August 2016. Connolly Decl., 379-25 ¶¶ 8-9. Using
the prime rate, interest was then calculated monthly and compounded annually.
Office Star argues that prejudgment interest is not available as a matter of law. The Lanham Act
expressly provides for prejudgment interest in cases of counterfeit marks. 15 U.S.C. § 1117(b). This
action arises under § 1117(a). See Neurovision Med. Prods., Inc.v. Nuvasive, Inc., No.CV 09-6988 DSK
Page 42 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 43 of 50 Page ID
#:13888
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

(JEMx), 2014 WL 12567167, at *2 (C.D. Cal. Dec. 2, 2014) (“[T]here is ample reason to believe that
Congress explicitly did not intend for prejudgment interest to be awarded under § 1117(a) because it
provided prejudgment interest as an additional remedy . . . for the use of a counterfeit mark in the very
next subsection of the statute.”).
Herman Miller notes that prejudgment interest has been applied in cases of willful trademark
infringement. See Gorenstein Enters., Inc. v. Quality Care-USA, Inc., 874 F.2d 431, 436 (7th Cir. 1989)
(prejudgment interest in a trademark infringement case is particularly appropriate when infringement is
intentional and outrageous); United Phosphorus, Ltd. v. Midland Fumigant, Inc., 205 F.3d 1219, 1236
(10th Cir. 2000) (reversing denial of prejudgment interest in trademark infringement claim). However,
these cases did not address the distinction between §§ 1117(a) and 1117(b). “At best, they stand for a
general disposition in favor of prejudgment interest – especially in ‘exceptional’ cases.” Neurovision Med.
Prods., 2014 WL 12567167, at *2.
Because the statute does not provide for such an award, and it has not been shown that this is an
exceptional case, Herman Miller’s request for prejudgment interest is DENIED.
A.

Post-Judgment Interest

Herman Miller also requests post-judgment interest pursuant to 28 U.S.C. § 1961. “Such interest shall be
calculated from the date of the entry of the judgment, at a rate equal to the weekly average 1-year
constant maturity Treasury yield, as published by the Board of Governors of the Federal Reserve
System, for the calendar week preceding[] the date of the judgment.” Id.
Herman Miller’s request is GRANTED. This interest shall apply from the date of judgment. Should
Herman Miller elect to accept the remittitur, post-judgment interest will be based on the corresponding
amount of damages. If a new trial on damages proceeds, interest will be based on the amount, if any,
determined at trial.
B.

Permanent Injunction
1.

Requested Relief

Herman Miller seeks an injunction that would bar Office Star from selling the Accused Chairs. Its
proposed language is as follows:
(1) Office Star is permanently enjoined from selling, marketing, advertising, promoting,
shipping, transferring, distributing – or otherwise inducing or contributing to the foregoing
activities – anywhere in the world, any of the following model numbers of chairs identified
in the Jury Verdict, or any colorable imitations thereof:
73631, 73633, 73632, 73638, 73639, 74613LT, 74123LT, 74612LT, 74618LT,
73129LT, 74603LT, 74023LT, 74602LT, 74608LT, 73029LT, 74653, 74523,
74652, 74658, 73529, 73603, 73023, 74023, 74123, 74603, 74613, 7360M,
7361M, 7360MLT, 7361MLT, 78603LT, 78023LT, EC39890C-EC3,
EC39891C-EC3, EC39895C-EC3.
Page 43 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 44 of 50 Page ID
#:13889
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

(2) Office Star is permanently enjoined from selling, marketing, advertising, promoting,
shipping, transferring, distributing – or otherwise inducing or contributing to the foregoing
activities – anywhere in the world, any chair that is a copy or colorable imitation of any
Herman Miller EAMES Aluminum Group chair, images of which are appended hereto from
Trial Exhibit 1314, or other chair products so similar to the EAMES chair designs as to be
likely to cause confusion, to cause mistake or to deceive or to dilute the distinctive quality
of the EAMES chair designs.
(3) Office Star is permanently enjoined from contesting the validity of Herman Miller’s
trade dress rights in the EAMES Aluminum Group designs in any court or agency
proceeding, or from assisting any other entity to do so.
(4) Consistent with Fed. R. Civ. P. 65(d), this Injunction shall extend to Office Star’s
officers, agents and servants, and all other persons in active concert or participation with
Office Star with actual notice of this Injunction. For avoidance of doubt, Office Star[’s]
manufacturer of the infringing chairs – King Hong Industrial Co., Ltd. – shall be deemed in
active concert with Office Star, as will Office Star’s dealers and distributors of the infringing
chairs.
(5) This Injunction shall not apply to any conduct that is expressly authorized by
Herman Miller.
(6) The Court shall retain jurisdiction to administer the Injunction and ensure compliance
therewith, whether by contempt proceedings or as otherwise necessary.
2.

Legal Standards

The Lanham Act provides that a court may issue an injunction “according to the principles of equity and
upon such terms as the court may deem reasonable, to prevent the violation of any right of the registrant
of a mark registered in the Patent and Trademark Office . . . .” 15 U.S.C. § 1116(a).
A plaintiff seeking a permanent injunction must demonstrate
(1) that it has suffered an irreparable injury; (2) that remedies available at law, such as
monetary damages, are inadequate to compensate for that injury; (3) that, considering the
balance of hardships between the plaintiff and defendant, a remedy in equity is warranted;
and (4) that the public interest would not be disserved by a permanent injunction.
eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391 (2006).

Page 44 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 45 of 50 Page ID
#:13890
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.
3.

Date

August 1, 2017

Application
a)

Whether Injunctive Relief is Warranted

The evidence presented at trial demonstrated that Office Star has sold substantial units of infringing
products. More than 75,000 units have been sold since 2010. Ex. 801, Dkt. 379-11. These sales
generated total revenues of approximately $11.5 Million. Id. Beyond financial harm, Herman Miller
contends that it has suffered, and will continue to suffer irreparable harm, through lost goodwill and
damage to its reputation if the sales continue. “Harm to goodwill and loss of the ability to control a party’s
reputation based on an inability to control the infringer’s products are irreparable harms” and “distribution
of [] a great number of counterfeit goods — particularly goods of inferior quality — risks harming the
goodwill and value of Plaintiffs’ trademark and constitutes irreparable harm.” Burberry Ltd. UK v. Cohen,
No.LA CV 12-02384 JAK (PLAx), 2013 WL 12113995, *2 (C.D. Cal. 2013) (Kronstadt, J.) (granting
permanent injunction in trademark case). See also Razor USA LLC v. Vizio, Inc., No.:CV 14-01586 SJO
(JCGx), 2015 WL 12656941, at *9 (C.D. Cal. Oct. 19, 2015) (“dilution of a famous mark itself can
constitute an irreparable injury”).
The jury found that Herman Miller’s trade dress has been diluted. Herman Miller states that it does not
license the EAMES trade dress, and maintains strict control over their production to ensure high quality
construction and maintenance of a consistent distinctive look. See Dkt. 355 at 53 (testimony of Bond
regarding production process); 77 (describing measures taken for quality control). If Office Star continued
making the infringing chairs, Herman Miller would lose its ability to control the trade dress in the market,
resulting in irreparable injury to the brand from lower quality copies and erosion of the distinctive
appearance of its design.
The balancing of the hardships also favors injunctive relief. Office Star has no legitimate interest in
engaging in unlawful conduct in violation of the Lanham Act.
Finally, the public interest favors injunctive relief. There is an interest in the enforcement of the trademark
laws, barring willful infringement and protecting against consumer confusion.
In light of the foregoing factors, injunctive relief is warranted here.
b)

Scope of Relief

Office Star argues that the proposed injunction is vague and ambiguous, and fails to identify what specific
acts are forbidden in a manner that would allow enforcement by a court. Dkt. 383 at 28. “If an injunction
does not clearly describe prohibited or required conduct, it is not enforceable by contempt.” Reno Air
Racing Ass’n, Inc. v. McCord, 452 F.3d 1126, 1132 (9th Cir. 2006) (quoting Gates v. Shinn, 98 F.3d 463,
468 (9th1996)). Specifically, Office Star objects to Herman Miller’s proposal that the injunction extend to
sale of “any colorable imitations” of the accused chairs. Office Star argues that, at a minimum, the
injunction must specify what protectable elements of the trade dress are included within the enjoined
conduct. Office Star cites Landscape Forms, Inc. v. Columbia Cascade Co., 113 F.3d 373, 381 (2d Cir.
1997) (“focus on the overall look of a product does not permit a plaintiff to dispense with an articulation of
the specific elements which comprise its distinct dress”).
Page 45 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 46 of 50 Page ID
#:13891
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

Herman Miller argues that extending the injunction to “colorable imitations” of the EAMES trade dress is
both unambiguous and necessary to prevent Office Star from avoiding the injunction by making minor
changes to its infringing chairs. Herman Miller cites Wolfard Glassblowing Co. v. Vanbragt, 118 F.3d
1320 (9th Cir. 1997). There, the court addressed similar concerns:
When enforcing injunctions that enjoin use of any mark confusingly similar to the protected
mark, courts should . . . simply evaluate whether or not the new mark is confusingly similar
to the protected mark. . . . This conclusion is consistent with the rule that an infringer must
keep a fair distance from the ‘margin line.’. . . [A trademark infringer] should have its
conduct carefully scrutinized in future use and should not be allowed to claim the same
leniency accorded a good faith user who starts use of the mark which the enjoined
defendant has shifted to. Otherwise, the enjoined defendant could simply make a tiny
change and start a new trademark contest all over again in the context of the contempt
hearing as to the use of the ‘new’ format.
Id. at 1322-23 (internal quotation marks omitted). The court found that any “colorable imitations” of the
trademark in question were subject to the injunction.
The language of the injunction is reasonably tailored to prevent such infringement, and does not
unreasonably limit Office Star from developing and selling non-infringing products. Therefore, the scope
of the proposed judgment is appropriate.
4.

Injunction of Extraterritorial Sales

Herman Miller also seeks to enjoin sales in foreign markets. Herman Miller states that Office Star sells its
products through distributors, who may resell them throughout the world. Herman Miller contends that the
chairs are also sold online by retailers. In support of granting such an injunction under the Lanham Act,
Herman Miller cites Reebok Int'l, Ltd. v. Marnatech Enters., 970 F.2d 552, 554-555 (9th Cir. 1992). There,
the Ninth Circuit upheld an injunction prohibiting sale of counterfeit shoes in Mexico, upon finding that
“sales of counterfeit REEBOK shoes decreased the sale of genuine REEBOK shoes in Mexico and the
United States and directly decreased the value of Reebok’s consolidated holdings.” The Ninth Circuit
considered three factors:
first, there must be some effect on American foreign commerce; second, the effect must
be sufficiently great to present a cognizable injury to plaintiffs under the federal statute;
and third, the interests of and links to American foreign commerce must be sufficiently
strong in relation to those of other nations to justify an assertion of extraterritorial authority.
Id. (citing Timberlane Lumber Co. v. Bank of Am. Nat’l Tr. & Sav. Ass'n, 549 F.2d 597 (9th Cir.1976)).
As to the first of these factors, Herman Miller argues that Office Star’s international sales have a
significant effect on American foreign commerce. Herman Miller is based in Grand Rapids, Michigan,
where it manufactures the EAMES Chairs. 9/27 AM Tr., Dkt. 363 at 48-49. Hogan, the Director of Global
Business Financial Systems, declares that Herman Miller exports a large amount of EAMES chairs. See
Hogan Decl., Dkt. 379-23. Exhibit A to his declaration states the number of such sales in recent years.
Dkt. 379-24. It also reflects that between 2000 and 2016, Herman Miller sold almost 100,000 EAMES
Page 46 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 47 of 50 Page ID
#:13892
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

Aluminum Group chairs overseas, which generated approximately $88 million in revenues. Id. Almost
half these sales were in Canada. Id. This evidence supports the claim that the risk of lost sales and trade
dress dilution is present through sales in foreign markets, and would have an effect in the United States.
As to the second factor, Herman Miller argues that the harm from lost foreign sales is sufficiently large
and cognizable to warrant the requested relief. For the same reasons stated above, this weighs in favor
of the requested injunction as to Office Star sales in Canada. That is the foreign market in which Herman
Miller has the greatest presence. Exhibit A to the Hogan Declaration reflects that, from 2000 to 2016, a
total of 51,432 EAMES Aluminum Group units were sold in Canada, compared to 6,284 sales in Australia,
the foreign country with the second highest amount of sales. Id. Office Star argues that extending the
injunction to “the entire world” is overbroad, as there are many countries in which Herman Miller conducts
little to no business. Office star adds that injunctive relief must be narrowly tailored to address the claimed
harms. Office Star also argues that a global injunction would unnecessarily interfere with the laws of other
nations, including jurisdictions in which Herman Miller attempted and failed to obtain registered
trademarks for the EAMES design. Office Star’s counsel has submitted a declaration identifying Malaysia
and Argentina as examples.
As to the relative interests of American foreign commerce and those of other nations, Reebok stated its
assessment should be based on a balancing of the following seven factors:
[T]he degree of conflict with foreign law or policy, the nationality or allegiance of the parties
and the locations or principal places of business of corporations, the extent to which
enforcement by either state can be expected to achieve compliance, the relative
significance of effects on the United States as compared with those elsewhere, the extent
to which there is explicit purpose to harm or affect American commerce, the foreseeability
of such effect, and the relative importance to the violations charged of conduct within the
United States as compared with conduct abroad.
Reebok Int’l, 970 F.2d at 555 (quoting Timberlane, 549 F.2d at 614).
Herman Miller has not shown that infringement in other jurisdictions threatens to cause additional
domestic infringement. There is no evidence that counterfeit goods are being imported. Nor has Herman
Miller provided any evidence regarding the law enforcement interests of other nations. Herman Miller
does not have registered trade dress rights to the EAMES chair in certain foreign countries. These factors
weigh against granting an injunction here.
Although an injunction on domestic production and sale of the infringing chairs is appropriate under the
Lanham Act, Herman Miller has not sufficiently shown that the interests of American foreign commerce
are sufficiently strong to warrant injunctive relief as to all foreign activities. However, Herman Miller’s
strong business interests in Canada weigh in favor of an injunction extending to there. Therefore, an
extraterritorial injunction is GRANTED IN PART, as to Canada only.

Page 47 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 48 of 50 Page ID
#:13893
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.
5.

Date

August 1, 2017

Other Factors Related to the Scope of Injunctive Relief
a)

Injunction on Related Parties

Herman Miller argues that pursuant to Fed. R. Civ. P. 65(d), the injunction should apply to all Office Star
employees, agents and entities acting in concert or participation with Office Star. Herman Miller requests
that this include Office Star’s distributors of the infringing chairs, and also the manufacturer, King Hong
Industrial No., Ltd. (“King Hong”), which was identified at trial. 9/28 PM Tr., Dkt. 356 at 41.
Office Star argues that such an injunction would be in violation of the “long observed [] general rule that a
court may not enter an injunction against a person who has not been made a party to the case before it.”
Additive Controls & Measurement Sys., Inc. v. Flowdata, Inc., 96 F.3d 1390, 1394 (Fed. Cir. 1996). Office
Star acknowledges that individuals who act in concert with an enjoined party to violate an injunction may
be held in contempt. See id. at 1395. However, it argues that no grounds have been shown to treat King
Hong or other entities as acting in active concert prior to the issuance of a judgment. Office Star adds that
such an injunction would be redundant, because Rule 65(d)(2)(C) binds non-parties who receive actual
notice of the injunction and “are in active concert or participation” with the enjoined.
Because inclusion of non-parties in the injunction is redundant, and potentially prejudicial to entities who
were not parties to this case, the request for this proposed relief is DENIED.
b)

Injunction on Challenging EAMES Trade Dress

Office Star also challenges the proposed language that would permanently enjoin it from contesting the
validity of the “trade dress rights in the Eames Aluminum Group designs.” Dkt. 383 at 33. Office Star
argues that this language could be read to enjoin any appeal of the present judgment, which would be
improper and contrary to its legal rights. Although this interpretation of the scope of the language is not
persuasive, this language is unnecessary. Office Star is prevented from re-litigating the issues in this
case by the doctrine of res judicata.
C.

Whether Post-Judgment Damages Should Be Awarded

The Lanham Act permits a prevailing party to request an accounting of a defendant’s profits from willful
infringement on a protected trademark or protected trade dress. It states that in cases of willful
infringement,
the plaintiff shall be entitled, subject to the provisions of sections 1111 and 1114 of this
title, and subject to the principles of equity, to recover (1) defendant's profits, (2) any
damages sustained by the plaintiff, and (3) the costs of the action. The court shall assess
such profits and damages or cause the same to be assessed under its direction. In
assessing profits the plaintiff shall be required to prove defendant's sales only; defendant
must prove all elements of cost or deduction claimed. In assessing damages the court
may enter judgment, according to the circumstances of the case, for any sum above the
amount found as actual damages, not exceeding three times such amount. If the court
shall find that the amount of the recovery based on profits is either inadequate or
excessive the court may in its discretion enter judgment for such sum as the court shall
Page 48 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 49 of 50 Page ID
#:13894
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.
find to be just, according to the circumstances of the case. Such sum in either of the above
circumstances shall constitute compensation and not a penalty. The court in exceptional
cases may award reasonable attorney fees to the prevailing party.

15 U.S.C. § 1117(a).
In cases of willful infringement, an accounting is generally warranted. Lindy Pen Co. v. Bic Pen Corp., 982
F.2d 1400, 1405 (9th Cir. 1993), superseded by statute on other grounds, Trademark Amendments Act of
1999, Pub. L. No. 106–43, 113 Stat. 218; see also Playboy Enters., Inc. v. Baccarat Clothing Co., Inc.,
692 F.2d 1272, 1274 (9th Cir. 1982) (“[A]n award of little more than nominal damages would encourage a
counterfeiter to merely switch from one infringing scheme to another as soon as the infringed owner
became aware of the fabrication. Such a method of enforcement would fail to serve as a convincing
deterrent to the profit maximizing entrepreneur who engages in trademark piracy.”). Furthermore, such
an accounting supports the Lanham Act’s purpose of preventing unjust enrichment from acts of willful
infringement. See Maier Brewing Co. v. Fleischmann Distilling Co., 390 F.2d 117, 123 (9th Cir. 1968).
District courts are granted broad discretion to fashion remedies for violations of trademark law. See id. at
121.
An accounting of profits under Section 1117(a) is a form of equitable relief. Fifty-Six Hope Rd. Music, Ltd.
v. A.V.E.L.A., Inc., 778 F.3d 1059, 1074 (9th Cir. 2015), cert. denied, 136 S. Ct. 410 (2015). Therefore,
such an accounting may properly be ordered following the return of a jury verdict without violating a
party’s right to a jury trial. See id.
Herman Miller requests that an accounting of all sales of the infringing products since the September 9,
2016 judgment, and that any profits from such sales be disgorged by Office Star. Herman Miller proposes
that this assessment may be made according using the methodology of Heinemann. Herman Miller notes
that the determinations of profit made by Heinemann and presented at trial were consistent with the jury’s
verdict. See Ex 801, Dkt. 384-25 (stating profits of Office Star); Ex. 1342, Dkt. 384-49 (damages
calculations by Heinemann).
Office Star has not opposed this request. Furthermore, as noted above, the jury’s finding of willfulness in
infringing on the EAMES trade dress was reasonable. Therefore, disgorgement of profits from the time of
the verdict is appropriate here, and is GRANTED; provided, however, this is without prejudice to the right
of Office Star to contest the reliability and accuracy of the amount claimed. The Court retains jurisdiction
to address such issues through timely filed motions.
VI.

Conclusions

For the foregoing reasons, Office Star’s Motion for Judgment as a Matter of Law as to damages is
GRANTED IN PART, as to remittitur for dilution damages, and DENIED IN PART as to all other requests.
Office Star’s remaining Motions for Judgment as a Matter of Law are DENIED. Herman Miller’s Motion for
Judgment as a Matter of Law is GRANTED IN PART. Herman Miller’s Motion for Judgment and
Permanent Injunction is GRANTED IN PART. On or before August 8, 2017, Herman Miller shall file a
statement as to whether it will accept the remitter or request a new trial as to dilution damages.
On or before August 15, 2017, counsel shall meet and confer to seek to reach an agreement on a
Page 49 of 50

Case 5:14-cv-01926-JAK-SP Document 396 Filed 08/01/17 Page 50 of 50 Page ID
#:13895
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

ED CV14-01926 JAK (SPx)

Date

August 1, 2017

Title

Blumenthal Distributing, Inc. d/b/a Office Star, et al. v. Herman Miller, Inc.

proposed judgment for entry in this matter. If no such agreement can be reached, within that same time
period, Herman Miller shall lodge a proposed judgment, to attach a proposed injunction in keeping with
the requirements set out above. Office Star may file any objections to these filings in accordance with the
Local Rules no later than August 22, 2017.

IT IS SO ORDERED.
:
Initials of Preparer

ak

Page 50 of 50

APPENDIX C

Case 5:14-cv-01926-JAK-SP Document 418 Filed 10/10/18 Page 1 of 2 Page ID #:14013

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11
12

BLUMENTHAL
DISTRIBUTING, INC. d/b/a
OFFICE STAR, et al.,

13

Plaintiff,

14

v.

15

HERMAN MILLER, INC.,

16

Defendant.
___________________________

17

)
)
)
)
)
)
)
)
)
)
)
)

Case No. ED CV 14-1926-JAK (SPx)
ORDER ACCEPTING FINDINGS
AND RECOMMENDATION OF
UNITED STATES MAGISTRATE
JUDGE ON AMOUNT OF
ATTORNEYS’ FEES AND COSTS TO
BE AWARDED AS SANCTIONS (DKT.
410)

18
19

Pursuant to 28 U.S.C. § 636, the Court has reviewed the records on file and

20 the Report and Recommendation of the United States Magistrate Judge on the
21 Amount of Attorneys’ Fees and Costs to be Awarded as Sanctions. Dkt. 410.
22 Further, the Court has engaged in a de novo review of those portions of the Report to
23 which plaintiff and counter-claim defendant Blumenthal Distributing Inc., also
24 known as Office Star (“Office Star”) has objected. The Court has also reviewed all
25 of the pertinent filings by Herman Miller, including its billing statements. It did so in
26 part to consider independently the following statement on page 11 of the Report and
27 Recommendation: “Without knowledge of the nature and scope of the Sanctions
28 Motion and computer forensic work in particular, such requested hours would

Case 5:14-cv-01926-JAK-SP Document 418 Filed 10/10/18 Page 2 of 2 Page ID #:14014

1 appear facially unreasonable.” Based on the entire review, the Court accepts the
2 findings and recommendation of the Magistrate Judge.
3

IT IS THEREFORE ORDERED that Office Star is ordered to pay monetary

4 sanctions to defendant and counter-claim plaintiff Herman Miller, Inc. (“Herman
5 Miller”) in the total amount of $264,436.26, consisting of $262,895.30 in fees and
6 $1,541.96 in costs. These fees and costs are those the court ordered that Herman
7 Miller be awarded in its September 2, 2016 Order, with the amounts to be
8 determined, as they now have been.
9

IT IS SO ORDERED

10
11
12
13

Dated: October 10, 2018

________________________________
JOHN A. KRONSTADT
UNITED STATES DISTRICT JUDGE

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
2

APPENDIX D

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 1 of 14 Page ID #:13976

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11 BLUMENTHAL DISTRIBUTING, INC.)
d/b/a OFFICE STAR,
)
12
)
Plaintiff,
)
13
)
v.
)
14
)
)
15 HERMAN MILLER, INC.,
)
)
16
Defendant.
)
)
17
)
18
19

Case No. ED CV 14-1926-JAK (SPx)
REPORT AND
RECOMMENDATION OF UNITED
STATES MAGISTRATE JUDGE
ON AMOUNT OF ATTORNEYS’
FEES AND COSTS TO BE
AWARDED AS SANCTIONS

This Report and Recommendation is submitted to the Honorable John A.

20 Kronstadt, United States District Judge, pursuant to the provisions of 28 U.S.C.
21 § 636 and General Order 05-07 of the United States District Court for the Central
22 District of California, and pursuant to the court’s referral order in this matter dated
23 September 12, 2017.
24

I.

25

INTRODUCTION

26

Plaintiff and counter-claim defendant Blumenthal Distributing, Inc., also

27 known as Office Star (“OS”), and defendant and counter-claim plaintiff Herman
28
1

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 2 of 14 Page ID #:13977

1 Miller, Inc. (“HM”) are both designers and distributors of furniture, including
2 office chairs. Docket no. 13 ¶¶ 5-6; docket no. 40 ¶ 13. This case arose out of a
3 dispute between the parties as to whether OS chairs infringe the registered and
4 unregistered trade dress rights to the EAMES and AERON chair designs, which
5 are owned by HM.
6

On May 16, 2016, HM filed a Motion for Default Judgment or Sanctions in

7 the Alternative against OS. The motion was the culmination of a number of long8 standing discovery disputes, discussions, and orders in this case. After the motion
9 was fully briefed, the court issued a Report and Recommendation on July 12, 2016,
10 recommending that the District Court grant in part and deny in part HM’s motion
11 (“7/12/16 R&R”). Among other things, the court found: OS unjustifiably failed to
12 comply with the court’s September 25, 2015 order when it failed to search its
13 employees’ individual hard drives and all other relevant network drives; OS failed
14 to institute a litigation hold so as to preserve electronically stored information
15 (“ESI”), which resulted in the spoliation of evidence after OS’s duty to preserve
16 attached; and OS failed to adequately search for ESI, and subsequently made
17 misrepresentations to the court and HM regarding the search, which delayed the
18 production of discovery such that HM was deprived of documents during
19 depositions. 7/12/16 R&R at 22-37, 53-55. The court recommended the jury be
20 given an adverse inference instruction, discovery be reopened, and HM be awarded
21 monetary sanctions.
22

In a September 2, 2016 order, the District Court adopted the Report and

23 Recommendation to the extent specified in that order. With respect to monetary
24 sanctions, the District Court ordered that OS shall pay HM’s “reasonable attorney’s
25 fees and costs associated with” the following:
26

1.

HM’s November 21, 2015 Ex Parte Application to enforce prior

27 discovery orders (“Application to Enforce Discovery”) (docket no. 102);
28
2

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 3 of 14 Page ID #:13978

1

2.

HM’s May 16, 2016 Motion for Default Judgment or Sanctions

2 (“Sanctions Motion”) (docket no. 204);
3

3.

Engaging experts to analyze OS’s computers; and

4

4.

Taking past depositions and reviewing portions of certain deposition

5 testimony with respect to the reasons ESI was not maintained and promptly
6 produced.
7

The court directed the parties to submit supplemental briefing to allow the

8 court to determine the amount of fees and costs to be awarded, which the parties
9 did in September and October 2016. Docket nos. 295, 350, 352. On September
10 12, 2017, the District Court referred the matter to the Magistrate Judge for a
11 recommended ruling, and the court now issues that recommendation, as follows.
12

II.

13

DISCUSSION

14

As updated and stated in its Reply, HM seeks a total of $271,093 in fees and

15 $1,541.96 in costs.1 See Declaration of Jean-Paul Ciardullo in Support of
16 Defendant’s Supplemental Brief on Attorney’s Fees and Costs (“Ciardullo Decl.”)
17 ¶¶ 39, 41, Ex. 16; Supplemental Declaration of Jean-Paul Ciardullo in Support of
18 Herman Miller’s Brief on Attorneys’ Fees and Costs (“Supp. Ciardullo Decl.”)
19 ¶¶ 3, 16, Ex. B. The fees and costs sought with respect to each of the categories set
20 forth above are as follows.
21

First, for time spent preparing the Application to Enforce Discovery, HM

22 seeks the following fees:
23
24
25

1

Although HM states it seeks $271,115.70 in fees, this figure appears to be
26 based on two arithmetical errors, namely, (1) understating Eoin Connolly’s
estimated fees for work on the instant Reply by $2.50, and (2) including an extra
27 $25.20 in fees sought for Richard McKenna’s work on the forensic collection. The
28 court has corrected both these errors in the corresponding tables below.
3

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 4 of 14 Page ID #:13979

1
2
3
4
5
6

Attorney or Staff
Jonathan Moskin (Partner)
Richard McKenna (Partner)
Jean-Paul Ciardullo (Sr. Counsel)
FEES SUBTOTAL:

Rate
$750
$630
$555

Hours
2.6
1.4
25.7
29.7

Amount Sought
$ 1,950
$
882
$ 14,263.50
$ 17,095.50

Second, for time spent preparing the Sanctions Motion (which apparently

7 included reviewing deposition testimony regarding the reasons ESI was not
8 maintained and promptly produced), including time spent on the instant
9 supplemental fee and costs briefing and estimated time spent on its Reply in
10 support, HM seeks the following fees:
11
12
13
14
15
16
17
18
19
20

Attorney or Staff
Jonathan Moskin (Partner)
Jonathan Moskin (Partner)
Richard McKenna (Partner)
Jean-Paul Ciardullo (Sr. Counsel)
Jean-Paul Ciardullo (Sr. Counsel)
Eion Connolly (Associate)
Paul Tigue (Paralegal)
Leslie Nash (Litigation Support)
FEES SUBTOTAL:

Rate
$750
$795
$630
$555
$590
$325
$240
$295

Hours
4.7
38.3
6.9
23.9
181.3
22.3
38.9
3
319.3

Amount Sought
$ 3,525
$ 30,448.50
$ 4,347
$ 13,264.50
$106,967
$ 7,247.50
$ 9,336
$
885
$176,020.50

Third, for time spent and costs incurred analyzing OS’s computers, HM

21 seeks the following fees and costs (with one arithmetical correction by the court):
22
Attorney or Staff
Rate
Hours
Amount Sought
23 Jonathan Moskin (Partner)
$750
10.9
$ 8,175
24 Jonathan Moskin (Partner)
$795
5.7
$ 4,531.50
25 Richard McKenna (Partner)
$630
5
$ 3,150
$555
56.5
$ 31,357.50
26 Jean-Paul Ciardullo (Sr. Counsel)
$590
26.5
$ 15,635
27 Jean-Paul Ciardullo (Sr. Counsel)
Paul Tigue (Paralegal)
$225
0.8
$
180
28
4

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 5 of 14 Page ID #:13980

1
2
3
4
5
6
7

Paul Tigue (Paralegal)
$240
Leslie Nash (Litigation Support)
$280
Leslie Nash (Litigation Support)
$295
Fees Subtotal:
Costs
Setec Investigations
FEES AND COSTS SUBTOTAL:

10
11
12
13
14

17
18
19
20
21
22
23
24
25
26
27
28

$ 1,541.96
$ 68,237.96

namely, depositions of Juan Monsivais, Austin Engel, and EMC Corporation’s
designee – HM seeks the following fees:
Attorney or Staff Member
Jonathan Moskin (Partner)
Richard McKenna (Partner)
Jean-Paul Ciardullo (Sr. Counsel)
FEES SUBTOTAL:

15
16

$
144
$
868
$ 2,655
$ 66,696

Fourth, for time spent taking depositions regarding the spoliation of ESI –

8
9

0.6
3.1
9
118.1

Rate
$795
$630
$590

Hours
1.4
0.5
16.7
18.6

Amount Sought
$ 1,113
$
315
$ 9,853
$ 11,281

OS opposes the amounts of requested fees and costs on a number of
grounds, including: HM’s billing records do not provide sufficient information to
tell whether time on work not covered by the September 2, 2016 order has been
subtracted; some of the fees sought are for work falling outside the scope of the
order; the time spent on some tasks was unreasonable; and the billing records
submitted were so heavily redacted it is not possible to assess the reasonableness of
the time spent. The court addresses these issues below.
A.

Attorney’s Fees
The court’s September 2, 2016 order provided that HM be awarded its

“reasonable attorney’s fees” associated with the Application to Enforce Discovery,
Sanctions Motion, analyzing OS’s computers, and taking depositions about the
reasons ESI was not maintained and promptly produced. The amount of a
reasonable fee is generally determined according to the lodestar method, that is,
5

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 6 of 14 Page ID #:13981

1 “the number of hours reasonably expended on the litigation multiplied by a
2 reasonable hourly rate.” Hensley v. Eckerhart, 461 U.S. 424, 433, 103 S. Ct. 1933,
3 76 L. Ed. 2d 40 (1983). A reasonable rate is generally demonstrated based on the
4 submission of evidence that the requested rates are reflective of the prevailing rate
5 in the community based on comparable skill, experience, and reputation. Blum v.
6 Stenson, 465 U.S. 886, 895 n.11, 104 S. Ct. 1541, 79 L. Ed. 2d 891 (1984). “[T]he
7 fee applicant bears the burden of establishing entitlement to an award and
8 documenting the appropriate hours expended and hourly rates.” Hensley, 461 U.S.
9 at 437.
10

Here, HM submitted tables setting forth the hours worked by each attorney,

11 paralegal, and litigation support manager on each of the four categories of work for
12 which monetary sanctions were ordered, and their hourly rates for those hours.
13 Ciardullo Decl. ¶ 41, Ex. 16; Supp. Ciardullo Decl. ¶ 3, Ex. B. It also submitted
14 billing records reflecting those hours worked. Ciardullo Decl. ¶¶ 2-12, Exs. 1-11;
15 Supp. Ciardullo Decl. ¶¶ 4-16, Exs. 1-12. Additionally, it submitted information
16 describing the experience and expertise of the attorneys and staff who worked on
17 these matters, and an article to support its assertion that the hourly rates charged
18 for work done by these individuals are consistent with the rates charged in Los
19 Angeles by other top-tier national law firms. Ciardullo Decl. ¶¶ 16-20, 23-27, 3020 34, 37-38, 42, Exs. 13-15, 17.
21

The court finds HM has adequately demonstrated the reasonableness of the

22 hourly rates requested here, and OS has not challenged those rates. Thus, the court
23 should accept the rates as requested.
24

OS does challenge the reasonableness of the hours requested by HM. As

25 indicated above, OS makes four general objections that the billing records were
26 overly redacted, that the billing records were insufficient, that HM seeks fees for
27 work outside the scope of the order, and that the hours submitted are unreasonable.
28
6

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 7 of 14 Page ID #:13982

1 OS also specifically disputes 41 particular billing entries, the first 39 of which
2 concern fees, and the last two of which concern costs.2 Declaration of David A.
3 Dillard in Support of Blumenthal Distributing, Inc.’s Response to Defendant’s
4 Supplement Brief on Attorneys’ Fees and Costs (“Dillard Decl.”) ¶ 2, Ex. A. The
5 court will consider each of OS’s challenges.
6

1.

7

OS argues HM’s heavy redaction to the billing records submitted as Exhibits

Redaction of the Billing Records

8 1-11 to the Ciardullo Declaration makes it impossible for OS or the court to assess
9 the reasonableness of the time requested, or whether reductions for non-covered
10 tasks were reasonable. HM largely addressed this objection by submitting more
11 lightly redacted versions of these same records with its Reply. See Supp. Ciardullo
12 Decl., Exs. 1-11. Because OS did not have the benefit of these unredacted records
13 when preparing its response, however, the court will scrutinize the records more
14 carefully.
15

Although the redactions factor into many of OS’s specific billing entry

16 disputes, the redactions appear to form the chief basis for only Disputes 3-7. OS
17 argues the redactions of the date, timekeeper, hours, and/or fees from these entries
18 makes it impossible to tell whether these entries were included on HM’s summary
19 charts of its requested fees. See Ciardullo Decl., Ex. 16. In its Reply, HM states
20 the redaction of such information was inadvertent. See Supp. Ciardullo Decl., Ex.
21 A. The unredacted records show such information, and it appears these hours and
22
23
24
25
26
27
28

2

Although the entries OS disputes are not numbered, the court refers to them
by number in the order made. For example, the first disputed entry in Exhibit A to
the Dillard Declaration is dated October 2, 2015 and is referenced below as
Dispute 1. For correlation purposes, the court notes: the entry of Dispute 10 is
dated October 21, 2015; the entry of Dispute 20 is the second entry in Exhibit A
dated November 16, 2015 and has timekeeper RJMC; the entry of Dispute 30 is
dated January 22, 2016; and the entry of Dispute 40 is the first cost dispute, and is
to an Invoice from Setec for $150.
7

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 8 of 14 Page ID #:13983

1 fees are included in HM’s summary of its requested fees. For example, HM seeks
2 fees of $13,650 for 18.2 hours of work by Jonathan Moskin prior to February 1,
3 2016, when his hourly rate increased. The billing records submitted for the months
4 of October 2015 through January 2016 show a total of 18.2 hours worked by
5 Moskin for which HM requests fees here, including those worked on October 12
6 and 16, 2015 (Disputes 4 and 7). See Supp. Ciardullo Decl., Exs. 1-4. Thus, the
7 removal of the redactions has revealed these entries are included in the summary of
8 requested fees.
9

OS also questions the entry in Dispute 4, reflecting that Jonathan Moskin

10 conferred with Jean-Paul Ciardullo, as the records reflect no corresponding time
11 entry for Ciardullo. HM acknowledges this, but states Mr. Ciardullo’s
12 corresponding time was omitted as a courtesy.
13

As the entries in Disputes 3-7 appear otherwise properly included in HM’s

14 fees request, the court should not reduce any of the fees requested in these entries.
15

2.

Sufficiency of the Billing Records

16

OS challenges some of the entries as too vague for it to tell whether the work

17 concerns the discovery matters at issue in the Sanctions Motion, specifically in
18 Disputes 1, 2, and 17. HM responds: the entry in Dispute 1 concerns
19 correspondence with opposing counsel on the October 1, 2015 certification of a
20 complete production and the 101,000 emails; the entry in Dispute 2 concerns
21 correspondence with opposing counsel to set up the Eddie Mora deposition and
22 collect unproduced financial data; and the entry in Dispute 17 was an office
23 conference regarding a discovery dispute, specifically, the forensic document
24 collection. Supp. Ciardullo Decl., Ex. A. The court finds HM has addressed OS’s
25 vagueness challenge to the entries in Disputes 1 and 2, and they appear properly
26 included in the request for the most part. But the fee award should be reduced by
27 half the fees sought with the entry in Dispute 2 (that is, by $83.25), because the
28
8

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 9 of 14 Page ID #:13984

1 collection of unproduced financial data is not covered by the September 2, 2016
2 order, as discussed below. Additionally, HM did not address OS’s concern that the
3 entry in Dispute 17 does not indicate who participated in the office conference, and
4 the information remains vague. As such, the $252 sought with this entry should be
5 subtracted from the requested fee award.
6

OS also argues that in those instances where a single billing entry reflects

7 multiple tasks, HM does not sufficiently indicate whether the fees were reasonably
8 adjusted. This argument is one of the bases for Disputes 8, 19, and 38. The
9 removal of redactions addresses this concern in part, as, for example, it is now
10 possible to tell what all the tasks were in the entry for Dispute 8, and that HM is
11 seeking only $999 of the total $3,718.50 it was billed for all the work in that entry.
12 But OS also questions the accuracy of the reductions, since HM made them in
13 connection with the instant briefing months after the tasks in many instances.
14

In his first declaration in connection with this briefing, Mr. Ciardullo states

15 that since he was intimately familiar with the work performed, he “was able to
16 conservatively divide certain of the entries that included unrelated work,” and that
17 where an estimate was required, he “made a conservative low-end estimate, or
18 simply discounted the time altogether.” Ciardullo Decl. ¶ 14. Certainly it was not
19 possible for Mr. Ciardullo to be sure of the precise time spent on covered versus
20 non-covered tasks many months after the fact. But based on the court’s review of
21 the disputed and other entries, it appears Mr. Ciardullo did indeed reasonably and
22 conservatively reduce the fees requested so as to exclude non-covered tasks where
23 the entries reflected multiple tasks. Thus, the court should not eliminate requested
24 fees simply because there are multiple tasks in certain entries.
25

3.

Work Falling Within the Scope of the Order

26

OS argues that many of the hours requested were spent on work not covered

27 by the September 2, 2016 order. This contention is the basis or one of the bases for
28
9

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 10 of 14 Page ID
#:13985

1 Disputes 9-16, 20-24, 26, 28-32, and 34.
2

HM has adequately addressed some of OS’s concerns. For example, where

3 OS questioned whether certain entries actually related to the computer forensic
4 issues, in some instances HM was able to explain that they did, and in others HM
5 explained that the time had actually been reduced to exclude the non-forensic
6 work. See Supp. Ciardullo Decl., Ex. A. Further, internal conferences and reports
7 by counsel regarding the forensic work are reasonably covered by the order.
8 Additionally, time spent subpoenaing the three witnesses whose depositions were
9 necessitated by the spoliation is properly covered by the order, as the order
10 explicitly provides for such deposition costs. As such, the court should not
11 subtract the fees sought for the entries in Disputes 9, 10, 15, 20-24, 26, 28-32, and
12 34 as falling outside the scope of the September 2, 2016 order.
13

In other instances, although the entries reflect work that is somewhat related

14 to the computer forensic issues, the connection is too tangential to be fairly covered
15 by the September 2, 2016 order. Thus, for example, where a stipulation was
16 necessary to allow more time for the forensic work and covered its terms but also
17 other matters, it goes beyond fees spent towards engaging experts to analyze OS’s
18 computers. Moreover, although the July 12, 2016 Report and Recommendation
19 discussed OS’s delays in producing certain information due to failure to adequately
20 search for ESI, the court did not order monetary sanction for time spent collecting
21 this delayed financial data and other discovery. The court should therefore subtract
22 from the requested fee award the fees sought for the entries in Disputes 11
23 ($1,831.50), 12 ($225), 13 ($721.50), 14 ($1,054.50), and 16 ($198.45).
24

4.

Reasonableness of the Time Spent on Tasks

25

OS argues the billing entries reflect an excessive and unreasonable amount

26 of time spent on the tasks in question. OS makes this challenge in particular to the
27 entries in Disputes 8, 18, 19, 25, 27-31, 33, and 35-39.
28
10

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 11 of 14 Page ID
#:13986

1

As a general matter, the court notes HM is requesting fees for a total of 29.7

2 hours of work on the Application to Enforce Discovery, 319.3 hours of work on
3 the Sanctions Motion, 118.1 hours of work to analyze OS’s computers, and 18.6
4 hours of work to take three depositions regarding spoliation of ESI. Without
5 knowledge of the nature and scope of the Sanctions Motion and computer forensic
6 work in particular, such requested hours would appear facially unreasonable. But
7 both constituted monumental undertakings in this case. As reflected in the July 12,
8 2016 Report and Recommendation, the discovery obstacles HM faced, particularly
9 with respect to the spoliation of ESI and efforts to find responsive information on
10 OS’s computers, were tremendous. The Magistrate Judge was closely monitoring
11 aspects of the process at times, and is thus aware of the huge time and effort
12 invested. The hours spent on the Sanctions Motion also reflect the substantial time
13 needed to discover and explain the problems and failures. Consequently, the court
14 finds nothing inherently unreasonable in the large numbers of hours submitted for
15 these matters.
16

The court further finds the time requested for the tasks in Disputes 8, 19, 25,

17 28, 33, and 37-39 is not unreasonable. In particular, HM has adequately explained
18 why certain hours that might otherwise appear excessive are not under the
19 circumstances, and why certain entries that appeared erroneous or otherwise
20 unwarranted are not. See Supp. Ciardullo Decl., Ex. A.
21

As for Dispute 18, HM has not adequately addressed OS’s stated concern.

22 The court does not doubt the necessity of the work, but as the need for a
23 conference of this length is unclear, the court should reduce the time in this entry
24 by half, and thus subtract $187.50 from the requested fee award.
25

HM has explained the hours in Dispute 27, but they nonetheless appear

26 excessive as explained. The court should award fees for only 2 hours for this
27 entry, and thus subtract $777 from the requested fee award.
28
11

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 12 of 14 Page ID
#:13987

1

Disputes 29-31 concern a combined 4 hours requested for work serving third

2 party subpoenas. Although the court appreciates HM’s explanation of the
3 problems encountered, the court should reduce hours by 25%, or one hour, to
4 reflect a more reasonable amount of time. As such, the court should subtract $555
5 from the requested fee award.
6

HM agrees to waive the fee in Dispute 35. Accordingly, $88.50 should be

7 subtracted from the requested fee award.
8

OS expresses concern that the entries in Disputes 36, 37, and 38 (like

9 Dispute 35) relate to HM’s decision to change forensic experts. The court agrees
10 hours spent making that decision should not be included. But based on HM’s
11 explanation and the entries themselves, it appears Disputes 37 and 38 relate only to
12 the forensic work done by the second vendor, not the change, and the same is at
13 least partly true for the entry in Dispute 36. But as the entry in Dispute 36 also
14 mentions vendor relocation, the time there should be reduced by half, and thus
15 $189 should be subtracted from the requested fee order.
16

Finally, the court has taken a careful look at the fees HM requested in its

17 Reply, as OS did not have a chance to review these fees. These fees consist of: (1)
18 a previously unsubmitted entry from August 5, 2016 for $2,242 for 3.8 hours spent
19 by Jean-Paul Ciardullo on the opposition to objections to the July 12, 2016 Report
20 and Recommendation, which HM states was inadvertently omitted previously; (2)
21 billing records from August 31 through September 16, 2016 for work done by Eion
22 Connolly (22.2 hours)3 and Mr. Ciardullo (4.1 hours) on the instant fee and costs
23
24

3

The court notes the hours requested as set forth in the tables submitted with
25 HM’s reply indicate only 21 hours for Mr. Connolly, apparently excluding the 1.2
26 hours he billed on August 31, 2016. See Supp. Ciardullo Decl., Ex. B. The court
does not know if this was intended by HM, but conservatively defers to its
27 submission and thus has left this time (and the corresponding $390 in fees) out of
28 its fee calculations and tables set forth above.
12

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 13 of 14 Page ID
#:13988

1 briefing, totaling $9,634; and (3) estimated fees from October 2016 for work done
2 on the instant fee and costs briefing by Mr. Connolly (1.3 hours) and Mr. Ciardullo
3 (6.9 hours), totaling $4,491. See Supp. Ciardullo Decl. ¶¶ 14-16, Exs. 11-12.
4

In light of the opposition HM filed to the objections, and considering the

5 additional 3.8 hours submitted along with the other billing records reflecting work
6 on the opposition in July and August 2016, the court does not find the additional
7 3.8 hours to be excessive or unreasonable. The instant fee and costs briefing is an
8 extension of the Sanctions Motion, and as HM could not reasonably have
9 submitted most of these additional fees with its initial fee briefing, the court finds it
10 appropriate to include these fees as well. But given the nature of the fee briefing
11 and the uncertainty of the estimated time, the court should reduce Mr. Ciardullo’s
12 estimated time by half for reasonableness, and thus reduce the requested fee award
13 by $2,035.50.
14

Accordingly, the $271,093 in total requested fees by HM should be reduced

15 by $8,198.70. Thus, monetary sanctions of $262,894.30 in fees should fairly be
16 awarded to HM.
17 B.

Costs

18

The only costs sought by HM are the $1,541.96 it paid to Setec

19 Investigations for computer forensic work. See Ciardullo Decl. ¶ 39. HM also
20 states it had an unresolved disagreement with Maryman & Associates – the first
21 computer forensics vendor HM used – regarding Maryman’s invoice, and asks that
22 the award of forensic expenses be deferred until that dispute is resolved. Yet more
23 than a year has passed since HM made that request, and the court is aware of no
24 supplemental submission in this regard. OS objects to HM’s request to defer the
25 award of expenses, and argues it should not have to pay for expenses related to
26 HM’s decision to switch vendors. The court agrees with OS that the time to submit
27 expenses has long passed, so the court should limit its costs award to costs incurred
28
13

Case 5:14-cv-01926-JAK-SP Document 410 Filed 02/26/18 Page 14 of 14 Page ID
#:13989

1 in retaining Setec.
2

Since HM should not be awarded its costs incurred in connection with

3 Maryman’s services, OS’s objection to paying for the courier from Maryman to
4 Setec makes no sense (see Dispute 41). Although as discussed above the court
5 agrees as a general matter that OS should not have to pay for HM’s decision to
6 switch vendors, the $114.40 spent to have a courier ferry Maryman’s work to Setec
7 was presumably much less than HM paid Maryman for that work, and thus a
8 bargain that should fairly be paid by OS. See Ciardullo Decl., Ex. 12 at 2.
9

In Dispute 40, OS objects to paying HM’s half of a bill the parties agreed to

10 split for additional load file creation. Although the parties agreed to split the bill at
11 the time, this is certainly a part of the computer forensic work. As such, OS should
12 be ordered to pay it.
13

Accordingly, the court should award HM the full costs it requests,

14 $1,541.96.
15

III.

16

RECOMMENDATION

17

IT IS THEREFORE RECOMMENDED that the District Court issue an

18 Order approving and accepting this Report and Recommendation, and ordering that
19 OS be ordered to pay monetary sanctions to HM in the total amount of
20 $264,436.26, consisting of $262,895.30 in fees and $1,541.96 in costs.
21
22
23 DATED: February 26, 2018
24

SHERI PYM
United States Magistrate Judge

25
26
27
28
14

APPENDIX (

Case: 18-56471, 08/04/2020, ID: 11776415, DktEntry: 70, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

AUG 4 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

BLUMENTHAL DISTRIBUTING, INC.,
DBA Office Star,
Plaintiff-counter-defendantAppellant/Cross-Appellee,
v.

Nos. 18-56471, 18-56493
D.C. No.
5:14-cv-01926-JAK-SP
ORDER

HERMAN MILLER, INC.,
Defendant-counter-claimantAppellee/Cross-Appellant.
Before: HURWITZ and FRIEDLAND, Circuit Judges, and KORMAN, * District
Judge.
The panel has voted to deny the petition of Blumenthal Distributing, Inc. d/b/a
Office Star Products (“OSP”) for panel rehearing. Judge Hurwitz and Judge
Friedland have voted to deny the petitions of OSP and Herman Miller, Inc. (“HM”)
for rehearing en banc, and Judge Korman has so recommended. The full court was
advised of each party’s petition for rehearing en banc and no judge has requested a
vote on whether to rehear the matter en banc. Fed. R. App. P. 35.
The petition of OSP for panel rehearing and the petitions of OSP and HM for
rehearing en banc are DENIED.
*

The Honorable Edward R. Korman, United States District Judge for
the Eastern District of New York, sitting by designation.

